<html>
<title> - BROADENING PARTICIPATION IN STEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    BROADENING PARTICIPATION IN STEM

=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 16, 2010

                               __________

                           Serial No. 111-85

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
55-843                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri                  
VACANCY                                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                   MOLLY O'ROURKE Research Assistant
                            C O N T E N T S

                             March 16, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Marcia L. Fudge, Vice Chair, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     8

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

                               Witnesses:

Dr. Shirley M. Malcom, Head of the Directorate for Education and 
  Human Resources Programs, American Association for the 
  Advancement of Science
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    24

Dr. Alicia C. Dowd, Associate Professor of Higher Education, 
  University of Southern California, and CO-Director of the 
  Center for Urban Education
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    34

Dr. Keivan G. Stassun, Associate Professor of Physics and 
  Astronomy, Vanderbilt University, and Co-Director of the Fisk-
  Vanderbilt Master's-To-Ph.D. Bridge Program
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    50

Dr. David Yarlott, President of Little Big Horn College, and 
  Chair of the Board of Directors for the American Indian Higher 
  Education Consortium
    Oral Statement...............................................    51
    Written Statement............................................    54
    Biography....................................................    83

Ms. Elaine L. Craft, Director of the South Carolina Advanced 
  Technological Education National Resource Center, Florence 
  Darlington Technical College
    Oral Statement...............................................    84
    Written Statement............................................    87
    Biography....................................................    93

              Appendix: Answers to Post-Hearing Questions

Dr. Alicia C. Dowd, Associate Professor of Higher Education, 
  University of Southern California, and CO-Director of the 
  Center for Urban Education.....................................   112

Ms. Elaine L. Craft, Director of the South Carolina Advanced 
  Technological Education National Resource Center, Florence 
  Darlington Technical College...................................   115


                    BROADENING PARTICIPATION IN STEM

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                  House of Representatives,
     Subcommittee on Research and Science Education
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                    Broadening Participation in STEM

                        tuesday, march 16, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, March 16, the Subcommittee on Research and Science 
Education of the House Committee on Science and Technology will hold a 
hearing to examine institutional and cultural barriers to broadening 
the participation of students pursuing degrees in science, technology, 
engineering, and mathematics (STEM), efforts to overcome these barriers 
at both mainstream and minority serving institutions, and the role that 
Federal agencies can play in supporting these efforts.

2. Witnesses:

        <bullet>  Dr. Shirley M. Malcom, Head of the Directorate for 
        Education and Human Resources Programs, American Association 
        for the Advancement of Science

        <bullet>  Dr. Alicia C. Dowd, Associate Professor of Higher 
        Education, University of Southern California and Co-Director of 
        the Center for Urban Education

        <bullet>  Dr. Keivan Stassun, Associate Professor of Physics & 
        Astronomy, Vanderbilt University, and the Co-Director of the 
        Fisk-Vanderbilt Masters-to-Ph.D. Bridge Program

        <bullet>  Dr. David Yarlott, President of Little Big Horn 
        College, and Chair of the Board of Directors for the American 
        Indian Higher Education Consortium

        <bullet>  Ms. Elaine Craft, Director of the South Carolina 
        Advanced Technological Education National Resource Center, 
        Florence Darlington Technical College

3. Overarching Questions:

    <bullet>  What is the current status of underrepresented groups in 
science and engineering? How do these data vary by discipline and type 
of institution? What role do different types of institutions, such as 
minority serving institutions and institutions that primarily serve 
undergraduates, play in broadening participation?
    <bullet>  What are the greatest challenges to achieving more 
diversity in science and engineering? How do challenges vary by type of 
institution and demographic subgroup? Are there policies, programs or 
activities with demonstrated effectiveness in increasing the 
participation, recruitment, and degree attainment of underrepresented 
groups in STEM?
    <bullet>  What role can the Federal Government play in addressing 
challenges and barriers to broadening participation in STEM? How are 
programs at NSF in particular helping to broaden participation in STEM, 
and how do those programs need to be changed, if at all? How can 
existing programs and institutions best leverage each other's expertise 
and experience toward a common goal of increasing diversity in STEM?

4. Background

    According to a recent report by the National Science Board, Science 
and Engineering Indicators 20101,\1\ undergraduate enrollment in higher 
education has risen steadily from 14.5 million in 1993 to 18.7 million 
in 2006, with increases projected to reach 20.1 million in 2017. In 
conjunction with increased enrollment, the number of science, 
technology, engineering, and mathematics (STEM) bachelor's degrees has 
also risen to nearly 486,000, and for the last 15 years STEM degrees 
have accounted for one-third of all bachelor's degrees awarded. The 
composition of individuals earning bachelor's degrees in STEM has 
changed over time. Since 2000, women have earned more than half of all 
STEM bachelor's degrees, but this percentage varies widely among fields 
with women being disproportionately underrepresented in physics, 
computer science, and engineering. The number of minorities receiving 
bachelor's degrees in STEM has also grown slightly, with black students 
earning eight percent of all degrees in 2007, Hispanic students earning 
eight percent, and Native Americans earning 0.7 percent, up from seven 
percent, six percent and 0.5 percent in 1995, respectively.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/statistics/seindl0/start.htm
---------------------------------------------------------------------------
    Despite these gains, concern remains over the number of minority 
students earning STEM degrees. The proportion of STEM bachelor's 
degrees earned by minority students (17 percent) is much lower than the 
representation of minorities within the U.S. population (37 percent). 
Also, the fraction of the college age population, ages 18-24, 
represented by minorities is expected to grow to 55 percent in 2050, 
heightening concerns that the current gap may continue to widen. At the 
same time, the need for a background in STEM is becoming increasingly 
more important, with the Bureau of Labor Statistics projecting that 
STEM occupations will grow by 21.4 percent between 2006 and 2016, 
compared to the projected growth in all other occupations of just 10.4 
percent. Furthermore, as students progress past the undergraduate level 
in their academic careers, the gap among ethnic groups becomes more 
evident with just 11 percent of STEM doctoral degrees awarded to 
underrepresented minorities. Trends also indicate that there have been 
marginal increases in the participation of underrepresented minorities 
at the faculty level. In 2007, within the top 100 research 
universities, just four percent of the faculty members in biology were 
underrepresented minorities, with computer science, physics, and civil 
engineering having minority representation of three percent, three 
percent, and six percent, respectively.\2\ In light of shifting 
demographics and the growing importance of STEM, many companies and 
experts believe we must further the development of this untapped talent 
pool, as we will be relying on them to make future discoveries and 
innovations as well as to fill the skilled workforce.
---------------------------------------------------------------------------
    \2\ Nelson, Donna. 2007. A National Analysis of Minorities in 
Science and Engineering Faculties at Research Universities. http://
chem.ou.edu/djn/diversity/Faculty<INF>-</INF>Tables<INF>-</INF>FY07/
FinalReport07.html
---------------------------------------------------------------------------
    Many experts have also asserted that broadening the participation 
of underrepresented minorities in STEM holds the added benefit of 
creating a diverse learning environment for all STEM students. Research 
has demonstrated that a diversity of viewpoints and backgrounds 
increases creativity, and a leads to a stronger, more productive 
workforce overall.

The Role of NSF

    In 1980, Congress passed the Science and Engineering Equal 
Opportunities Act, which called on the National Science Foundation 
(NSF) ``to promote scientific and engineering literacy and the full use 
of the human resources of the Nation in science and engineering.'' NSF 
has taken this charge seriously, incorporating broadening participation 
related goals throughout its strategic plan. For fiscal year (FY) 2011, 
NSF has requested $788 million for programs and activities with either 
a specific focus or an emphasis on broadening the participation of 
underrepresented groups and/or the types of institutions engaged in 
STEM education and research.
    NSF's broadening participation programs are supported primarily 
through the Education and Human Resources (EHR) Directorate. The types 
of activities supported by EHR include: improving research capabilities 
at minority-serving institutions; developing effective recruitment and 
retention strategies for underrepresented groups; improving the 
transition of students across educational junctions; research to 
understand and address gender-based differences in STEM education and 
workforce participation; and direct financial support for 
underrepresented students. In addition to the broader activities 
supported by EHR, NSF's research directorates support programs and 
activities targeted toward specific disciplines. For example, the 
Directorate for Computer & Information Science & Engineering has a 
program specifically for broadening participation in computing; the 
number of undergraduate degrees earned in computer science has been 
declining over the last few years and historically the field has not 
been pursued by underrepresented minorities or women.
    Of particular note in the EHR budget is the proposed restructuring 
of programs to broaden participation in. STEM at the undergraduate 
level. NSF is proposing a new comprehensive broadening participation 
program that builds on three existing programs: Historically Black 
Colleges and Universities Undergraduate Program (HBCU-UP), Louis Stokes 
Alliances for Minority Participation (LSAMP) and Tribal Colleges 
Undergraduate Program (TCUP), and newly invites proposals from Hispanic 
Serving Institutions, citing the mandate in Sec. 7033 of the COMPETES 
Act. Funding for this newly consolidated program would be $103 million 
in FY 2011, a $13 million or 14.4 percent increase from the total FY 
2010 funding for HBCU-UP, LSAMP and TCUP.
    During the March 10 Subcommittee hearing \3\ on NSF's FY 2011 
budget request, the NSF Director, Dr. Arden Bement, provided a more 
detailed description of NSF's vision for the consolidated program. Dr. 
Bement stated that the goal of the program was to build on the 
successes and lessons learned from the targeted programs, and to put 
the combined program in the position to grow not only within NSF, but 
to create opportunities to leverage the program and its activities 
across Federal agencies and with the private sector. Four potential 
funding tracks within the comprehensive program were also outlined. 
Specifically, the program would include: 1) Louis Stokes Model 
Alliances: this track would be based on the current program and would 
establish inter-institutional networks, including at least two 
minority-serving institutions, for the sharing of information and the 
development of curriculum; 2) Transformational Initiatives: this track 
would focus on building capacity and the integration of research and 
education with an emphasis on activity-based learning and educational 
transition points; 3) Targeted Initiatives: this track recognizes the 
differences between institution types as well as cultural differences 
among underrepresented groups, and would support focused efforts that 
address those specific needs; and 4) Research: this track would 
complement the other tracks and support research on specific barriers 
and issues, but would also address grand challenges in broadening 
participation.
---------------------------------------------------------------------------
    \3\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?newsid=2753

---------------------------------------------------------------------------
The Role of Other Agencies

    Other Federal science and engineering agencies such as NOAA, NASA, 
and DOE also support programs designed in whole or in part to increase 
the number individuals from underrepresented groups entering STEM 
fields. The types of activities supported by these agencies generally 
include building research capacity at minority-serving institutions, 
providing financial support to students from underrepresented groups 
who are pursuing STEM degrees related to the mission of the agency, and 
providing research and other hands-on experiences to students, 
including summer internships.

5. Questions for Witnesses

Dr. Shirley M. Malcom

        1.  What is the current status of and trends for the 
        involvement of underrepresented groups in science and 
        engineering? How do these data vary by discipline and type of 
        institution? What are the greatest challenges to achieving more 
        diversity in science and engineering?

        2.  Please describe AAAS's efforts to increase the 
        participation of women and underrepresented minorities in 
        science and engineering careers, including the consulting 
        services and legal resource materials provided to individual 
        universities and colleges by the Center for Advancing Science & 
        Engineering Capacity.

        3.  What role can the Federal Government play in addressing 
        challenges and barriers to broadening participation in STEM? 
        How are programs at NSF in particular helping to broaden 
        participation in STEM, and how do those programs need to be 
        changed, if at all? How can existing programs and institutions 
        best leverage each other's expertise and experience toward a 
        common goal of increasing diversity in STEM?

Dr. Alicia C. Dowd


        1.  Please provide an overview of your research on diversity in 
        science, technology, engineering and mathematics (STEM). What 
        are the greatest challenges to achieving more diversity in 
        STEM? What are the particular challenges for increasing the 
        participation of Hispanic students in STEM fields? Are there 
        policies, programs or activities with demonstrated 
        effectiveness in increasing the participation, recruitment, and 
        degree attainment of underrepresented groups in STEM?

        2.  What are the current research gaps for understanding and 
        addressing STEM diversity? Is the current National Science 
        Foundation (NSF) support for research in these areas adequate 
        in terms of both the level of funding and the nature of the 
        programs supporting such research? Do you have any 
        recommendations for changes to NSF's existing portfolio of 
        diversity and diversity research activities?

        3.  How can existing programs and institutions best leverage 
        each other's expertise and experience toward a common goal of 
        increasing diversity in STEM?

Dr. Keivan Stassun


        1.  What are the greatest challenges to achieving more 
        diversity in science and engineering? To what extent do these 
        challenges vary by discipline? What are the particular 
        challenges for a major research university such as Vanderbilt?

        2.  Please describe the Fisk-Vanderbilt Masters to Ph.D. Bridge 
        Program, including a description of the development of the 
        inter-institutional partnership, how the program has changed 
        and expanded over its history and any characteristics that you 
        feel are central to the program's success. What do you believe 
        are the challenges to replicating the successes of this program 
        at other institutions, including at other major research 
        universities?

        3.  What role can the Federal Government play in addressing 
        challenges and barriers to broadening participation in STEM? 
        How are programs at NSF in particular helping to broaden 
        participation in STEM, and how do those programs need to be 
        changed, if at all? How can existing programs and institutions 
        best leverage each other's expertise and experience toward a 
        common goal of increasing diversity in STEM?

Dr. David Yarlott


        1.  As Chair of the Board of Directors for the American Indian 
        Higher Education Consortium, please describe the role of Tribal 
        Colleges and Universities (ICUs) in broadening the 
        participation of Native American students in STEM fields, 
        including a description of how these institutions, and the 
        challenges they face in implementing successful STEM programs, 
        compare to other minority serving institutions and to 
        mainstream institutions.

        2.  Please describe the STEM programs at Little Big Horn 
        College. Are there programs or activities that have been 
        effective at increasing recruitment and degree attainment in 
        STEM? How is Little Big Horn College partnering with other 
        institutions in STEM? What are some of the unique challenges 
        Little Big Horn College faces in STEM education and are these 
        challenges similar across TCUs?

        3.  What role has the NSF's Tribal Colleges and Universities 
        Program (TCUP) played in the development of STEM degrees and 
        programs at Little Big Horn College and at other TCUs? How has 
        the TCUP program served your institution's needs, and how does 
        this program need to be changed, if at all?

Ms. Elaine Craft


        1.  Please provide a description of your institution, its STEM 
        programs, and the demographics of your student population and 
        faculty. How do the demographics within your STEM programs 
        compare to the demographics institution-wide, and to the 
        demographics of the community you serve?

        2.  Does your institution have particular policies, programs 
        and activities with demonstrated effectiveness in increasing 
        the participation, recruitment, and degree attainment of 
        underrepresented groups in STEM? How does your institution 
        interact or partner with other institutions and organizations 
        to achieve these goals? What do you believe are the greatest 
        challenges to achieving more diversity in science and 
        engineering?

        3.  What role can the Federal Government play in addressing 
        challenges and barriers to broadening participation in STEM? 
        How are programs at NSF in particular helping to broaden 
        participation in STEM, and how do those programs need to be 
        changed, if at all? How can existing programs and institutions 
        best leverage each other's expertise and experience toward a 
        common goal of increasing diversity in STEM?
    Ms. Fudge. [Presiding] Good morning. This hearing will now 
come to order.
    Good morning and welcome to today's Research and Science 
Education Subcommittee hearing on broadening the participation 
of individuals from underrepresented groups in STEM fields. In 
the last three years, this Subcommittee has held four hearings 
focused specifically on the barriers to increasing the interest 
and participation of women in STEM. Today, we want to get a 
better understanding of the unique obstacles faced by 
individuals from different racial, cultural, and socioeconomic 
backgrounds, and hope to identify both common challenges and 
opportunities to widen the STEM pipeline. As many of you know, 
we are in the process of examining the state of National 
Science Foundation programs authorized under the 2007 America 
COMPETES Act, with the goal of strengthening the NSF's research 
and education missions, including programs related to 
broadening participation.
    Science and engineering have become steadily more important 
not only in our daily lives, but also to the economic strength 
and competitiveness of the United States. We have heard many 
times that we, as a Nation, need to produce more scientists and 
engineers, as well as a more STEM-literate workforce to fill a 
growing number of technical jobs. But we will find it much more 
difficult to develop the well-trained STEM workforce we need if 
we continue to overlook significant portions of the talent 
pool. We need to do a better job of developing all of the STEM 
talent the Nation has to offer, especially because changing 
demographics mean that by the year 2050, 55 percent of the 
college population will be from groups that are currently 
minorities.
    Studies show that regardless of background, one-third of 
all incoming freshmen plan to major in a STEM field, but the 
fraction of students completing STEM degrees varies widely by 
race. Between 32 and 38 percent of all minority students 
intending to pursue an undergraduate STEM degree actually get 
one. When you compare these numbers to the 58 percent of white 
students and 74 percent of Asian students who do successfully 
complete their undergraduate STEM degrees, it raises several 
concerns.
    First, we need to identify and address the preparatory, 
cultural and institutional barriers faced by underrepresented 
groups. But these numbers also remind me that the attrition 
rates, especially in fields like computer science or 
engineering, are too high regardless of demographic.
    I look forward to hearing from our witnesses today about 
what is working, what obstacles remain, where we go from here, 
and how the Federal Government can help. Again, I am 
particularly interested in any recommendations the witnesses 
may have about the broadening participation programs managed by 
the NSF. This is a particularly timely issue given the 
Administration's fiscal year 2011 budget, in which they propose 
consolidating many of the NSF's existing broadening 
participation programs into a single comprehensive framework.
    I thank all the witnesses for being here today and I look 
forward to your testimony.
    [The prepared statement of Vice Chair Fudge follows:]
            Prepared Statement of Vice Chair Marcia L. Fudge
    Good morning and welcome to today's Research and Science Education 
Subcommittee hearing on broadening the participation of individuals 
from underrepresented groups in STEM fields. In the last three years, 
this Subcommittee has held four hearings focused specifically on the 
barriers to increasing the interest and participation of women in STEM. 
Today, we want to get a better understanding of the unique obstacles 
faced by individuals from different racial, cultural, and socioeconomic 
backgrounds, and hope to identify both common challenges and 
opportunities to widen the STEM pipeline. As many of you know, we are 
in the process of examining the state of National Science Foundation 
programs authorized under the 2007 America COMPETES Act, with the goal 
of strengthening the NSF's research and education missions, including 
programs related to broadening participation.
    Science and engineering have become steadily more important not 
only in our daily lives, but also to the economic strength and 
competitiveness of the United States. We have heard many times that we, 
as a nation, need to produce more scientists and engineers, as well as 
a more STEM-literate workforce to fill a growing number of technical 
jobs. But we will find it much more difficult to develop the well-
trained STEM workforce we need if we continue to overlook significant 
portions of the talent pool. We need to do a better job of developing 
ALL of the STEM talent the Nation has to offer, especially because 
changing demographics mean that by 2050, 55 percent of the college 
population will be from groups that are currently minorities.
    Studies show that regardless of background, one-third of all 
incoming freshmen plan to major in a STEM field, but the fraction of 
students completing STEM degrees varies widely by race. Between 32 and 
38 percent of all minority students intending to pursue an 
undergraduate STEM degree actually get one. When you compare these 
numbers to the 58 percent of white students and 74 percent of Asian 
students who do successfully complete their undergraduate STEM degrees, 
it raises several concerns. First, we need to identify and address the 
preparatory, cultural, and institutional barriers faced by 
underrepresented groups. But these numbers also remind me that the 
attrition rates, especially in fields like computer science or 
engineering, are too high regardless of demographic.
    I look forward to hearing from our witnesses today about what is 
working, what obstacles remain, where we go from here, and how the 
Federal Government can help. Again, I am particularly interested in any 
recommendations the witnesses may have about the broadening 
participation programs managed by the NSF. This is a particularly 
timely issue given the Administration's FY 2011 budget, in which they 
propose consolidating many of the NSF's existing broadening 
participation programs into a single comprehensive framework.
    I thank all the witness for being here today and I look forward to 
your testimony.

    Ms. Fudge. The Chair now recognizes Dr. Ehlers for an 
opening statement.
    Mr. Ehlers. Thank you, Madam Chair.
    Today's hearing is indeed an opportunity to gain insight 
into how Congress can best support participation of 
underrepresented minorities in science, technology, engineering 
and math. While we have had success with some of the Federal 
programs targeted at attracting and retaining these students in 
STEM, the overall numbers are still discouraging. Strengthening 
STEM education is essential to the future of American economic 
competitiveness and it is also essential to the future of the 
students involved because that is where the jobs will be, and 
we must prepare our students for the jobs of the future. The 
lack of underrepresented minority participation in these areas 
is a great hindrance that must be remedied.
    The National Science Foundation has requested almost $800 
million in fiscal year 2011 for programs with a specific focus 
or an emphasis on broadening the participation of 
underrepresented groups in STEM education and research. I am 
curious to learn how program successes can be leveraged and 
what changes are needed for us to consider. In particular, the 
consolidation that has been proposed as a matter of concern to 
me and I think everyone. I am not automatically against the 
change, it is just that I believe we have to carefully examine 
what this implies and what the likely results will be.
    It is my hope that the witnesses testifying today will 
offer this committee insight into ways to better support STEM 
education for all students as we continue to explore the 
appropriate Federal role. I look forward to the testimony of 
our distinguished panel. I thank each and every one for being 
here today. Thank you.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Today's hearing is an opportunity to gain insight into how Congress 
can support participation of underrepresented minorities in science, 
technology, engineering and math. While we have had success with some 
of the Federal programs targeted at attracting and retaining these 
students in STEM, the overall numbers are still discouraging. 
Strengthening STEM education is essential to the future of American 
economic competitiveness, and the lack of underrepresented minority 
participation in these areas is a great hindrance that must be 
remedied.
    The National Science Foundation has requested almost $800 million 
in fiscal year 2011 for programs with a specific focus or an emphasis 
on broadening the participation of underrepresented groups in STEM 
education and research. 1 am curious to learn how program successes can 
be leveraged, and what changes are needed for us to consider.
    It is my hope that the witnesses testifying today will offer this 
Committee insight into ways to better support STEM education for all 
students as we continue to explore the appropriate Federal role. I look 
forward to the testimony of our distinguished panel, and I thank them 
for being here.
    Thank you, Mr. Chairman.

    Ms. Fudge. Thank you, Dr. Ehlers.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    The report, ``Rising Above the Gathering Storm'', along with 
others, showed that our Nation is as not graduating as many STEM 
professionals as other countries. Members of this committee are 
interested in correcting the reasons we are falling behind.
    For this reason, I along with many others on this committee today 
introduced the original COMPETES bill which was signed in to law on 
August 9th, 2007. Today, nearly three years later we now are beginning 
to see some of these critical programs take effect.
    Mr. Chairman, the fraction of college age population ages 
represented by minorities is expected to grow to 55 percent in 2050. 
The proportion of STEM bachelor's degrees earned by minorities is much 
lower than the representation of minorities within the U.S. population. 
In order to keep America competitive in fixture years, we have some 
work to do.
    Many policymakers, educators, and other professionals worry that 
the ability of the United States to produce enough scientists will fall 
short unless action is taken to develop the potential of under-utilized 
minorities. In order for our Nation to remain competitive, a more 
diverse group of students must be recruited to science study and be 
equipped to thrive.
    Women also continue to be under-represented in most STEM fields, we 
must do more to create opportunities to educate and retain them, 
especially at the university faculty level. A National Academies 
publication called, ``Beyond Bias and Barriers: Fulfilling the 
Potential of Women in Academic Science and Engineering,'' provides 
specific policy directives to help accomplish this goal.
    Based on the National Academies' recommendations, I introduced the 
Fulfilling the Potential of Women in Academic Science and Engineering 
Act. I believe this legislation is a good step in the right direction. 
We must obtain gender equity in the sciences.
    NSF ``Broadening Participation'' programs are particularly 
effective in encouraging women and under-represented minorities to 
pursue STEM careers. I note that the Administration's 2011 Fiscal 
Budget proposes to drastically alter these critical programs at NSF by 
combining them under one umbrella in a wide-ranging program to compete 
for funding.
    I, along with many of my Colleagues on the Congressional Black 
Caucus and the Diversity and Innovation Caucus are concerned that this 
proposal may decrease the effectiveness of individual programs which 
engage students at Historically Black, Tribal, and Hispanic-serving 
colleges.
    In 2007, I offered an amendment which was incorporated in the 
original America COMPETES law which ``directs the National Academies of 
the Sciences to compile a report, to be transmitted to the Congress no 
later than one year after the date of enactment of this Act, about 
barriers to increasing the number of underrepresented minorities in 
science, technology, engineering and mathematics fields and to identify 
strategies for bringing more underrepresented minorities into the 
science, technology, engineering and mathematics workforce.''
    It concerns me and others on this committee that nearly three years 
later this report is yet to be seen. As legislators, we have seen the 
statistics showing minorities are falling behind the rest of the pack 
in the sciences. We are now interested in policy directions to correct 
these statistics. I am keenly interested in hearing the expertise of 
today's witnesses. Mr. Chairman, I yield back.

    Ms. Fudge. At this time I would like to introduce our 
witnesses. Dr. Shirley Malcom is the head of the Directorate 
for Education and Human Resources Program for the American 
Association for the Advancement of Science. Dr. Alicia Dowd is 
an Associate Professor of Higher Education as well as Co-
Director of the Center for Urban Education at the University of 
Southern California. Dr. Keivan Stassun is an Associate 
Professor of Physics and Astronomy as well as the Co-Director 
of the Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program at 
Vanderbilt University. Dr. David Yarlott is the President of 
Little Big Horn College and Chair of the Board of Directors for 
the American Indian Higher Education Consortium. And lastly, 
Ms. Elaine Craft is the Director of the South Carolina Advanced 
Technological Education National Resource Center at Florence 
Darlington Technical College in South Carolina. Welcome, all.
    As our witnesses should know, we will each have five-
minutes--you will each have five minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When you all have completed your spoken 
testimony, we will begin with questions. Each Member will have 
five minutes to question the panel.
    We will start with Dr. Malcom.

STATEMENT OF DR. SHIRLEY M. MALCOM, HEAD OF THE DIRECTORATE FOR 
 EDUCATION AND HUMAN RESOURCES PROGRAMS, AMERICAN ASSOCIATION 
                 FOR THE ADVANCEMENT OF SCIENCE

    Dr. Malcom. Thank you for the opportunity to testify today 
on the critically important topic of broadening participation 
in science, technology, engineering and mathematics, or STEM. 
With Congressman Ehlers announcing his retirement, I would like 
to thank him for his strong and steadfast support for STEM 
education.
    I will focus my remarks on women, minorities and persons 
with disabilities in STEM. At the bachelor's level, women are 
near or above parity in most STEM fields except physics, 
computer science and engineering. Even though the doctorate 
numbers have increased, women are not present among STEM 
faculty at levels that might be expected.
    In trying to understand the patterns of any group in any 
field, it is important to look at the levels of representation 
as well as the trends over time. The levels of bachelor's 
degrees for women in engineering and computer science are about 
the same, around 20 percent, but that 20 percent represents a 
slight improvement over the decade in engineering and a 
significant decline in computer science, far below its all-time 
high of 37 percent in 1984.
    It is important to unpack the numbers in order to 
understand how to move them. In the physical sciences, if we 
look at minority participation, it is driven by the chemistry 
numbers. Physics numbers remain low. Underrepresented 
minorities' improvement is actually being driven by women, with 
underrepresented males underparticipating in all fields as well 
as in STEM. The numbers have been moving in part because of 
programs such as the National Science Foundation's Louis Stokes 
Alliance for Minority Participation and the HBCU-UP 
[Historically Black Colleges-Universities Undergraduate 
Program] well as the more programs at the National Institute of 
General Medical Sciences in the NIH [National Institute of 
Health].
    Persons with disabilities have been recognized by AAAS for 
about 35 years as a community that deserves special focus and 
intervention in STEM education and careers. We are not able to 
present the same kind of data as we are for participation of 
this community as we did for women and minorities, however. The 
issues here deserve more focus as we consider how to support, 
with education and training, U.S. veterans who are returning 
from combat in Iraq and Afghanistan with significant 
disabilities.
    How did we get to this point--modest improvement without 
parity in participation? At the K-12 levels, there are failures 
in policy at every level, from the individual school and 
district to the State and Federal Government. The initiatives 
that have been proposed are steps in the right direction's but 
by themselves they are not enough. We have to build out beyond 
schools to support learning, not just education. AAAS has 
experience in engaging community-wide initiatives and is 
convinced that such approaches have merit. But we have to be 
careful not to become fixated on the idea that you have got to 
fix K-12 before you can move the numbers in STEM. We know too 
many examples of where that is not the case. Even with strong 
K-12 performance, young women get lost to STEM, and even with 
inadequate K-12 preparation many minority-serving institutions 
are able to move underrepresented minorities into STEM. So this 
is not a simple story.
    College pathways differ for students from different 
population groups. Many students go to community college 
because of cost or geographic proximity. These schools have 
large enrollments of underrepresented minorities. They play a 
significant role in the education of teachers and in the 
retraining for the new economy.
    In days when the state institutions were segregated by law, 
HBCUs [Historically black Colleges and Universities] were 
really the only options in higher education for many black 
students in the South. But even as students have begun to 
exercise other options with regard to undergraduate education, 
HBCUs remain the leaders as the top baccalaureate origin 
institutions for black students who received STEM doctorates 
between 2003 and 2007.
    A number of institutions have been designated as Hispanic 
serving. Except for those in Puerto Rico, however, few of these 
institutions were expressly established to address the 
political, social and cultural needs of these populations.
    Producing leaders for STEM means we must pay attention to 
the doctoral numbers. At present, there is reason for concern 
about Ph.D. production of domestic students, period, in all 
fields of engineering as well as in mathematics, physics and 
computer science, where in 2007 temporary residents received 
over half of all doctorates in those fields.
    We have enjoyed progress at the doctoral level and beyond 
because of programs from the NSF such as the Alliances for 
Graduate Education and Professoriate.
    But moving ahead, I want to announce five concerns. The 
fragmented nature of the Federal response that begs for 
coordination at an NSTC-like [National Science and Technology 
Council] level, the scale of the resources that are being 
expended that do not approach the scale of the problems that 
are to be addressed. The consolidation, I believe, is ill 
advised at this point. We have some fields that are especially 
difficult, such as physics and computer science, that warrant 
special attention, and in the faculty and advancement issues we 
must be attentive to the fact that we need to diversify our 
faculty at the same time in order to accomplish the 
diversification of our student populations. Thank you.
    [The prepared statement of Dr. Malcom follows:]
                Prepared Statement of Shirley M. Malcom
    Chairman Lipinski, Ranking Member Ehlers and members of the 
Subcommittee, thank you for the opportunity to testify today on the 
critically important topic of broadening participation in science, 
technology, engineering and mathematics (STEM).
    The American Association for the Advancement of Science (AAAS) is 
the largest multidisciplinary scientific society and publisher of the 
journal Science. The association encompasses all fields of science, 
engineering, mathematics, biomedicine and their applications. Our 
commitment to and involvement in education extends from pre-
Kindergarten through post-graduate and into the workforce.

Women in STEM
    I want to begin my discussion of this topic with some evidence that 
this is an important policy issue that deserves national attention. In 
2006 women received almost 58 percent of all bachelor's degrees awarded 
in the United States and almost 51 percent of the bachelor's degrees 
awarded collectively in science, technology, engineering and 
mathematics, the so-called STEM fields. Their representation in STEM 
ranged from highs of over 77 percent of psychology and almost 62 
percent of biological sciences bachelor's degrees to lows of 19.4 
percent and 20.2 percent, respectively, of engineering and computer 
science bachelor's degrees. (See Figure 1).The story of participation 
that each field tells is an interesting one. Among the low performing 
fields, for example, the engineering levels represent a slight 
improvement from a decade ago; but the representation in computer 
science has declined from the percent of women in the field a decade 
ago.
    In trying to understand the patterns, it is important not only to 
look at levels of representation, but also at trends over time. Are 
things better or worse? And what accounts for the patterns that we see? 
Broad field designations can hide a ``multitude of sins.'' For example, 
the representation in the physical sciences is driven by increases in 
chemistry, where women received almost 52 percent of bachelor's degrees 
in 2006, as opposed to physics, where they received less than 21 
percent. Similarly in the social sciences, women received about 31 
percent of bachelor's degrees in economics and 70 percent of such 
degrees in sociology in 2006.

Underrepresented Minorities in STEM
    Un-packing the numbers is critical to understanding how to move 
them. This is even more the case when considering participation of 
minorities in STEM. Interestingly, underrepresented minorities are as 
likely to be present among the STEM bachelor's pool as they are among 
the pool for all fields. In 2006 African Americans received 9.1 percent 
of all bachelor's degrees awarded and 8.7 percent of STEM bachelor's 
degrees, this while representing 12.4 percent of the total population 
in the United States. Hispanics, meanwhile, received 8.1 percent of all 
bachelor's degrees and 8.0 percent of STEM bachelor's degrees. American 
Indians/Alaskan Natives received 0.7 percent of all degrees and 0.7 
percent of STEM bachelor's degrees in 2006. On the other hand, Asian 
Americans/Pacific Islanders are more likely to be in the STEM pool than 
their representation among all bachelor's degree recipients in 2006, 
9.7 percent versus 6.7 percent, respectively. White, non-Hispanic 
degree recipients received 67.2 percent of STEM bachelor's degree and 
69.7 percent of bachelor's degree recipients for all fields. It should 
be noted, however, that White, non-Hispanic recipients of bachelor's 
degrees in STEM represent a declining proportion of degree recipients 
over the past decade, while the reverse is true for all other groups.
    Another important trend for underrepresented minorities is that 
their present levels are being driven by women. Underrepresented 
minority males are under-participating in all fields including STEM. 
Again, as we look at the individual groups we see a vast set of 
differences within and across fields. For African Americans, 
participation levels ranged from highs of 11.6 percent of bachelor's 
degrees in computer science, 10.5 percent in psychology and 10.3 
percent in social sciences to lows of 1.5 percent and 2.8 percent, 
respectively in earth, atmospheric and ocean sciences and agricultural 
sciences. For Hispanics, representation levels were highest for 
bachelor's degrees in psychology (9.4 percent) and social sciences (8.9 
percent) and, as for African Americans, lowest in earth, atmospheric 
and ocean sciences, and agricultural sciences at 3.6 percent and 3.8 
percent, respectively (See Figure 2).
    Once again, broad fields hide wide variations of participation. For 
example, African Americans received 6.6 percent of 2006 bachelor's 
degrees in the physical sciences. This representation is being driven 
by chemistry, where they received 7.6 percent of degrees awarded. In 
contrast, they received 3.7 percent of 2006 physics bachelor's degrees. 
Interestingly, of 166 bachelor's degrees awarded in physics to African 
Americans in 2004, 49 percent of these were awarded by Historically 
Black Colleges and Universities (HBCUs). http://www.aip.org/statistics/
trends/highlite/minority/table5.htm
    For Hispanics in the social sciences, the 10.3 percent of 
bachelor's degree in 2006 conceals the differences in participation 
between economics, where they represented fewer than six percent of 
degree recipients, and sociology, where they received well over ten 
percent of bachelor's degrees.

Persons with Disabilities in STEM
    Persons with disabilities have been recognized by AAAS for almost 
thirty-five years as a community that deserves special focus and 
intervention in terms of STEM education and careers. Yet we are unable 
to present the data on participation for this community as we did for 
women and minorities. This lack of systematic data makes it difficult 
to paint a clear picture of the presence of members of this community 
within STEM education or workforce and to identify field-specific 
obstacles.
    Our extensive networks of and experiences with the community of 
scientists and engineers with disabilities have led us to a number of 
conclusions as to the needs and potential of persons with disabilities 
in STEM:

        <bullet>  Today, advances in medical science, cognitive 
        interventions and assistive technologies have made it possible 
        to take advantage of the talent and perspectives available for 
        STEM that are resident among persons with disabilities more 
        than ever before.

        <bullet>  The focus within STEM on ``ability rather than 
        disability'' makes these fields attractive career and 
        employment options for persons with disabilities.

        <bullet>  The major barriers to persons with disabilities are 
        often in the area of ``employment,'' though AAAS has developed 
        a number of partnerships with government and the private 
        sector, where we have been able to successfully place 
        scientists and engineers with disabilities in internships, many 
        leading to full employment and advancement potential.

    The issues here deserve more focus particularly as we consider how 
to support, with education and training, U.S. veterans who are 
returning from combat in Iraq and Afghanistan with significant 
disabilities.

A Total Pathways Perspective

    Although I began this testimony focusing on bachelor's degrees in 
STEM for under-participating groups, I want to acknowledge the larger 
issues of ``pathways to STEM,'' from K-12 education to graduate 
education leading to the doctoral degree.

A Focus on K-12
    Many of the challenges with retention and time to degree for 
underrepresented minority students can be traced back to inadequate 
early preparation in K-12:

        <bullet>  Students who leave high school without the 
        prerequisites for success in college, such as four years of 
        rigorous mathematics and science instruction.

        <bullet>  Lack of access to Advanced Placement courses.

        <bullet>  Attendance in schools with poor facilities and poorly 
        prepared faculty.

        <bullet>  Lack of expectations for students to enter and be 
        successful in STEM fields.

    And the list goes on. In many cases these factors relate to 
failures of policy at every level, from the individual school and 
district to the state and Federal Government, from local teacher 
placement and assignment policies to a focus on meeting No Child Left 
Behind requirements to the exclusion of opportunities for learning. 
Proposed initiatives to provide resources to support STEM education 
transformation, to increase standards, to push for more rigorous 
courses, and to require accountability by disaggregated groups are 
steps in the right direction. But, by themselves, they are not enough. 
Engagement with the resources of entire communities, colleges and 
universities, youth-serving groups, faith-based groups and others is 
needed. Students actually spend a small fraction of their waking hours 
in formal education settings. We must build out beyond schools to 
support learning, not just education. AAAS has experience with engaging 
such groups in ``community-wide'' initiatives, and we have evidence 
that such approaches have merit.

Community Colleges
    There are many roads that students take, whether they are 
``traditional'' students who enter higher education immediately 
following high school or so-called ``non-traditional'' students who 
pursue such education some years after completion of high school or 
acquiring a GED.
    The pathways to STEM education and careers via community colleges 
are different for students from different population groups. Over 38 
percent of African American, 51 percent of Hispanic and 42 percent of 
American Indian/Alaskan Native students are enrolled in community 
colleges. In addition, 20 percent of those who go on to become teachers 
begin in community colleges. Fifty percent of teachers attended 
community college at some point, and about 40 percent completed some of 
their mathematics and science preparation in the community college.
    All of these factors cry out for more focused attention on this 
critical component of the STEM pathway. Many students choose to go to 
community college because of the lower cost of such institutions; 
others choose to attend community colleges for reasons of proximity to 
their home community. The older age of typical community college 
students is indicative that many individuals use the institutions as a 
``second chance,'' for retraining and/or seeking new educational and 
career prospects. Students who are under-prepared often use the open 
access to community colleges as a way to make up the deficiencies; 
still others, especially in states where there is strong competition 
for slots in the university system, take advantage of the rules around 
``articulation'' to access the university. Whatever the reason, one 
cannot consider the pathways to STEM without considering the role of 
community colleges. Tribal colleges represent a special case, serving 
populations that are geographically isolated in ways that respect local 
needs and cultural traditions.

HBCUs and HSIs
    Other roads to STEM come through Historically Black Colleges and 
Universities (HBCUs) and Hispanic Serving Institutions (HSIs). In the 
days when state institutions were segregated by law, HBCUs were the 
only options for higher education for Black students, especially in the 
South. As options opened up for African American students to attend 
previously all-White institutions in the region, the proportions of 
African American undergraduates who were enrolled in HBCUs fell, from 
30 percent in 1976 to 18 percent in 2006. Yet, despite the shifting 
population of African American students in higher education, including 
some of the most competitive students, HBCUs outperformed other 
institutions in the proportion of 2004 bachelor's degrees awarded to 
African Americans in chemistry (39 percent) and mathematics (37 
percent) and remained leaders as the top 10 baccalaureate origins 
institutions for Black students who received STEM doctorates between 
2003 and 2007. http://www.nsf.gov/statistics/wmpd/pdf/tabf-7.pdf
    A number of institutions have been designated as ``Hispanic-
serving.'' Except for those in Puerto Rico, however, few of these 
institutions were expressly established to address the political, 
social and cultural needs of these populations. Their designation has 
emerged over time as their demographics have changed. And many such 
institutions have, in like manner to HBCUs, emerged as disproportionate 
contributors to STEM fields and as baccalaureate origins institutions 
for Hispanics who received STEM doctorates. A mixed group of HSIs and 
non-HSIs made up the top 10 list of baccalaureate origins institutions. 
http://www.nsf.gov/statistics/wmpolpdf/tabf-8.pdf

The Road to the Doctorate and Beyond
    Attending to the issue of Ph.D. degree production for women and 
underrepresented minorities depends, of course, on the adequacy in 
numbers and preparation of the bachelor's degree production process, as 
well as the efforts that are made to attract, retain, mentor and 
support STEM students in graduate education (See Figure 3). While the 
progress in this arena has been slower than we have wished it is 
important to note the successes that have emerged due, in part, to a 
number of NSF-funded programs.
    Prominent among the efforts to increase the numbers of 
underrepresented minority doctorates in STEM is the NSF Alliances for 
Graduate Education and the Professoriate (AGEP). For over ten years, 
AAAS has been the research arm and technical assistance provider to 
AGEP. In this role we work with our partner, Campbell-Kibler 
Associates, to collect data on enrollment and degree production from 
the individual Alliance institutions and monitor and report on the 
collective findings. The most recent report, released in February 2010, 
indicates an almost 50 percent increase in the average number of Ph.D.s 
awarded to underrepresented minorities in natural sciences and 
engineering fields over the three year period 2007-09 when compared 
with the average for the baseline years of 2001-03.
    This is a stunning result and points to what is possible when 
research, monitoring, use of collaborative, evidence-based models and 
institutional leadership and commitment come together. Of course 
questions could be raised about the output of non-AGEP institutions 
among doctoral degree granting institutions, especially given the 
regular research support that most receive from Federal and other 
sources. Some examples of critical questions of commitment that need to 
be addressed are: the significant levels of graduate school debt that 
underrepresented minority students incur on their way to the doctorate; 
the primary forms of support that they indicate (e.g., less likely to 
indicate research assistantships); and the adequacy of the mentoring 
they receive. Often the stories that emerge are those related to 
isolation and failure to find community.
    Women's presence within the doctoral population is more 
significant, though this differs greatly by field. In 2007, women 
received over 50 percent of doctorates in all fields and over 40 
percent of STEM doctorates. Women were 49 percent of biological 
sciences doctorates and almost 73 percent of psychology doctorates. But 
they were only 20.9 percent of engineering doctorates and 20.5 percent 
of computer science doctorates. Compared with participation levels in 
1998, there have been gains in all fields surveyed (See Figure 3).
    Women have received a significant proportion of STEM doctorates for 
well over a decade. Yet they are not appearing among the STEM faculty, 
especially among leading research institutions, at proportions that 
should reasonably be expected given their presence in the available 
pool of candidates; nor are they being retained and advanced in the 
ranks. Another NSF-funded program has taken on the challenge of 
addressing these issues. ADVANCE has focused on the institution-
specific challenges of understanding and affecting the policies and 
processes that govern identifying, recruiting, hiring and promoting 
faculty as well as the
    system impediments that often lead to the loss of talented women 
faculty. These would include issues such as: parental leave and ``stop 
the clock'' policies; spousal/partner hires; transparency of the 
requirements for promotion and tenure and so on. Many of the obstacles 
relate to the desire for women (and men) to be able to integrate the 
personal/family and career aspects of their lives.
    Recent Nobel Laureates Elizabeth Blackburn and Carol Greider 
addressed these issues directly in interviews after the announcement of 
their award as they talked about the need for institutions to 
reconsider the male models upon which the job expectations of STEM 
faculty are based; e.g., to consider part-time (as well as part-time 
tenure track) and other more flexible arrangements. This is not an 
issue of being able or ``good enough'' to do the science. And 
separating the aspects of careers that are necessary and those that are 
simply ``tradition'' has been a critical component of department and 
institutional reviews and responses. Often included in this work have 
been studies of the ``climate'' and attitudes that surround the 
departments and decision making regarding hiring and promotion. While 
every ADVANCE grant has been differently focused to respond to the 
particulars of each institution, the focus of all has included research 
and evidence-based models that can then inform programs and practices.
    Some data are available on STEM doctorates with disabilities. 
Looking just at STEM doctorate recipients who reported disabilities in 
2007, we find ``learning'' and ``physical/orthopedic'' disabilities as 
the leading forms of disabilities reported. They were less likely than 
persons without disabilities to have received their doctorates in STEM 
fields (over 66 percent versus over 51 percent of all degrees awarded). 
The leading field for Ph.D.s for both doctorate recipients with and 
without disabilities was biological sciences (11.2 versus 15 percent of 
all doctorates awarded, respectively).
    In STEM fields, postdoctoral experiences provide important training 
in conducting independent research and establishing a research agenda: 
functions that are critical to becoming a STEM faculty member. Not much 
is known about the postdoctoral experiences of minority and women 
scholars; however, it is essential that underrepresented groups benefit 
from mentoring from STEM faculty in Research I universities.

Greatest Challenges to/Needs for Achieving Diversity in STEM

    The processes of providing quality education to all in STEM, to 
enabling individuals to choose careers in these fields and to 
supporting the success of STEM professionals are many and complex. 
Challenges to broadening participation in STEM vary by group, by field 
and level, but include many of the issues listed below.
    K-12 STEM Education (Issues affect especially underrepresented 
minorities and persons with disabilities)

        <bullet>  Quality of K-12 education (rigorous standards and 
        courses and appropriate support, facilities, technology and 
        other resources to meet these standards)

        <bullet>  Preparation of students in mathematics and science as 
        well as reading

        <bullet>  Teachers who are well prepared to support student 
        learning in STEM and who have high expectations of all students

        <bullet>  Access to the right K-12 courses and to career 
        guidance

        <bullet>  Opportunities for out-of-school experiences to 
        reinforce STEM learning and careers

    Undergraduate STEM Education

        <bullet>  Better introductory courses and better teaching: 
        focusing on cultivating an interest rather than weeding 
        students out

        <bullet>  Early access to experiences that support SIEM, 
        including undergraduate research

        <bullet>  Financial access to institutions of higher education 
        for STEM students

        <bullet>  Debt as a deterrent to continuous enrollment, 
        progress to degree and consideration of graduate study

        <bullet>  Support for community colleges to enable them to more 
        adequately play a pathway role, including better articulation

        <bullet>  More support for institutions that are shouldering a 
        disproportionate role in bringing underrepresented minorities 
        to STEM

        <bullet>  More accountability on Research I institutions to 
        take responsibility for student success in STEM

        <bullet>  Real physical and attitudinal accessibility to STEM 
        programs (``beyond the ramps '')

    Graduate-level and Beyond

        <bullet>  Provide a ``mix'' of support that research has deemed 
        most effective in ensuring student progression through to the 
        doctorate, including fellowships/traineeships, research 
        assistantships, and teaching assistantships

        <bullet>  Burden of rising tuition rates and creating 
        mechanisms to reduce debt

        <bullet>  Isolation and lack of supportive environment and 
        effective mentoring

        <bullet>  Need for skill building that addresses other aspects 
        of job requirements, beyond research

        <bullet>  Encouragement and career guidance, including more 
        guidance on what students can do outside of academia

        <bullet>  Opportunities for network development, publishing, 
        presenting and interacting in a global environment

        <bullet>  Opportunities for post-doctoral experience to support 
        career development

    Workforce

        <bullet>  Flexibility in the structure of employment and 
        positions (e.g., part-time, shared, etc.)

        <bullet>  Valuing diversity and what it brings to the 
        workplace, the classroom and the lab

        <bullet>  Transparency in expectations and in what is needed 
        for promotion

        <bullet>  Fair and transparent processes in hiring, promoting 
        and advancing, especially with regard to STEM faculty

    Issues Specific to Persons with Disabilities

        <bullet>  Definitional issues, including the situation for 
        individuals with apparent vs. non-apparent disabilities

        <bullet>  Disclosure concerns (risking discrimination or shifts 
        in attitude, e.g., with the disclosure of a non-apparent 
        disability)

        <bullet>  Issues regarding age of onset of disability and its 
        differential impact on education and careers

        <bullet>  Generational differences (the situation is quite 
        different for persons who began education and/or careers prior 
        to the passage of laws related to non-discrimination)

        <bullet>  Differences related to presence and/or availability 
        of assistive technology which can ameliorate (though never 
        cancel) the impact of a disabling condition

AAAS Efforts to Broaden Participation in STEM

    AAAS has a long history of efforts to increase the participation of 
girls and young women, underrepresented minorities and persons with 
disabilities and to enhance the status of these groups in science, 
technology, engineering and mathematics-- The association has 
communicated this commitment to equal opportunity through its mission 
statement, its programs, and its governance. This work is consistent 
with the AAAS mission to ``advance science, engineering, and innovation 
throughout the world for the benefit of all people.'' To fulfill this 
mission, the AAAS Board has set out broad goals that include 
strengthening and diversifying the science and technology (S&T) 
workforce and fostering education in science and technology for 
everyone.
    The AAAS Directorate for Education and Human Resources that I head 
combines concerns around diversity of the STEM community with issues 
related to strengthening STEM education for everyone, from pre-K to 
post-graduate, and public engagement to promote STEM literacy overall, 
with special attention focused on efforts to:

        <bullet>  Increase participation of women, underrepresented 
        minorities (African Americans, American Indians and Hispanics) 
        and persons with disabilities in science, mathematics, 
        engineering and biomedical education and careers.

        <bullet>  Heighten the visibility and promote the advancement 
        of these groups in STEM.

        <bullet>  Raise awareness and recognition of the barriers faced 
        by these groups and help to remove them.

        <bullet>  Increase the involvement of these groups within the 
        activities of the AAAS as well as in the larger STEM 
        enterprise.

    We make progress in these areas by exploring how programs, policies 
and practices combine to determine the shape of STEM. While we work 
across the issues presented for the different groups we work to 
understand where concerns may overlap as well as where they may differ. 
We know that context matters and that it is important to know when we 
should ``lump'' as well as when we must ``split.'' For example, we came 
to understand quite early that the situation for minority women in 
science and engineering is unlike the situation either for White women 
or for minority men, and that even within the category of minority 
females, differences of history, culture and expectations play a key 
role. On the other hand, the lack of transparency in university hiring 
and promotion has a detrimental effect on the retention of all 
underrepresented groups, and this concern may be addressed as a single 
issue or a ``theme with variations.''
    We have pursued models that have been attentive to differences and 
similarities in our search for effective strategies for addressing 
different elements of the complex ecosystem of STEM education and 
careers. And at every turn, even as we target, we work to effectively 
mainstream issues related to diversity.
    In many ways we credit our work with persons with disabilities for 
bringing this aspect clearly into focus. While persons with 
disabilities may be the programmatic and statistical category that we 
use, the needs of each individual are unique given the 
``particularistic'' nature of each disability and especially as these 
play out in each educational or job setting. A person may have a 
disability, but a person can also be disabled by an unsupportive 
environment.

Overview of AAAS Programs

    Teachers for Diverse Student Populations. We have developed 
projects to cultivate teacher leaders in mathematics and science for 
middle schools in the District of Columbia through a master's program 
developed in collaboration with George Washington University, funded by 
the Office of the State Superintendent of Education. In this program 
veteran teachers get critical subject matter instruction as well as 
courses that focus on emerging insights in the learning sciences, 
effective pedagogy and the use of technology. The emphasis is on 
developing ``change agents'' who can work with their peers to improve 
student performance in schools serving diverse student populations. We 
not only affect area schools; we also develop and test interventions as 
possible national models.
    Careers for the Future. Another current project is focusing on 
introducing students, their parents, teachers and counselors to STEM 
careers, looking especially at those related to energy and the 
environment. This NSF-funded ITEST project introduces quality 
curriculum, career exploration, appropriate role models, projects, and 
a focus on learning both in and beyond the school day. We are 
interested not only in undertaking the project, but also in learning 
from it. For example, does it make a difference to have learning 
coherence across a program, and does ``dosage'' matter? That is, what 
is the difference in the learning of students who are engaged in 
multiple program elements?
    Learning in Out-of-School Environments. We use science and 
technology-focused clubs and ``gaming'' to support student learning. We 
have been able to demonstrate through evaluations of our Kinetic City 
out-of-school clubs, for example, that students not only learn the 
science, but they also improve in reading and writing. ``Find out what 
will work, and make it as accessible as possible,'' has been a guiding 
principle of our work.
    Undergraduate Teaching. At the level of higher education, through a 
current partnership that involves both disciplinary and education units 
of the National Science Foundation along with HHMI and the MORE 
Division of NIGMS of NIH, we are working to address the larger issue of 
the quality of introductory college courses in biology. We are a 
partner in bringing together a community of practice that seeks to 
create a movement to develop courses that will more effectively engage 
students and advance their understanding of the nature of science, 
instead of courses that turn them off and leave them ``science 
averse.''
    Building Institutional Capacity. Returning to the notion of the 
``personalized nature'' of barriers and opportunities, nowhere is this 
issue more clear than in the work of the AAAS Center for Advancing 
Science and Engineering Capacity directed by Dr. Daryl Chubin. This 
``fee for service'' consulting organization, embedded within AAAS, 
works with institutions to help them build internal capacity to respond 
to the need to better serve all STEM students and to diversify their 
student populations and faculty. Center staff and consultants help to 
move lessons learned across institutions even as they address the needs 
of particular departments, schools and colleges. Center clients have 
included many different types of institutions (e.g., an undergraduate 
research program at Harvard; a ``scholars'' program at LSU) and funded 
programs (e.g., NSF GK-12; NSF Broadening Participation in Computing). 
The work has included evaluation, technical assistance and training.
    Currently the Center is engaged in addressing an issue that touches 
every higher education institution in the country. Given the current 
structure of laws, regulations and court decisions, how do institutions 
put in place programs, policies and practices to achieve diversity 
among undergraduate and graduate STEM student populations and faculty 
that are both effective and legally defensible?
    Early efforts (from the mid-1960s through the 1970s) undertaken by 
colleges, universities, school systems, agencies and others to broaden 
participation in STEM often took the form of so-called ``special 
programs,'' projects set aside for different groups to respond to the 
particular challenges and barriers that each circumstance might 
present. A series of district and Supreme Court decisions, along with 
the passage of anti-affirmative action referenda in a number of states, 
raised serious concerns as to whether certain practices and programs 
might be able to withstand legal challenge. For example, in the 1995 
post-Adarand review of programs at the Federal level, a number of NSF 
programs were discontinued.
    In universities, post-Adarand concerns and the absence of guidance 
after the Grutter v. Bollinger and Gratz v. Bollinger Michigan 
decisions of the U.S. Supreme Court led to confusion in universities 
about what was and was not allowed. Outside of clarifying what was 
permissible in admissions decision-making the rulings were silent in 
addressing concerns related to aspects so critical in STEM education 
such as outreach and support programs. It was not clear how the 
institutions might capture the educational value of diversity noted by 
Justice O'Connor and address the national need to develop a diverse 
STEM workforce.
    Following a conference held in 2004, in partnership with the 
National Action Council for Minorities in Engineering (NACME), and co-
publication in the same year of Standing Our Ground: A Guidebook for 
STEM Educators in the Post-Michigan Era, we began to consider what more 
could be done to help clarify what might be possible to advance STEM 
diversity even in light of legal and judicial constraints.
    AAAS and NACME co-sponsored a meeting in 2008, with the support of 
the Alfred P. Sloan Foundation that included academic, corporate and 
legal representatives to discuss the legal barriers to and the 
compelling national interest of advancing diversity in STEM. From that 
gathering was born the idea of undertaking a deep analysis, both legal 
and programmatic, to identify initiatives and practices capable of 
satisfying both requirements for effectiveness and legal defensibility.
    This initial meeting has resulted in follow-up workshops with 
continued support from Sloan and now the National Science Foundation as 
well as AAAS and our partner organization, the Association of American 
Universities (AAU). The project has:

        <bullet>  Identified and partnered with two law firms who, 
        through considerable pro bono work, have identified the bodies 
        of law that applies both to student and faculty employment 
        issues.

        <bullet>  Developed materials to guide institutional leaders 
        through the analysis of the law and its implications as related 
        to diversifying STEM students and faculty.

        <bullet>  Conducted a pilot workshop with ten AAU institutional 
        teams, including the general counsel and provost or 
        representative of each institution.

        <bullet>  Revised and refined the materials in response to 
        feedback.

        <bullet>  Held a second workshop to disseminate the materials 
        as well as to test the format of the sessions.

    In these workshops there are opportunities for extensive networking 
among counsels and provosts, and chances to consider issues from both 
education/mission concerns as well as through a legal frame. We are 
currently seeking support to enable us to adapt the materials and case 
studies to other types of institutions and to expand the dialogue 
beyond the research universities that belong to AAU. A number of higher 
education organizations have written letters of support and signaled 
their interest in having this work extended to their membership.

The Federal Role in Broadening Participation

    President Obama has articulated both the need for attention to 
education in STEM and the value of engaging the broadest base of talent 
in these fields. This leadership, coupled with coordination across the 
Federal Government and thoughtful implementation of evidence-based 
efforts, can do much in addressing broadening participation in STEM.
    Improving K-12 Education for All. Effective implementation of Race 
to the Top, for example, by emphasizing STEM and success for all 
students in science, mathematics and literacy, could over time affect 
the challenge of weak preparation that too many minority students bring 
to higher education. But it will be important to know that the affected 
populations are being served, that attention to diverse learners is a 
part of the overall strategy, and that communities are engaged beyond 
the school walls and the school day.
    Coordination of Programs. At the same time that this support seeks 
to affect the infrastructure for learning from the statehouse to the 
school room, Federal science agencies and departments need to be able 
to support the development of programs and strategies that are 
``mission specific'' and that can ensure that an expanded talent base 
also includes people who bring the skill sets specific to their mission 
and needs. Overarching this needs to be a coherent plan for talent 
expansion and development that is coordinated through an NSTC-type 
mechanism. This is not the time for misplaced concerns about the 
``duplication of effort.'' Any agency charged with carrying out a 
mission needs the authority to help construct the future human 
resources pool required to advance its mission.
    Coherent Approaches to Community College Support. Given the fact 
that community colleges are enrolling so many underrepresented minority 
students, there is a need to carefully craft support strategies for 
these institutions that can enable them to do a better job, both of 
providing education in technical and allied health fields but also in 
the transfer of STEM students to four-year colleges and universities. 
There is a need to do this while being honest about the strengths that 
community colleges could bring to a total pathways approach to STEM and 
as access points for higher education, as well as about the weaknesses 
they currently display in moving such a small proportion of their STEM 
students to the next level. In many states expenditures for students in 
community colleges fall below levels for either K-12 or four-year 
colleges. Because these institutions are continually being called upon 
to do ``more with less'' and to serve so many different missions, 
injections of funding need to be targeted and purposeful to address the 
concerns relevant to smoothing the pathway to STEMM.
    Money Matters. We have begun to understand how significant the 
financial impediments may be for those pursuing graduate study in STEM, 
and that the accumulation of undergraduate and graduate debt may be a 
serious deterrent to underrepresented minority and low-income students. 
Addressing the access and financial aid issues at both undergraduate 
and graduate levels is not just a matter of ``throwing money,'' but 
merits thoughtful consideration as to the conditions surrounding 
support. For example, providing stipends associated with undergraduate 
research participation accomplishes at least four worthy outcomes at 
the same time: providing a positive educational experience; reinforcing 
a commitment to STEM and aiding in retention; providing a source of 
needed financial support; and linking students to potential mentors. At 
the graduate level mixed forms of support over time (a portable 
fellowship or traineeship coupled with a research assistantship, which 
may help reinforce mentoring relationships and build a publications 
record) may be the smartest form of investment. For many fields of 
science and all fields of engineering, domestic students of every race 
and ethnicity are falling further behind in receipt of doctorate 
degrees. We need to understand how debt and the opportunity costs of 
graduate education might be affecting these results. In cases where we 
are looking to the talent of the future to innovate and address global 
challenges of water, food security, health, climate change, loss of 
species diversity, and many others, we must invest in the development 
of the talent base.
    Role of the NSF. As with the corporate leaders who in our 2008 
workshop spoke so compellingly of the need to utilize the full extent 
of the nation's talent base to support STEM, we have acknowledged 
consistent commitment to the idea of broadening participation in STEM 
by the leadership of the National Science Foundation. The NSF has a 
special role, emerging from the mandate of its organic act as well as 
through the provisions of the Science and Engineering Equal 
Opportunities Act of 1980 to see to concerns related to STEM education 
the health of the human resources base for STEM.
    Many of NSF's efforts are hitting the right targets (for example, 
Broadening Participation in Computing). Computing is an area in special 
need of attention. As noted earlier the participation trend lines for 
women in computer science, for example, are headed in the wrong 
direction. There is a real irony that women received their largest 
percentage (37.2 percent) of bachelor's degree in computer science in 
1984! Since that time their participation has plummeted to a little 
over 20 percent. Meanwhile U.S. citizens and permanent residents 
received only about 37 percent of the Ph.D.s in computer and 
information sciences in 2008. AAAS, through the Capacity Center, has 
been a partner with the NSF program, assisting institutions to 
understand how to monitor and assess progress toward their goals.
    The ADVANCE program has provided commendable leadership in helping 
institutions assess and address their processes, policies and 
procedures to support women faculty in the areas of hiring, promotion, 
tenure and development of family-friendly environments that ultimately 
benefit all. The program of Alliances for Graduate Education and the 
Professoriate (AGEP) has demonstrated what is possible in increasing 
the numbers of underrepresented minority Ph.D.s through supporting 
alliances of doctoral degree granting and minority serving 
institutions. The programs aimed at strengthening HBCUs and Tribal 
Colleges are affecting the capacity of those institutions to make a 
difference for their students in the quality of preparation and the 
diversity of fields of study. The Louis Stokes Alliances for Minority 
Participation (LSAMP) Program is helping to increase the bachelor's 
production of underrepresented minority students in STEM, fostering 
alliances of majority and minority institutions in the process. In the 
case of HBCUs we see the impact of their work as they make a 
disproportionate contribution to the STEM Ph.D. production of African 
Americans. And I anticipate that a carefully crafted program of support 
for HSIs with demonstrated capacity to support the success of Hispanic 
students in STEM could make a similar contribution.
    The challenge is not the program goals themselves, but the modest 
scale of the investments! The programs need to be used as critical 
components to a portfolio approach to broadening participation. In the 
2011 documentation to the proposed NSF budget, there is considerable 
language about consolidation of such programs. Looking at efforts to 
date it is not clear that such a major consolidation is desirable or 
prudent at this time. To what extent is the rest of NSF's budget being 
used in support of the integration of research and education in ways 
that support broadening participation? Why are the overwhelming 
majority of research universities doing so little to advance the 
broadening participation goals of the Foundation? Can we track the 
current impact of the ``broader impacts'' criterion on broadening 
participation goals?
    How much is being invested in sharing lessons learned from program 
investments in broadening participation efforts beyond the community 
that is currently committed and active? At this point it is important 
to continue investing in initiatives that seek to identify and test 
effective broadening participation strategies in departments and 
institutions. At the same time we must transfer lessons learned in ways 
that mainstream the concerns into the directorates and divisions of the 
Foundation, and from them into the institutions they support, as part 
of the regular way that the NSF's business is done, without introducing 
``lethal program mutations'' where the true intent or practices of 
initiatives are lost.
    When undertaking any efforts at mainstreaming, it is crucial to 
monitor progress, to insist on the use of evidence-based strategies, 
and to provide technical assistance and capacity building. The risk is 
great in mainstreaming, however, of losing sight of the special and 
particular needs, histories and issues of different types of 
institutions, and different groups in the context of different fields. 
It is critical to know when to lump and when to split.
    Despite the difficulty of doing the work related to broadening 
participation, there are institutions that have enjoyed some success in 
this goal while others have not. Leadership and political will must 
combine with successful strategies. There are effective efforts that 
can be mounted that are legally defensible. But first you must want to 
make a difference.

Appendix
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Shirley M. Malcom
    Shirley M. Malcom is Head of the Directorate for Education and 
Human Resources Programs of the American Association for the 
Advancement of Science (AAAS). The directorate includes AAAS programs 
in education, activities for underrepresented groups, and public 
understanding of science and technology. Dr. Malcom serves on several 
boards--including the Heinz Endowments and the H. John Heinz III Center 
for Science, Economics and the Environment--and is an honorary trustee 
of the American Museum of Natural History. In 2006 she was named as co-
chair (with Leon Lederman) of the National Science Board Commission on 
21st Century Education in STEM. She serves as a Regent of Morgan State 
University and as a trustee of Caltech. In addition, she has chaired a 
number of national committees addressing education reform and access to 
scientific and technical education, careers and literacy. Dr. Malcom is 
a former trustee of the Carnegie Corporation of New York. She is a 
fellow of the AAAS and the American Academy of Arts and Sciences. She 
served on the National Science Board, the policymaking body of the 
National Science Foundation from 1994 to 1998, and from 1994-2001 
served on the President's Committee of Advisors on Science and 
Technology. Dr. Malcom received her doctorate in ecology from 
Pennsylvania State University; master's degree in zoology from the 
University of California, Los Angeles; and bachelor's degree with 
distinction in zoology from the University of Washington. She also 
holds 16 honorary degrees. In 2003 Dr. Malcom received the Public 
Welfare Medal of the National Academy of Sciences, the highest award 
given by the Academy.

    Ms. Fudge. Thank you.
    Dr. Dowd.

STATEMENT OF DR. ALICIA C. DOWD, ASSOCIATE PROFESSOR OF HIGHER 
 EDUCATION, UNIVERSITY OF SOUTHERN CALIFORNIA, AND CO-DIRECTOR 
               OF THE CENTER FOR URBAN EDUCATION

    Dr. Dowd. Representative Fudge, Ranking Member Ehlers and 
Members of the Committee, thank you for the honor of addressing 
you here today. My name is Alicia Dowd. I am Co-Director of the 
Center for Urban Education and I am a Professor at the Rossier 
School of Education at USC. I would like to start by talking 
about the current situation.
    The Committee has taken up the issue of broadening 
diversity in STEM fields in an era of urgent need to improve 
the Nation's infrastructure, environmental sustainability, 
security and manufacturing. Yet currently we are experiencing a 
loss of talent from STEM as each year African American, Latina, 
Latino and American Indian students start their college studies 
as STEM majors, but then leave those fields at high rates. In 
alarming numbers, students across the country graduate from 
high school unprepared to do college-level mathematics and 
experience dead-end remedial classrooms in college. The 
students who have been most poorly served in their primary and 
secondary schooling are too often assigned the least well-
prepared teachers in colleges with the lowest level of 
resources.
    So the question is, what can we do about this situation? 
Some work has already been done. With funding from NSF and 
other Federal agencies, STEM faculty, administrators and 
counselors have built on research findings to develop model 
programs that help students navigate college and complete STEM 
degrees. These include supplemental instruction, orientation, 
summer bridge programs, peer tutoring and intrusive advising. 
However, these practices do not go far enough. Most 
problematically, they are typically focused on fixing students 
rather than on fixing instructional practices in STEM. They 
need to be supplemented with work at the core of higher 
education. This means in classrooms through curriculum reform 
and through new pedagogies.
    We know that active learning, focused on real-world problem 
solving, engages students of all backgrounds. Research shows 
that African American, Latino and female students find added 
value in applying their scientific learning to problems of 
communities and society. To encourage active learning and 
applied problem solving in STEM, we need to invest in bold 
experiments that reorganize the curriculum and break down 
disciplinary silos.
    But another major challenge must be acknowledged. The 
racial climate of STEM classrooms and programs is too often 
negative. Recent research documents that racial stigma and 
discrimination create significant barriers to the participation 
of underrepresented racial ethnic groups in STEM. To improve 
diversity, we must use the tools of culturally responsive 
pedagogy to dispel the negative racial climates created when 
students are treated as if they are all alike. One factor that 
perpetuates this issue is that our STEM teaching force is not 
as diverse as the student body. We teach as we were taught and 
unwittingly reproduce harsh campus climates that too often 
devalue racial and ethnic diversity. The new STEM teaching 
force should have the cultural competencies to dispel any sense 
of racial discrimination, bias or racial stigma. This is 
imperative.
    The most important step NSF can take, therefore, is to fund 
interdisciplinary research of STEM pedagogy and the racial 
climate of STEM classrooms and learning environments. 
Scientists and social scientists can conduct studies together 
to determine the kind of professional development and support 
professors need to adopt new pedagogies. Change must come at 
the institutional levels and with prominent educational 
leadership. To enable this change, the development of rigorous 
and comprehensive evaluation strategies is needed. These must 
include evaluation of student outcomes, of program 
effectiveness in reaching performance benchmarks as well as 
evaluation of faculty development and organizational change 
processes.
    Change cannot be limited to individual institutions. As the 
majority of Latino students are enrolled at community colleges 
today, to improve the participation of Hispanic students in 
STEM, structural reforms must cross the boundaries of two-year 
colleges and four-year universities to allow students to 
transfer and earn bachelor's degrees and graduate degrees. In 
addition, Hispanic students are heavily enrolled in Hispanic-
Serving Institutions. Funding that enhances the mission focus 
and Hispanic-serving focus of these institutions will have a 
central role to play in improving Latina and Latino 
participation in STEM.
    In closing, let me affirm that we do not face an 
aspirations gap among African American, Latina and Latino and 
American Indian students for participation in STEM. We have an 
opportunity and an education gap. Notably, we have the tools to 
close that gap if we have the will. I have no doubt that our 
investments in diversity in STEM will be repaid through greater 
productivity and innovation.
    It has been my privilege to address this committee. I thank 
you for your attention to my remarks and I will be happy to 
elaborate on my comments or my written testimony in response to 
your questions. Thank you very much.
    [The prepared statement of Ms. Dowd follows:]
                  Prepared Statement of Alicia C. Dowd
    Chairman Lipinski, Ranking Member Ehlers, and members of the 
Committee, thank you for this opportunity to inform your deliberations 
concerning the issues of diversity in science, technology, engineering 
and mathematics (STEM). I am honored to share my research findings and 
recommendations with you. The committee has taken up the issue of 
broadening diversity in STEM fields in an era of urgent need to improve 
the nation's infrastructure, environmental sustainability, security, 
and manufacturing. Currently we are experiencing a loss of talent from 
STEM, as each year African American, Latina and Latino, and American 
Indian students start their college studies as STEM majors, but then 
leave those fields at high rates. The National Science Foundation's 
(NSF) role in addressing these problems is under review. You have asked 
me to address, in particular, the challenges of increasing the 
participation of Hispanic students in STEM fields.
    In this testimony, I first describe the context of higher education 
for Hispanic students, who attend community colleges and Hispanic 
Serving Institutions (HSIs) more than other students. I then discuss 
the value of NSF funding in two broad categories: (1) student services, 
academic support programs, and curricular reform; and (2) scholarships 
and fellowships. While recognizing the value of expanded student 
services and academic programming, I raise concerns that current 
approaches do not address the fundamental problem of the negative 
racial climate in STEM classrooms and programs. In conclusion, my 
recommendations emphasize the need for consortium based and 
interdisciplinary collaboration in curriculum reform, particularly in 
mathematics education. I also call for the adoption of more robust and 
comprehensive evaluation standards to evaluate the impact of NSF 
funding on diversity in STEM.
    In making these recommendations, I draw on findings from a three-
year NSF-funded study (STEP-Type 2) called Pathways to STEM Bachelor's 
and Graduate Degrees for Hispanic Students and the Role of Hispanic 
Serving Institutions, for which I serve as principal investigator. This 
study involved statistical analyses of college financing strategies and 
the impact of debt on graduate school enrollment; interviews with 
ninety faculty, administrators, and counselors at Hispanic Serving 
Institutions; and the development of instruments to assess 
institutional capacity for expanding Hispanic student participation in 
STEM. I also draw on my experiences as an educational researcher and 
methodologist, a review panel member for research proposals submitted 
to the NSF and the Institute for Education Sciences (TES), and as co-
director of the Center for Urban Education (CUE) at the University of 
Southern California. CUE's mission is to conduct socially conscious 
research and develop the tools needed by institutions of higher 
education to produce equity in student outcomes.

Hispanic Students in Higher Education and STEM \1\
---------------------------------------------------------------------------

    \1\ For further information, data sources, and references, see 
Benchmarking the Success of Latina and Latino Students in STEM to 
Achieve National Graduation Goals by Alicia C. Dowd, Lindsey E. Malcom, 
and Estela Mara Bensimon (December, 2009, USC Center for Urban 
Education) and Improving Transfer Access to STEM Bachelor's Degrees at 
Hispanic Serving Institutions through the America COMPETES Act by 
Alicia C. Dowd, Lindsey E. Malcom, and Elsa E. Macias (forthcoming 
March 2010, USC Center for Urban Education).

    Two types of institutions play a much greater role in the education 
of Hispanic students in comparison to students of other racial-ethnic 
groups: community colleges and Hispanic Serving Institutions (HSIs,) 
which are defined by the Federal Government as institutions with 25% or 
more Hispanic full-time equivalent student enrollment. More than half 
of all Hispanic college students enrolled in post-secondary education 
attend a community college. In 2006, the enrollment of Hispanic 
students in U.S. community colleges was 932,526, which compares with 
903,079 Hispanic students enrolled in four-year institutions. Hispanic 
college students are enrolled in HSIs in such large numbers that 
approximately half of all Latina and Latino undergraduates enrolled in 
four-year universities can be found at just a fraction (10%) of four-
year universities. As a result, a large proportion (40%) of the 
bachelor's degrees awarded to Hispanic students in all fields of study 
are awarded by HSIs.
    In 2006-07, 265 institutions of higher education were classified as 
Hispanic Serving Institutions (HSIs). Almost half of these were 
community colleges. The other half were divided between public and 
private not-for profit four-year universities (with a small number of 
private not-for profit two-year institutions). Hispanic students and 
Hispanic Serving Institutions are heavily concentrated in the 
Southwestern states, where over half of the HSIs are located (see 
Figure 1). However, several states outside the Southwest are also home 
to HSIs, including Florida, Illinois, and New York, and fifty-one HSIs 
are located in Puerto Rico. More institutions will be classified as 
HSIs in other states as the Hispanic population continues to grow.
    Although approximately 40% of the bachelor's degrees awarded to 
Hispanic students in all fields of study are awarded by HSIs, this 
proportion is lower in STEM fields. Only 20% of the bachelor's degrees 
awarded to Hispanic students in STEM fields are awarded by HSIs. Only a 
small percentage of Hispanic STEM baccalaureates (6.5%) earn the 
bachelor's degree at an HSI after having earned an associate's degree.
    In her analysis of NSF's National Survey of Recent College 
Graduates (NSRCG) \2\ for our study of Latino Pathways to STEM Degrees, 
Professor Lindsey Malcom of the University of California Riverside 
found that Latino community college transfers who first earn 
associate's degrees have lower access to STEM bachelor's degrees at 
academically selective and private universities than their counterparts 
who do not earn an associate's degree prior to the bachelor's. These 
transfer students who held associate's degrees were more likely to 
graduate from Hispanic Serving Institutions (32.1% with an associate's 
degree compared to 16.8% without one) and from public four-year 
institutions (83% as opposed to 62.9%). However, they were less likely 
to graduate from academically selective institutions (42% with an 
associate's degree compared to 59% without one) or from a research 
university (25.3% as opposed to 43.5%).
---------------------------------------------------------------------------
    \2\ For details, see Malcom, L. E. (2008). Accumulating 
(dis)Advantage? Institutional and financial aid pathways of Latino STEM 
baccalaureates. Unpublished dissertation, University of Southern 
California, Los Angeles. CA.
---------------------------------------------------------------------------
    The analysis also showed differences in the fields of study in 
which students earned their bachelor's degrees. HSIs had greater 
success than non-HSIs in graduating Latinos in several STEM fields of 
critical importance in the workforce, particularly computer science and 
mathematics. However, transfer students who first earned associate's 
degrees were less likely to earn degrees in those fields of study at 
HSIs.
    These figures would change if we used a different definition of 
transfer students (for example those who transferred after the 
equivalent of one year of study, or 30 credits), but they illustrate 
that certain pathways to STEM bachelor's degrees are not as readily 
accessible for students who start out in community colleges. Notably, 
those institutions that provide the greatest access to graduate degrees 
(academically selective and research universities) are least accessible 
to Latina and Latinos who earn associate's degrees. As a result, the 
proportion of STEM doctoral degrees awarded to Hispanic students 
(estimated at less than. 5%) severely lags the proportion of Hispanics 
in the U.S. population (around 15%). Our study indicates that access to 
STEM bachelor's and graduate professions can be expanded for Hispanic 
students by improving access to STEM bachelor's and graduate degrees 
through transfer from community colleges.
    Expanded transfer access is necessary because although Hispanic 
participation in STEM fields has risen, it has not kept pace with 
Hispanic population growth. Growth in the number of bachelor's degrees 
awarded to Hispanic students has occurred primarily in non-science and 
engineering fields. From 1998 to 2007, there was a 64% increase in the 
number of non-science and engineering bachelor's degrees awarded to 
Hispanic students, as compared to an increase of only 50% in science 
and engineering degrees awarded to Hispanic students.
    Furthermore, most of that 50% growth occurred primarily in the 
social sciences and psychology rather than in the biological sciences, 
engineering, computer sciences, and other fields categorized as STEM 
fields. The lower participation of Hispanic students in STEM is not due 
to lack of interest. A recent report by UCLA's Higher Education 
Research Institute demonstrates that Hispanic students enter college 
with the same aspirations to earn STEM degrees as students of other 
racial-ethnic backgrounds.\3\
---------------------------------------------------------------------------
    \3\ Hurtado, S., Pryor, J., Trail, S., Blake, L.P., DeAngelo, L., & 
Aragon, M. (2010). Degrees of Success: Bachelor's Degree Completion 
Rates among Initial STEM Majors. Los Angeles, CA: Higher Education 
Research Institute, UCLA.
---------------------------------------------------------------------------
    Although the number of STEM bachelor's degrees awarded to Hispanic 
students grew over the past decade, the rate of growth in the number of 
STEM degrees awarded at other levels (associate's, master's and 
doctoral) was quite flat. Approximately 6,000 associate's degrees were 
awarded to Hispanics in science and engineering fields in 2007, a 
relatively low number given the large population of Hispanics enrolled 
in community colleges. These figures reflect the fact that many 
community college students from all racial-ethnic groups are placed in 
remedial mathematics classes at community colleges. There is 
considerable variation by state, but it is not uncommon for the rate of 
remedial placement to be as high as 50% at community colleges and in 
some colleges that figure can reach as high as 90%. Remedial 
instruction in mathematics is also common at the four-year level, but 
the rates of remedial placement are lower, nearer to 20% or 30%. 
Improving teaching and learning in mathematics instruction is therefore 
a high priority for increasing the numbers of STEM degrees awarded to 
Hispanic students.

National Science Foundation (NSF) Support for Diversity in STEM

Student Services, Academic Support Programs, and Curricular Reform

    NSF currently funds special programs at community colleges and 
four-year institutions that aim to increase the number of students 
earning STEM degrees by providing enhanced student services and 
academic advising. Typical strategies focus on recruitment, 
orientation, faculty and peer mentoring, and intrusive advising to 
inform students if they are running into trouble academically or to 
guide them in making good academic choices. These strategies are 
primarily designed to reduce the difficulties of navigating college by 
providing students with information and extra support. Other programs 
go farther by offering learning experiences designed to better engage 
students in scientific study, such as through intensive summer research 
programs, learning communities, and supplemental instruction. A subset 
of the student services and academic support programs place a 
particular emphasis on increasing the numbers of students from 
underrepresented racial-ethnic groups in STEM.
    The value of these special programs is supported by research that 
indicates such approaches are ``best practices'' for keeping students 
in college. However, the most common program designs implemented by NSF 
grantees are not informed by studies of the racial climate of STEM 
classrooms and programs. Recent research documents that racial stigma 
and discrimination create significant barriers to the participation of 
underrepresented racial-ethnic groups in STEM. A sampling of recent 
studies and reports illustrates this point:

        <bullet>  A literature review issued in 2009 documenting the 
        ``Talent Crisis in Science and Engineering'' points to 
        ``traditions and stereotypes'' that create low expectations, 
        bias, and race discrimination as a primary cause of the loss of 
        talent in STEM fields.\4\
---------------------------------------------------------------------------
    \4\ Sevo, R. (2009). The talent crisis in science and engineering. 
Retrieved February 1, 2009, from SWE-AWE: http://www.engr.psu.edu/AWE/
ARPResources.aspx

        <bullet>  A book published in 2009 titled ``Standing on the 
        Outside Looking In: Underrepresented Students' Experiences in 
        Advanced Degree Programs'' captures the experiences of African 
        American, Latina, and Latino graduate students of color. It 
        documents hostile learning environments and experiences of 
        marginalization and exclusion based on race and ethnicity, 
        class, gender, and language among students of color in STEM 
        fields and Latinas in doctoral and professional programs in the 
        health sciences.\5\
---------------------------------------------------------------------------
    \5\ Gasman, M., Perna, L. W., Yoon, S., Drezner, N. D., Lundy-
Wagner, V:, Bose, E., et at. (2009). The path to graduate school in 
science and engineering for underrepresented students of color (pp. 63-
81) and Gonzalez, J. C. (2009) Latinas in doctoral and professional 
programs: Similarities and differences in support systems and 
challenges. In M. F. Howard-Hamilton, C. L. Morelon-Quainoo, S. M. 
Johnson, R. Winkle-Wagner & L. Santiague (Eds.), Standing on the 
outside looking in: Underrepresented students' experiences in advanced 
degree programs (pp. 103-123).

        <bullet>  A report issued in 2010 on ``Diversifying the STEM 
        Pipeline: The Model Replication Institutions Program'' raises 
        concern about the lack of ``buy in'' among faculty and senior 
        leadership at participating campuses towards the goal of 
        increasing access and success in STEM education for minority 
        and low-income students.\6\
---------------------------------------------------------------------------
    \6\ Diversifying the STEMpipeline: the Model Replication 
Institutions Program (n.d.). Washington, D.C.: Institute for Higher 
Education Policy (IHEP).

        <bullet>  A research article published in 2009 emphasizes that 
        African American students participate in mathematics education 
        with an acute awareness of the dynamics of race and racism in 
        their lives. Successful students embrace a mathematics identity 
        and an identity as African Americans, but this often comes only 
        through a great deal of struggle and perseverance.\7\
---------------------------------------------------------------------------
    \7\ Martin, D. B. (2009). Researching race in mathematics. Teachers 
College Record, 111(2), 295-338.

    Programs that do not address the fundamental problem of the 
negative racial climate in STEM fields are, therefore, unlikely to have 
a substantial impact to increase diversity.
    There is a second problem that limits the potential of such 
interventions. They are not primarily designed to transform STEM 
education at its heart: in the classroom and the core curriculum. They 
tend to be program based and therefore seldom bridge the boundaries of 
different disciplines and types of institutions. There is a risk that 
the improvements in mentoring, advising, supplemental instruction, and 
laboratory instruction that may be brought about by the special 
programs that have been funded will remain on the periphery and not 
have a broader impact on STEM education.
    Through the case study component of the USC Center for Urban 
Education's (CUE) study of Latino Pathways to STEM Degrees, researchers 
under the leadership of Professor Estela Mara Bensimon, co-director of 
CUE and co-principal investigator of this NSF-funded study, interviewed 
ninety faculty, administrators, and counselors at three universities 
and three community colleges, all of which were Hispanic Serving 
Institutions. Many of these individuals were employed by or affiliated 
with NSF-funded programs designed to improve diversity in STEM fields. 
These respondents often described and shared data with us showing 
programs intensively focused on a small number of Hispanic students 
relative to the entire Hispanic student body. As often as not, those we 
interviewed worked in isolation and were not part of robust networks of 
faculty and administrators engaged in changing the STEM curriculum. For 
some the isolated nature of the work led to a sense that the goal of 
improving Hispanic student participation and degree completion in STEM 
fields was not supported by the college leadership. These results led 
us to question whether interventions through special programs can be 
adequate to the task of substantially increasing the number of Hispanic 
students being awarded STEM degrees.
    This committee has already heard testimony on February 4, 2010 from 
Dean Karen Klomparens of Michigan State University and Professor Robert 
Mathieu of the University of Wisconsin at Madison regarding the 
importance of creating active learning in STEM education and providing 
faculty with the know-how (through professional development) to bring 
about active learning. I endorse their testimony and note that in 
regard to diversity issues in STEM, active learning and ``real world'' 
problem-solving approaches hold promise to reduce the sense of 
alienation of underrepresented racial-ethnic groups too often 
experience in STEM fields. Studies show that students of color value 
the opportunity to serve communities and address social problems 
through their college coursework.
    However, as important as active learning and real world problem 
solving is, even this solution is not sufficient in and of itself to 
substantially improve diversity in STEM fields. Active learning can be 
incorporated without attention to the root problem of the racial 
discrimination, stigma, and alienation experienced by underrepresented 
students in STEM fields. NSF has played an important role in supporting 
experimentation in the STEM curriculum. Future funding will be valuably 
invested by ensuring that curricular innovation and reform occurs in 
the core curriculum and with the majority of faculty members involved. 
Such initiatives will also need to directly engage and be designed to 
tackle the problems of racial discrimination experienced by too many 
students who then depart STEM.

Scholarships and Fellowships

    Current NSF funding invests considerably in research and graduate 
fellowships for undergraduate and graduate students, including students 
from underrepresented racial-ethnic groups, in STEM fields. Many 
studies indicate that targeted financial aid is extremely important and 
that grants of this type improve students' persistence and degree 
completion in college. Scholarships and fellowships also reduce 
students' need to borrow for post-secondary education at the 
undergraduate and graduate level.
    This is of particular importance when we consider diversity in STEM 
because debt can have a more negative impact on underrepresented 
students. An analysis by Professor Lindsey Malcom of the University of 
California Riverside of NSF's National Survey of Recent College 
Graduates (NSRCG), conducted as part of the CUE's study of Hispanic 
student pathways to STEM degrees, found that cumulative undergraduate 
debt among STEM bachelor's degree holders (measured in relative telius 
in comparison with the typical amount of debt at the graduate's 
institution) had a more negative effect on graduate school enrollment 
right after college among Hispanic STEM baccalaureates than among 
students of other racial-ethnic backgrounds. We do not interpret these 
findings as a sign of risk aversion among Hispanic students, as some 
analysts have inferred, because the Hispanic STEM bachelor's degree 
holders in the study tended to have a higher amount of debt than the 
typical graduate in their graduating class. The findings suggest a 
reluctance to incur more debt for graduate or professional study, which 
is a typical financing pattern except for those students who receive 
graduate fellowships. They illustrate the importance of scholarships 
and fellowships in improving Hispanic student participation in STEM 
fields and professions. They also provide support for policies that 
offer student loan forgiveness to students who work in socially valued 
professions such as mathematics education and clinical health care.

Recommendations

Summary

    Through NSF funding, we have made valuable investments in the 
development of student services and academic support programs to help 
students navigate the complexities of college and the STEM curriculum. 
However, a broader strategy is required to reduce the negative campus 
climates experienced by Hispanic students and other racial-ethnic 
minorities. This is because stereotypes of underrepresented students--
representing them as unable to succeed or disinterested in STEM--are 
pervasive in society, schools, and post-secondary education. The 
``treatment'' of special programs in relation to the overall problem is 
insufficient because they tend to take place at the margins rather than 
the core of higher education.
    This is not to say that special advising and student services 
programs are not part of the necessary remedy--they are. The work in 
this area has identified workable strategies for providing students 
with additional information, support, and direction. However, the next 
generation of studies and experimental programs must explore models of 
even more fundamental organizational change in terms of curriculum 
design, assessment of student learning, and faculty and administrator 
rewards.

Areas for Future NSF Support

    The area in greatest need of pedagogical innovation is remedial and 
basic skills mathematics instruction. Community college students in 
particular must experience success in mathematics to gain the 
competencies needed to earn degrees in biological, agricultural and 
environmental sciences, and in engineering, which are fields with 
limited transfer access for transfer students who earn their bachelor's 
degrees at HSIs.
    To encourage diversity and active learning in STEM, we must invest 
in bold experiments in curriculum and pedagogical reform that are 
informed by the principles of culturally responsive pedagogy. Priority 
should be given to initiatives that include a focus on integrating 
mathematics education in real world problem solving. These experiments 
should involve people from multiple scientific, social science, and 
educational research disciplines. As well as being interdisciplinary, 
they should be ``intersectoral,'' bringing faculty, administrators and 
counselors from different types of institutions into close 
collaboration. Consortia involving community colleges, four-year 
comprehensive institutions, and research universities in regional 
service areas are needed to improve transfer access for Hispanic 
students from community colleges to STEM bachelor's and graduate 
degrees.
    Few observers of American politics and society would disagree that 
racial issues are among the thorniest in the U.S. Yet, to broaden 
participation among racial-ethnic groups underrepresented in STEM 
requires attention to the underlying racial dynamics of STEM education. 
We cannot fix problems of diversity without acknowledging the problems 
of racial marginalization and stigma and stating the intent to fix 
them. Toward that end, a body of research knowledge has emerged that 
provides concrete and practical steps faculty can take to introduce 
culturally responsive pedagogies in classrooms and other instructional 
settings.
    A powerful tool for shaping the objectives and methods adopted by 
recipients of NSF funds is the Program Solicitation (or request for 
proposals.) A valuable first step in broadening participation in STEM 
fields would be to convene a panel of experts in culturally responsive 
pedagogy alongside scientists and social scientists to develop the 
language for a program solicitation. Their charge would be to write a 
Program Solicitation that makes the study of the racial dynamics of 
instructional environments in STEM a central component of curriculum 
and pedagogical reform.
    The criteria for award decisions should also support the mission 
focus of proposals from HSIs that propose specifically to develop the 
Hispanic serving capacity of their institution (and similarly the 
mission focus of historically black colleges and universities and 
tribal colleges). This can be indicated by staffing, hiring, 
professional development, and evaluation criteria that involve a 
critical mass of Hispanic faculty and administrators in program 
implementation and a large proportion of Hispanic students on a campus 
(or located in institutional service areas) in program participation.

Evaluation

    Campuses will be able to achieve more widespread involvement in 
STEM reform by engaging STEM faculty at the department and college 
levels in self-assessment of their educational practices and beliefs 
regarding the causes of student success and lack of success. Reflective 
practices are needed to comprehend the complexities underlying student 
experiences of racial stigma and discrimination.
    The methods of benchmarking can be used to create a more 
comprehensive evaluation system that measures program effectiveness and 
cost-effectiveness, student outcomes, faculty development, and changes 
in organizational policies. There are three valuable strategies, which 
are called performance, diagnostic, and process benchmarking.\8\ Each 
has a different application and can be used together for a more robust 
measurement and implementation design:
---------------------------------------------------------------------------
    \8\ For further information, see Dowd, A. C., & Tong, V. P. (2007). 
Accountability, assessment, and the scholarship of ``best practice.'' 
In J. C. Smart (Ed.), Handbook of Higher Education (Vol. 22, pp. 57-
119): Springer Publishing.

        <bullet>  Performance benchmarking is used to establish 
        baseline performance and to set and evaluate progress towards 
---------------------------------------------------------------------------
        improvements in student transfer and degree completion.

                  Data collected at the program proposal stage should 
                demonstrate the capacity to observe the progress of 
                cohorts of students at key curricular milestones and 
                transitions and to disaggregate data by racial-ethnic 
                groups.

                  Data collected for program evaluation should compare 
                the progress of students enrolled in the program or 
                affected by the initiative in comparison to a group 
                that was not involved.

        <bullet>  Diagnostic benchmarking involves assessing one's own 
        campuses practices against established standards of effective 
        practice, as documented in the research and professional 
        literature.

                  The principles of culturally responsive pedagogy 
                provide standards for diagnostic benchmarking for 
                curriculum and instruction.

                  The sociological concept of ``institutional 
                agents,'' as developed by the sociologist Ricardo 
                Stanton Salazar \9\ and applied in the context of STEM 
                post-secondary education in collaboration with 
                researchers at the Center for Urban Education, provides 
                diagnostic standards for administration, counseling, 
                and mentoring specifically designed to provide support 
                to students from racial-ethnic minority groups.
---------------------------------------------------------------------------
    \9\ Stanton-Salazar, R. D. (2001). Manufacturing hope and despair: 
the school and kin support networks of U.S.-Mexican youth. New York: 
Teachers College Press.

        <bullet>  Process benchmarking involves closely investigating 
        the changes in organizational policies, procedures, and 
        practices that are needed to implement effective practices in a 
---------------------------------------------------------------------------
        particular campus context with fidelity.

                  Self assessment instruments have been developed by 
                the Center for Urban Education \10\ and other 
                organizations to assist campuses in observing the 
                racial-ethnic dimensions of instructional and 
                administrative practices. The outcome of process 
                benchmarking is data-informed decision making for 
                ensuring program effectiveness.
---------------------------------------------------------------------------
    \10\ See Bensimon, E. M., Polkinghome, D. E., Bauman, G. L., & 
Vallejo, E. (2004). Doing research that makes a difference. Journal of 
Higher Education, 75(1), 104-126; and Dowd, A. C. (2008). The community 
college as gateway and gatekeeper: Moving beyond the access ``saga'' to 
outcome equity. Harvard Educational Review, 77(4), 407-419.

                  Process benchmarking is particularly valuable when 
                it is carried out within consortia where trust develops 
                over time so that participating campuses become willing 
                to share their data and engage collaborators in problem 
                solving. Strategies that are effective at one campus 
                may not work at all on another because of differences 
                in resources, personnel, and institutional culture, so 
                the capacity for data-informed problem solving is 
---------------------------------------------------------------------------
                necessary.

    Campuses will benefit from resources to develop their evaluation 
capacity prior to implementing large-scale programmatic or curricular 
reform. One valuable way to acquire this capacity is by serving as a 
peer evaluator to a partnering institution in a peer group.
    By using these three types of benchmarking procedures, campuses can 
evaluate instructional effectiveness in producing greater diversity in 
STEM and increasing the number of Hispanic students who are awarded 
STEM degrees. In sum, these are strategies for organizational learning, 
professional development, and pedagogical innovation. For too long, our 
approach to improving diversity in STEM has been overly focused on the 
``demand'' side of the problem, on ``fixing'' presumed student deficits 
through attempts to improve their aspirations, motivation, or 
willingness to succeed. In contrast, these recommendations focus on 
fixing the ``supply'' side of the problem by improving the quality of 
STEM education. Research conducted at the Center for Urban Education 
demonstrates that the most important starting point for broadening 
participation in STEM is to reframe the lack of diversity as problems 
of institutional practices and practitioner knowledge,\11\ which 
unwittingly create a negative racial climate harmful to students from 
racial-ethnic minority groups.
---------------------------------------------------------------------------
    \11\ See Bensimon, E. M. (2007). The underestimated significance of 
practitioner knowledge in the scholarship of student success. The 
Review of Higher Education, 30(4), 441-469; and Bensimon, E. M., Rueda, 
R., Dowd, A. C., & Harris III, F. (2007). Accountability, equity, and 
practitioner learning and change. Metropolitan, 18(3), 28-45.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Alicia C. Dowd
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Alicia C. Dowd, Ph.D., is an associate professor of higher 
education at the University of Southern California's Rossier School of 
Education and co-director of the Center for Urban Education (CUE). Dr. 
Dowd's research focuses on political-economic issues of racial-ethnic 
equity in post-secondary outcomes, organizational learning and 
effectiveness, accountability and the factors affecting student 
attainment in higher education.
    Dr. Dowd is the principal investigator of a National Science 
Foundation funded study of Pathways to STEM Bachelor's and Graduate 
Degrees for Hispanic Students and the Role of Hispanic Serving 
Institutions. Through this study, CUE is examining the features of 
exemplary STEM policies and programs to identify ways for 
institutions--both Hispanic Serving Institutions (HSls) as designated 
by the U.S. Department of Education, and non-Hispanic Serving--to 
increase the number of Latino STEM graduates.
    Dr. Dowd has served as the principal investigator of several major, 
national studies of institutional effectiveness, equity, community 
college transfer, benchmarking, and assessment. The results of these 
studies have been published in numerous journals including the Review 
of Educational Research, the Harvard Educational Review, the Journal of 
Higher Education, the Review of Higher Education, Research in Higher 
Education, and Teacher's College Record.
    As a research methodologist, Dr. Dowd has also served on numerous 
Federal evaluation and review panels, including the Education Systems 
and Broad Reform Panel and the National Education Research and 
Development Center panels of the institute for Education Sciences (IES) 
and NSF's Science, Technology, Engineering, and Mathematics Talent 
Expansion Program (STEP-Type 2) review panel. She was also a member of 
the technical working group consulting on the evaluation design for the 
Academic Competitiveness and SMART (science, mathematics, technology) 
grants awarded by the U.S. Department of Education. Currently she is a 
member of the advisory group for the Congressional Advisory Committee 
on Student Financial Aid (ACSFA).
    Dr. Dowd was awarded the doctorate by Cornell University, where she 
studied the economics and social foundations of education, labor 
economics, and curriculum and instruction. Her undergraduate studies 
were also at Cornell, where she was awarded a bachelor of arts degree 
in English literature.

    Ms. Fudge. Thank you.
    Dr. Stassun.

  STATEMENT OF DR. KEIVAN G. STASSUN, ASSOCIATE PROFESSOR OF 
 PHYSICS AND ASTRONOMY, VANDERBILT UNIVERSITY, AND CO-DIRECTOR 
    OF THE FISK-VANDERBILT MASTER'S-TO-Ph.D. BRIDGE PROGRAM

    Dr. Stassun. Congresswoman Fudge, Ranking Member Ehlers, a 
fellow physicist, I might add, and members of the Subcommittee, 
I am Keivan Stassun, Associate Professor of Astronomy at 
Vanderbilt University and Adjunct Professor of Physics at Fisk 
University as well as Co-Director of the Fisk-Vanderbilt 
Master's-to-Ph.D. Bridge Program. I would like to focus my 
remarks this morning on the need for more American citizens 
earning Ph.D.s in STEM fields, and the role of the Federal 
Government in furthering that goal.
    Madam Chairwoman, it is in the Nation's interests to 
sustain a vital pipeline of Americans earning doctoral degrees 
in STEM fields. These Ph.D.s represent our national brain trust 
in science and engineering. They are the leaders of our world-
class laboratories, the principal investigators of Federal R&D 
initiatives, the teachers and role models for subsequent 
generations of America's explorers. It matters that these 
future STEM leaders reflect the face of America.
    Yet today, as you heard from Dr. Malcom, less than half of 
all STEM Ph.D.s awarded in the United States go to citizens of 
the United States, and U.S. citizens who are underrepresented 
minorities comprise only four percent of all STEM Ph.D.s 
awarded by U.S. institutions. We are very effectively training 
the STEM leaders for the rest of the world. One consequence is 
that we have few American minorities on the STEM faculty at 
major research universities. Even with an immediate five-fold 
increase in the production of minority STEM Ph.D.s, we will not 
achieve parity relative to the U.S. population for another 30 
years. This is no time for gradualism.
    It is with this imperative that the Fisk-Vanderbilt 
Master's-to-Ph.D. Bridge Program was initiated six years ago as 
a STEM faculty-led collaboration between Fisk, a venerated 
Historically Black University, and Vanderbilt, a major research 
university, both in Nashville, Tennessee. Since then, Fisk has 
become one of the top ten producers of physics master's degrees 
among all U.S. citizens, and no institution awards more 
master's degrees in physics to black U.S. citizens. In 2009, 
just five years after its inception, the Fisk-Vanderbilt bridge 
program graduated its first Ph.D. Overall, the program's 
retention rate is 92 percent and Vanderbilt is on track to 
award between five and ten times the number of minority Ph.D.s 
in physical sciences as our peer institutions. Our most recent 
cohort alone represents a 100 percent increase in the national 
production of minority Ph.D. astrophysicists.
    One of our key strategies is to actively scout out American 
students with unrealized potential for STEM careers. This idea 
of scouting talent for our laboratories the way we do for 
athletic teams represents a departure from `business as usual' 
for Vanderbilt, which, like most universities, has 
traditionally relied on metrics such as GRE scores to rank its 
Ph.D. applicants. But in the globalized 21st century, American 
students are simply being outperformed on these metrics by 
their peers from China, India and other nations who apply to 
our laboratories in large numbers.
    In the Fisk-Vanderbilt program, we get to really know our 
students. By completing a two-year master's degree at Fisk 
under the mentorship of Fisk and Vanderbilt faculty, the 
students have a chance to show what they are made of, excelling 
in our tough graduate courses, making discoveries in our 
laboratories and demonstrating the traits we seek in promising 
young students: creativity, entrepreneurial spirit, grit. These 
are the traits that distinguish American students from their 
peers around the world and which will always be at the heart of 
our global leadership and competitiveness.
    But the bottom line is that faculty leaders dedicated to 
diversity in STEM are the single-most important ingredient in 
our success. The intensive one-on-one student mentoring that is 
so central to the Fisk-Vanderbilt model depends absolutely on 
faculty who already shoulder extensive demands in the form of 
teaching, managing world-class laboratories and producing 
tangible returns on Federal R&D investment. We do it because we 
view diversity in STEM as a national priority for reasons that 
are at once strategic, moral, competitive, even patriotic.
    STEM faculty are also entrepreneurial people who respond to 
Federal incentives in R&D funding. A promising example is the 
NSF Career Awards. These are among the most prestigious grants 
that a STEM faculty can receive, requiring both cutting-edge 
research and what NSF calls `broader impact', which explicitly 
includes broadening participation as a goal. NSF Career Awards, 
to several of us at Vanderbilt, have been instrumental in 
launching our careers, helping us to secure tenure and 
catalyzing the Fisk-Vanderbilt Bridge Program's success.
    Authorizing other Federal agencies such as NASA and DOE to 
adopt NSF'S broader impacts language or something like it would 
be a powerful way for Congress to incentivize and reward the 
STEM faculty and other researchers who lead the Nation's 
broadening participation charge.
    Mr. Chairman, thank you for the opportunity to testify 
today. I would be happy to answer any questions from the 
Subcommittee.
    [The prepared statement of Dr. Stassun follows:]
                Prepared Statement of Keivan G. Stassun
      Associate Professor of Astronomy, Vanderbilt University \1\
---------------------------------------------------------------------------
    \1\ Department of Physics & Astronomy, VU Station B 1807, 
Nashville, Tennessee, 37235
---------------------------------------------------------------------------
           Adjunct Professor of Physics, Fisk University \2\
---------------------------------------------------------------------------
    \2\ Department of Physics, 1000 17th, Ave. N., Nashville, 
Tennessee, 37208
---------------------------------------------------------------------------
     Co-Director, Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program
 Director, Vanderbilt Initiative in Data-Intensive Astrophysics (VIDA)
    Chairman Lipinski, Ranking Member Ehlers, Members of the 
Subcommittee, I am Keivan Stassun, associate professor of astronomy at 
Vanderbilt University, adjunct professor of physics at Fisk University, 
and co-director of the Fisk-Vanderbilt Master's-to-Ph.D. Bridge 
Program. Thank you for inviting me to testify before you today. It is a 
privilege and an honor to tell you about the Fisk-Vanderbilt Master's-
to-Ph.D. Bridge program specifically and my thoughts on broadening 
participation in STEM fields more generally.

            The Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program \3\
---------------------------------------------------------------------------
    \3\ http://www.vanderbilt.edu/gradschool/bridge
---------------------------------------------------------------------------
            (additional comments and supporting material in Appendix 
                    A):

    By completing a Master's degree at Fisk under the guidance of 
caring faculty mentors, students develop the strong academic 
foundation, research skills, and one-on-one mentoring relationships 
that will foster a successful transition to the Ph.D. at Vanderbilt. 
The program is flexible and individualized to the goals and needs of 
each student. Courses are selected to address gaps in undergraduate 
preparation, and research experiences are provided that allow students 
to develop--and to demonstrate--their full scientific talent and 
potential.
    The Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program is intended 
for:

        <bullet>  Students who have completed baccalaureate degrees in 
        physics, chemistry, biology, or engineering.

        <bullet>  Students motivated to pursue the Ph.D. but who 
        require additional coursework, training, and/or research 
        experience.

    How the program works, in a nutshell:

        <bullet>  Earn a Master's degree in physics, chemistry, or 
        biology at Fisk, with full funding support.

        <bullet>  Along the way, get valuable research experience with 
        caring, dedicated mentors. Emerge with the solid preparation 
        for entry into a world-class Ph.D. program, and the ongoing 
        support of a network of dedicated mentors.

        <bullet>  Get fast-track admission to a participating 
        Vanderbilt Ph.D. program, with full funding. Participating 
        Ph.D. programs at Vanderbilt currently include: astronomy, 
        physics, materials science, biology, and biomedical sciences.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Key milestones achieved by the Fisk-Vanderbilt Master's-to-Ph.D. 
Bridge Program include:

        <bullet>  Since 2004, the program has attracted 35 students, 32 
        of them underrepresented minorities \4\ (URMs), 59 percent 
        female, and a retention rate of 92 percent (see Appendix A).
---------------------------------------------------------------------------
    \4\ Underrepresented minorities (URMs) are defined as U.S. citizens 
and permanent residents who are of African-American, Hispanic, or 
Native American descent.

        <bullet>  The first Bridge Program Ph.D. was awarded (in 
        materials science) in 2009, just five years after the program's 
        inception.\5\
---------------------------------------------------------------------------
    \5\ Read an article about the first Fisk-Vanderbilt Bridge Program 
Ph.D. recipient: http://sitemason.vanderbilt.edu/vanderbiltview/
articles/2010/02/26/crossing-the-bridge.108290

        <bullet>  The Bridge program is on track to award ten times the 
        U.S. institutional average number of URM Ph.D.s in astronomy, 
        nine times the average in materials science, five times the 
        average in physics, and two times the average in biology (the 
        biology track was newly added in 2008). The most recent 
        incoming cohort alone includes more URB students in astronomy 
        than the current annual production of URM Ph.D. astronomers for 
---------------------------------------------------------------------------
        the entire U.S.

        <bullet>  Bridge students have been awarded the nation's top 
        graduate fellowships from NSF and NASA.


        <bullet>  In 2011, Vanderbilt will achieve the distinction of 
        becoming the top research university to award Ph.D.s to URMs in 
        astronomy, physics, and materials science.

        <bullet>  Already, as of 2006, no U.S. institution awards more 
        Master's degrees in physics to Black U.S. citizens than Fisk. 
        Fisk has also become one of the top 10 U.S. institutions 
        awarding the Master's degree in physics to U.S. citizens of all 
        ethnic backgrounds [data source: American Institute of 
        Physics].

        <bullet>  Extramural grants from NSF and NASA--supporting 
        Bridge graduate students, faculty, and related undergraduate 
        research--now exceed $25M.

    The Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program started in 
2004 with one student in each of astronomy, physics, and materials 
science. Catalyzing elements for initiating the program included the 
following:

        <bullet>  An NSF CAREER award to Prof. Keivan Stassun, which 
        included collaborative research between Vanderbilt and Fisk 
        faculty and students, with a major goal of training URM Ph.D.s 
        in astronomy as a centerpiece of the ``broader impacts'' 
        component of the award.

        <bullet>  A NASA MUCERPI grant jointly to Fisk and Vanderbilt, 
        centered on collaborative research between Fisk and Vanderbilt 
        faculty and students, with a major goal of training URM Ph.D.s 
        in NASA-related STEM disciplines.

        <bullet>  An NSF IGERT grant jointly to Vanderbilt and Fisk, 
        centered on collaborative research between Vanderbilt and Fisk 
        faculty and students, with a major goal of training URM Ph.D.s 
        in materials science.

        <bullet>  Supportive administrators at both universities 
        committing significant institutional funds as match to the 
        above grants (e.g. tuition waivers), and directives permitting 
        cooperation of the university bureaucracies, including course 
        cross-registration and reciprocal access to university 
        resources (e.g., research facilities, libraries, student 
        services).

    Soon after the program's inception, it was recognized that the 
``bridge'' from Fisk to Vanderbilt needed to be formalized in order to 
establish clear guidelines by which a student successfully ``crosses 
the bridge'' and to ensure clear lines of responsibility, 
accountability, and support Specifically:

        <bullet>  Each of the disciplinary ``tracks'' with the Bridge 
        program (astronomy, physics, materials science) has concrete 
        requirements for students to successfully make the transition 
        from the Fisk master's degree program to the Vanderbilt Ph.D. 
        program, including specific graduate level courses that must be 
        passed and specific requirements for research performance. 
        These guidelines are approved by the respective deans at both 
        universities.

        <bullet>  Two program co-directors, one each at Fisk and 
        Vanderbilt, have been formally appointed by the provosts of 
        both universities. These co-directors have official 
        responsibility for administration of the Bridge program and are 
        directly accountable to the provosts of the two universities.

        <bullet>  A program Steering Committee was established, with 
        faculty leaders at both universities in each of the 
        disciplinary tracks. These faculty leaders provide oversight, 
        guidance, and tracking of student progress.

        <bullet>  A formal mentoring structure is in place, providing 
        each Bridge student with ``scaffolds of support'' that help to 
        ensure a successful transition across the bridge. This 
        includes: (i) assignment of two faculty co-mentors, one from 
        Fisk and one from Vanderbilt, for each student; (ii) a monthly 
        ``professional development seminar'' aimed at demystifying the 
        process of reaching the Ph.D. for these students who, almost 
        without exception, are the first-generation in their families 
        to pursue higher education; (iii) a peer-to-peer mentoring 
        structure allowing more senior Bridge students to help guide 
        and counsel the students crossing the bridge behind them in a 
        spirit of camaraderie; (iv) development of a ``mentoring 
        management console'' for careful tracking of individual student 
        progress, enabling Bridge faculty to identify potential problem 
        cases early and to intervene quickly with additional support/
        resources as needed to prevent students from slipping through 
        the cracks; and (v) dedicated administrative support staff 
        (program coordinators) at both universities, providing an 
        additional layer of mentoring support and a one-stop go-to 
        person on each campus to help students solve bureaucratic/
        logistical problems that may arise.

    In 2007, the Bridge program began to identify additional 
disciplinary tracks that could be introduced in order to expand the 
program's scale and impact. In addition, the Bridge program has begun 
to partner with additional institutions in order to (i) better connect 
Bridge students with mentors and cutting-edge research opportunities in 
the broad array of areas of interest to the students, and (ii) increase 
the pool of quality students whom we could recruit to our program.

        <bullet>  So far, a biology track has been added and 
        formalized, including assignment of faculty leaders in biology. 
        A new track in chemistry is under development.

        <bullet>  Several junior faculty leaders involved in the 
        expansion of the Bridge program have now received prestigious 
        NSF CAREER awards, including: Prof. Shane Hutson (biophysics), 
        Prof. Eva Harth (chemistry), Prof. Kelly Holley-Bockelmann 
        (astrophysics).

        <bullet>  Core partners now include: Boston University, 
        Massachusetts Institute of Technology, National Optical 
        Astronomy Observatories, National Solar Observatory, NASA 
        Goddard Space Flight Center, Delaware State University, and 
        University of Hawaii at Hilo.

    There are two major characteristics of the Fisk-Vanderbilt 
Master's-to-Ph.D. Bridge Program that we believe are central to its 
successes:

        1.  The Bridge program's basic design and structure--a 
        ``bridge'' from the master's degree at an HBCU to the Ph.D. at 
        a major research university--is grounded in research on the 
        educational pathways that URMs in STEM follow en route to the 
        Ph.D. In particular:

                a.  Minority Serving Institutions \6\ (MSIs) represent 
                large--and largely untapped--pools of URM talent in 
                STEM. For example, the top 15 producers of African 
                American physics baccalaureates in the U.S. are all 
                HBCUs, and just 20 HBCUs were responsible for producing 
                fully 55 percent of all African American physics 
                baccalaureates in the U.S. between 1998 and 2007.\7\ 
                Moreover, these institutions are successful at placing 
                students in Ph.D. programs. Among the U.S. 
                baccalaureate-origin institutions of African American 
                STEM Ph.D. recipients for the years 1997-2006, the top 
                8, and 20 of the top 50, were HBCUs \8\ (see Appendix 
                A).
---------------------------------------------------------------------------
    \6\ MSIs include Historically Black Colleges and Universities 
(HBCUs), Hispanic Serving Institutions (HSIs), and Tribal Colleges and 
Universities (ICUs), as defined by the U.S. Department of Education.
    \7\ AIP Statistical Research Center, Enrollment and Degrees Survey.
    \8\ Burrelli, J., & Rapoport, A. 2008, ``Role of HBCUs as 
Baccalaureate-Origin Institutions of Black S&E Doctorate Recipients,'' 
NSF 08-319.

                b.  URMs who earn Ph.D.s in STEM fields are about 50 
                percent more likely than their non-URM counterparts to 
                have earned a ``terminal'' master's degree (i.e. not a 
                master's degree earned as part of a Ph.D. program.\9\ 
                before eventually transitioning to a Ph.D. programs. 
                The number of MSIs with research-active faculty, and 
                that offer advanced STEM degrees, has undergone 
                dramatic growth. For example, the number of MSIs 
                offering Master's degrees in the physical sciences or 
                engineering has increased over the past decade by 79 
                percent, and the number of URMs earning Master's 
                degrees from these institutions increased 
                correspondingly by 533 percent (see Appendix A).
---------------------------------------------------------------------------
    \9\ Lange, S. E. 2006, ``The Master's Degree: A Critical Transition 
in STEM Doctoral Education'', Ph.D. Dissertation, University of 
Washington.
     Syverson, P. 2003, ``Data Sources'', Graduate School Communicator, 
XXXVI, 5

        2.  Because of the critical nature of the master's-to-Ph.D. 
        transition, at the heart of the Bridge program's model is the 
        concept of facilitating a successful transition to the Ph.D. In 
        collaboration with researchers at the Columbia University 
        School of Law, we have identified the following four key 
        components that are critical to facilitating a successful 
        transition to the Ph.D., and that are deliberately put into 
---------------------------------------------------------------------------
        practice by the Bridge program:


                a.  Build and sustain research-based partnerships 
                between Fisk and Vanderbilt faculty. Joint research is 
                the engine of institutional collaboration, the basis 
                for extramural funding, and provides a concrete 
                ``performance-based metric'' by which to assess student 
                ability and promise for a research based Ph.D.

                b.  Identify students with unrealized potential; 
                recruit and support ``diamonds in the rough'' who can 
                be honed for top-notch Ph.D. level work given adequate 
                mentoring and preparation.

                c.  Continually monitor student performance and remain 
                alert to small inflections in trajectory; do not wait 
                for small missteps to accumulate and derail an 
                otherwise promising student. Detect potential problems 
                early and intervene with support quickly and often.

                d.  Leverage professional networks; connect students 
                with the broader STEM community for mentorship and 
                research opportunities.

                e.  In addition, the program includes these key 
                elements to ensure successful student transitions:

                        `  Full financial support. Rationale: Financial 
                        burden should not be an impediment to 
                        participation and satisfactory progress.

                        `  Joint advisory committee of both Fisk and 
                        Vanderbilt mentors.Rationale: Track student 
                        progress and ensure student readiness for 
                        Ph.D.-level work.

                        `  Publication-quality Master's thesis through 
                        research in both Fisk and Vanderbilt labs. 
                        Rationale: Develop relationships with faculty 
                        who serve as mentors, advisors and advocates. 
                        Demonstrate readiness for Ph.D.-level work 
                        through core competencies that are more 
                        predictive of success than simple numerical 
                        metrics such as GRE scores.

                        `  Course requirements at both Fisk and 
                        Vanderbilt. Rationale: Demonstrating competency 
                        in core courses is essential to showing promise 
                        for Ph.D. study.

    There are three main challenges to replicating the successes of the 
Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program at other institutions, 
including at other major research universities:

        1.  Dedicated faculty leaders at both of the bridged 
        institutions are the single most important ingredient. In lieu 
        of a critical mass of URM STEM faculty who may identify with 
        the goal increasing diversity in STEM as a core personal 
        commitment, faculty ``bridge builders'' will likely need to be 
        motivated and incentivized through institutional and external 
        rewards (such as recognition in the tenure process and through 
        the prestige associated with NSF CAREER awards). In truth, we 
        expect that this will remain a fundamental challenge for 
        replicating the program. The faculty leaders in the Fisk-
        Vanderbilt Bridge program view diversity in STEM as a priority 
        for reasons that are at once strategic, moral, competitive, 
        even patriotic--such passion and deep commitment are difficult 
        to blueprint, export, or mass produce.

        2.  The type of intensive, ongoing, one-on-one student 
        mentoring that is so central to the Fisk-Vanderbilt Bridge 
        model is very difficult to ``scale up,'' depending as it does 
        on a commitment of time and energy from faculty mentors who 
        already shoulder extensive demands on their time in the form of 
        teaching, mentoring other students, managing a world-class 
        research laboratory and team, university administrative duties, 
        and of course a commitment to continually produce top-notch 
        research. Fortunately, even incremental increases in the number 
        of URM STEM Ph.D.s at one institution can represent significant 
        gains on a national scale. For example, an institution that 
        produces one URM Ph.D. per year in physics will produce more 
        than five times the national average. Ph.D.s are earned one 
        student at a time, and every single URM Ph.D. makes a 
        difference in the national numbers.

        3.  A challenge is to identify capable, promising URM students 
        for Ph.D. study, who may come from small minority-serving 
        institutions and/or may not have GRE scores that are 
        competitive in comparison to the talented foreign students who 
        apply to our programs in large numbers. The Fisk-Vanderbilt 
        Bridge program is built on the belief that there exists a large 
        pool of talented URM students--who have already progressed to 
        the baccalaureate level in STEM--with the promise and potential 
        to continue successfully to Ph.D. level. The challenge, in 
        other words, is to learn to recognize ``unrealized potential'' 
        in a student, to recognize and nurture the human traits that 
        make for a great scientist but that are not easily quantified--
        creativity, ingenuity, genius even. The Fisk-Vanderbilt Bridge 
        program does this through an ``audition'' approach: By the time 
        a student has crossed the Bridge, there is no need to guess 
        whether the student has ``what it takes'' for a Ph.D. or to 
        rely solely on ``by the numbers'' metrics--we know the student, 
        have actually watched him/her perform in the laboratory. We 
        therefore enjoy a much richer set of data about our incoming 
        students than is usually available in Ph.D. admissions.
            Challenges to Achieving more Diversity in STEM
            (additional comments and supporting material in Appendix 
                    B):

    Three major challenges to achieving more diversity in science and 
engineering are:

        1.  The very low production rate of URM STEM Ph.D.s limits the 
        number of URM faculty in STEM available to serve as mentors and 
        role models. Some gains have been achieved over the past few 
        decades in the overall number of URMs earning baccalaureate 
        degrees in STEM disciplines, yet the number of URMs earning 
        Ph.D.s in STEM disciplines remains very small (less than four 
        percent of all STEM Ph.D.s awarded by American universities). 
        Taking my own field of astronomy as an example, a recent survey 
        of all 51 astronomy and astrophysics Ph.D.-granting programs in 
        the U.S. counted a total of just 17 individuals who identify as 
        URMs among the full-time faculty (2 percent of all astronomy 
        and astrophysics faculty).\10\ Consequently the number of URM 
        faculty available to train, and to serve as role models for, 
        the next generation of URM students in STEM remains extremely 
        limited. An immediate five-fold increase in the production rate 
        of URM STEM Ph.D.s over the coming decade is required if we are 
        to achieve parity relative to the U.S. population within 30 to 
        35 years (see Appendix B).
---------------------------------------------------------------------------
    \10\ Nelson, D., & Lopez, L. 2004, ``The Diversity of Tenure Track 
Astronomy Faculty,'' American Astronomical Committee on the Status of 
Minorities in Astronomy, Spectrum Newsletter, June 2004.

        2.  American citizens no longer earn the majority of STEM 
        Ph.D.s awarded by the U.S. Global competition in STEM has 
        become fierce; the dominance of American students in STEM 
        graduate programs is no longer a given. In fact, American 
        citizens now constitute the minority (44 percent) of Ph.D. 
        recipients from American graduate programs, across all STEM 
---------------------------------------------------------------------------
        disciplines (Appendix B).

        3.  The vast majority of Ph.D. programs are underutilized as 
        training grounds for URM STEM Ph.D.s. A disproportionate number 
        of URM Ph.D.s in STEM disciplines are produced by a very small 
        number of institutions--just 27 institutions produce fully one-
        third of all URM STEM Ph.D.s (see Appendix B). These 
        institutions represent two very narrow segments of the higher 
        education system in the U.S.: A few MSIs that award Ph.D.s 
        (e.g. Howard University, University of Puerto Rico), and the 
        very top-ranked major research universities (e.g. University of 
        Michigan, University of California Berkeley). The overwhelming 
        majority of Ph.D.-granting research universities (particularly 
        second-tier research universities such as Vanderbilt) are 
        generally underutilized as training grounds for future URM 
        Ph.D.s in STEM.

    Two noteworthy variations by STEM discipline are as follows:


        1.  The small proportion of STEM Ph.D.s awarded to URMs is most 
        acute in the physical sciences. For example, URMs receive just 
        two percent of all Ph.D.s awarded by American universities in 
        physics and astronomy. Such small percentages in turn mean very 
        small absolute numbers, making it a challenge for most URM 
        Ph.D. students to find role models, cohort or community during 
        their Ph.D. training. In astronomy, for example, the average 
        Ph.D.-granting institution produces 1 URM Ph.D. every 13 years.

        2.  There is now emerging at the baccalaureate level a very 
        large national pool of URM talent in the computational sciences 
        and in several sub-disciplines of engineering. The overwhelming 
        majority (80 percent) of these college-educated URM computer 
        scientists and engineers exit the higher education system at 
        the baccalaureate level. There is an opportunity to further 
        develop this talent toward Ph.D.s through interdisciplinary 
        programs that combine the ``pure'' STEM disciplines (e.g. 
        physics, biology) with ``applied'' skills such as systems 
        engineering, high-performance computing, and informatics.

    Two particular challenges for a major research university such as 
Vanderbilt are the following:


        1.  The challenge of identifying the most promising STEM 
        students for Ph.D. training. Selecting the best students for 
        STEM Ph.D. study is not a perfect science. Major research 
        universities such as Vanderbilt have traditionally relied on 
        certain quantitative and standardized metrics, such as Graduate 
        Record Examination (GRE) scores and undergraduate grade-point 
        average (GPA). However, many of our domestic STEM students are 
        being out-performed on these metrics by their peers from China, 
        India, and other nations. A straight ``by the numbers'' 
        approach to Ph.D. admissions therefore results in a major 
        underutilization of our domestic STEM talent. The challenge for 
        a major research university such as Vanderbilt, therefore, is 
        to maintain our high standard for excellence while identifying 
        new ways of assessing student potential for the human traits we 
        most value (e.g. creativity, innovativeness, entrepreneurial 
        spirit, leadership, grit). These traits continue to distinguish 
        American students from their peers around the world and are at 
        the heart of our global leadership and competitiveness.

        2.  The challenge of connecting the value of broadening 
        participation to the merit basis by which STEM faculty are 
        assessed, promoted, and rewarded. The STEM faculty at a major 
        research university are the engines of discovery, as well as 
        the mentors and role models for the next generation of STEM 
        Ph.D. students. It is imperative that STEM faculty be motivated 
        and incentivized to lead the broadening participation charge. A 
        particularly promising example is the NSF CAREER \11\ awards. 
        These are among the most prestigious grants that a young STEM 
        faculty member can receive, and it requires both a cutting-edge 
        research program and ``broader impact'' including broadening 
        participation. Indeed, the NSF CAREER awards to several young 
        faculty (including especially women and URM faculty) at 
        Vanderbilt in the past few years have been instrumental in 
        simultaneously launching their careers and catalyzing the 
        successful Fisk-Vanderbilt Master's-to-Ph.D. Bridge program for 
        broadening participation (described above).
---------------------------------------------------------------------------
    \11\ http://www.nsf.gov/funding/pgm summ.jsp?pims id=503214

---------------------------------------------------------------------------
            The Federal Role in Broadening Participation in STEM

    The Federal Government can play a very important role in addressing 
challenges and barriers to broadening participation in STEM are as 
follows. In particular, the government should continue to link the 
national interest in broadening participation in STEM to Federal R&D 
initiatives, particularly in the context of development and full 
utilization of the domestic STEM workforce. There are at least three 
inter-related components to this:


        1.  Individual principal investigators. Individual researchers 
        (e.g, faculty at research universities) are the ``front lines'' 
        in America's STEM competitiveness imperative. These 
        entrepreneurial individuals can and do respond to Federal 
        mandates in R&D funding programs. The NSF's ``broader impacts'' 
        criterion, which explicitly includes broadening participation 
        language in the evaluation of all funding proposals, is an 
        excellent model for accomplishing this. Similarly, the NSF 
        CAREER awards program, which recognizes and supports America's 
        top junior STEM faculty innovators, is another excellent 
        example by which the broadening participation goal can be 
        linked to the national system of incentives and rewards for 
        America's best and brightest.

        2.  Research universities. The Science and Engineering Equal 
        Opportunities Act [SEEOA) and Executive Order 11246 remain in 
        effect and apply to virtually all research universities.

        3.  Federally funded research centers and Federal funding 
        agencies. Major research facilities funded and/or operated by 
        the Federal Government or its contractors can play a critical 
        role of leadership by example. Research centers such as the 
        National Solar Observatory, the Department of Energy national 
        labs, the NASA centers (e.g. Jet Propulsion Laboratory), and 
        others, are major government R&D employers of the STEM labor 
        force, and therefore rely critically on a healthy STEM 
        workforce pipeline. However, with the exception of NSF 
        facilities (NSF is explicitly mentioned in the SEEOA language), 
        most of these Federal research centers generally do not include 
        ``broadening participation'' language in their hiring or 
        funding evaluation criteria. Extension of the NSF ``broader 
        impacts'' criterion to the other Federal funding agencies (Le, 
        DOE, NASA, NOAA, NIH, NISI) could be a powerful step forward.

    We suggest three recommendations with respect to NSF specifically:


        1.  The NSF ``broader impacts'' criterion, as discussed above, 
        used in the evaluation of all funding proposals considered by 
        the agency has had a very positive effect in motivating 
        individual investigators specifically, and universities more 
        generally, to address the broadening participation imperative. 
        The NSF CAREER awards program in particular is a promising 
        model for linking the prestige of our best STEM university 
        faculty to the goal of broadening participation in STEM.

        2.  Within NSF, some Divisions have taken the initiative to 
        develop funding programs that specifically enable research-
        based collaborative partnerships between MSIs and major 
        research universities (including NSF-funded research centers) 
        with the goal of training URM students toward STEM Ph.D.s. 
        Examples include the PREM \12\ and PAARE \13\ programs. In 
        addition, the Innovation through Institutional Integration 
        (a.k.a. I-cubed) program administered by the Education and 
        Human Resources (EHR) Directorate has supports innovative 
        programs that broaden participation in STEM and that 
        specifically attend to ``critical educational junctures'' such 
        'as the Master's-to-Ph.D. transition.
---------------------------------------------------------------------------
    \12\ The PREM (Partnerships for Research and Education in 
Materials] program is administered by the NSF Division of Materials 
Research (DMR) in the Math and Physical Sciences (MPS) Directorate.
    \13\ The PAARE (Partnerships for Astronomy and Astrophysics 
Research and Education) program is administered by the NSF Division of 
Astronomical Sciences (AST) in the Math and Physical Sciences (MPS) 
Directorate.

        3.  There is a need for additional ``training grant'' 
        opportunities through NSF to support the basic research 
        training of Master's and Ph.D. students. The NSF IGERT \14\ 
        program is a very good example of a competitive and effective 
        training grant program, with an emphasis on interdisciplinarity 
        and on emerging new STEM sub-fields (such as the Vanderbilt-
        Fisk IGERT in nano-scale science and engineering). The IGERT 
        program does not generally support graduate student training in 
        more established areas of STEM research; there is an ongoing 
        need for graduate students including URM Ph.D. students to 
        receive training and development in these established fields. 
        Examples of standing training grant programs exist at other 
        Federal agencies, such as NIH, that could serve as templates 
        for the development of a more general training grants program 
        through NSF. Indeed, the model of NSF's own Research 
        Experiences for Undergraduates (REU) program, which is a 
        general training grants program at the baccalaureate level, 
        could be fruitfully applied at the post-baccalaureate, 
        Master's, and Ph.D. levels. In lieu of such training grants, 
        Vanderbilt has so far committed $2M in institutional funds to 
        support training of Fisk-Vanderbilt Master's-to-Ph.D. Bridge 
        students.
---------------------------------------------------------------------------
    \14\ Integrated Graduate Education and Research Traineeships 
(IGERT) is an NSF-wide program.

    Mr. Chairman, thank you again for the opportunity to testify before 
the Subcommittee today. I look forward to answering the Subcommittee's 
questions and working together to broaden participation in the STEM 
---------------------------------------------------------------------------
fields.

Appendix A: Additional Comments and Supporting Material for the Fisk-
                    Vanderbilt Master's-to-Ph.D. Bridge Program

    MSIs (including HBCUs, HSIs, and TCUs) represent large--and largely 
untapped--pools of URM talent in STEM. For example, the top 15 
producers of African American physics baccalaureates in the U.S. are 
all HBCUs, and just 20 HBCUs were responsible for producing fully 55 
percent of all African American physics baccalaureates in the U.S. 
between 1998 and 2007.\15\ In comparison to majority institutions, 
which in 2006 produced on average 9,0 URM bachelor's degrees per 
institution per year in physics, computer science, and engineering, 
MSIs produced on average 36.1 URM degrees per institution per year in 
these disciplines (data from NSF WebCASPAR). Moreover, these 
institutions are successful at placing students in Ph.D. programs. For 
example, among the U.S. baccalaureate-origin institutions of African 
American STEM Ph.D. recipients for the years 1997-2006, the top 8, and 
20 of the top 50, were HBCUs.\16\
---------------------------------------------------------------------------
    \15\ AIP Statistical Research Center, Enrollment and Degrees 
Survey.
    \16\ Burrelli, J., & Rapoport, A. 2008, ``Role of HBCUs as 
Baccalaureate-Origin Institutions of Black S&E Doctorate Recipients,'' 
NSF 08-319.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The number of MSIs with research-active faculty, and that offer 
advanced STEM degrees, has undergone dramatic growth. The growth of MSI 
Master's degree programs in particular is striking. For example, 
between 1987 and 2006, the number of MSIs offering Master's degrees in 
the physical sciences or engineering increased by 79 percent, and the 
number of URMs earning Master's degrees from these institutions 
increased correspondingly by 533 percent (from 119 URM degrees in 1987 
to 753 in 2006; data from NSF WebCASPAR). Consequently, as shown in the 
chart below, URMs who earn Ph.D.s in STEM fields are about 50 percent 
more likely than their non-URM counterparts to have earned a 
``terminal'' master's degree (i.e. not a master's degree earned as part 
of a Ph.D. program) before eventually transitioning to a Ph.D. 
program.\17\ Thus the Master's degree is a critical, and previously 
poorly understood, stepping stone for many URMs in STEM. Moreover, the 
transition from the Master's to the Ph.D. is therefore a critical 
educational juncture at which students without suitable mentoring and 
guidance may be lost from the STEM Ph.D. pipeline.
---------------------------------------------------------------------------
    \17\ Lange, S. E. 2006, ``The Master's Degree: A Critical 
Transition in STEM Doctoral Education'', Ph.D. Dissertation, University 
of Washington.
     Syverson, P. 2003, ``Data Sources'', Graduate School Communicator, 
XXXVI, 5

---------------------------------------------------------------------------
Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program Facts & Figures

        <bullet>  In 2006, U.S. institutions awarded to Black U.S. 
        citizens 12 Ph.D.s in physics (out of 637 U.S. citizen Ph.D.s; 
        1.9%) [data from NSF]. The average per Ph.D.-granting 
        institution in the U.S. is 1 minority Ph.D. in biology, 
        physics, materials science, and astronomy every two, five, 
        nine, and 13 years, respectively.

        <bullet>  The Fisk-Vanderbilt Bridge program is on track to 
        award ten times the U.S. institutional average number of 
        minority Ph.D. recipients in astronomy, nine times the average 
        in materials science, five times the average in physics, and 
        two times the average in biology (the biology track was newly 
        added in 2007). Our most recent incoming cohort alone includes 
        more minority students in astronomy than the current annual 
        production of minority Ph.D. astronomers for the entire U.S.

        <bullet>  Our Bridge students have been awarded the nation's 
        top graduate fellowships from NSF (GRF and IGERT) and NASA (see 
        Table 1 below).

        <bullet>  Extramural grants received to support the Bridge 
        program--support for graduate students, faculty, and related 
        undergraduate research--now exceed $25.1M (see Table 2 below).

        <bullet>  Vanderbilt and Fisk now provide significant 
        institutional support in the form of tuition waivers, RA 
        stipends, and administrative support (see Table 2 below).

                   Table 1.--Fisk-Vanderbilt Master's-to-Ph.D. Bridge Program Students to Date
----------------------------------------------------------------------------------------------------------------
                                       Ethnicity/   Admit      Undergraduate                        Current
               Student                  Gender *     Year      Institution       Discipline   Institution/Status
----------------------------------------------------------------------------------------------------------------
S. Babaloloa                                 A/M     2004       University of     Materials       UA Huntsville
                                                              Ilorin, Nigeria                         (faculty)
----------------------------------------------------------------------------------------------------------------
T. LeBlanc                                   H/M     2004   UMET, Puerto Rico     Astronomy    Vanderbilt (NASA
                                                                                                        Fellow)
----------------------------------------------------------------------------------------------------------------
J. Harrison                                  A/M     2004                    ChicaMaterials                    Case Western
                                                                        Univ.                    (IGERT fellow)
----------------------------------------------------------------------------------------------------------------
H. Jackson                                   A/F     2004     Fisk University       Physics   Wright State (USAF
                                                                                                               Co-op)
----------------------------------------------------------------------------------------------------------------
J. Rigueur                                   A/M     2004     Fisk University       Physics   Vanderbilt (IGERT
                                                                                                        fellow)
----------------------------------------------------------------------------------------------------------------
V. Alexander                                 A/M     2005   Florida A&M Univ.       Physics        Dropped out,
                                                                                                 status unknown
----------------------------------------------------------------------------------------------------------------
J. Bodnarik                                  W/F     2005        USAF Academy     Astronomy    Vanderbilt (NASA
                                                                                                               Co-op)
----------------------------------------------------------------------------------------------------------------
M. Harrison                                  A/F     2005   Xavier University     Materials   Vanderbilt (IGERT
                                                                                                        fellow)
----------------------------------------------------------------------------------------------------------------
J. Isler                                     A/F     2005       Norfolk State     Astronomy   Yale (NSF graduate
                                                                        Univ.                           fellow)
----------------------------------------------------------------------------------------------------------------
E. Jackson                                   A/M     2005       Norfolk State     Materials   Vanderbilt (IGERT
                                                                        Univ.                           fellow)
----------------------------------------------------------------------------------------------------------------
J. Jones                                     A/F     2005   Grambling State U.    Materials   Vanderbilt (IGERT
                                                                                                        fellow)
----------------------------------------------------------------------------------------------------------------
T. Van                                       H/M     2005   UMET, Puerto Rico       Biology          Vanderbilt
----------------------------------------------------------------------------------------------------------------
L. Zambrano                                  H/F     2005   UMET, Puerto Rico     Astronomy    Dropped out (now
                                                                                                        at UTB)
----------------------------------------------------------------------------------------------------------------
D. Foster                                    A/M     2006                 UMBC    Astronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
A. Ruffin                                    A/F     2006   Tennessee State U.      Physics   Oak Ridge National
                                                                                                            Lab
----------------------------------------------------------------------------------------------------------------
D. Campbell                                  A/M     2006             Rhodes CollegePhysics          Vanderbilt
----------------------------------------------------------------------------------------------------------------
R. Santos                                    H/M     2006   UMET, Puerto Rico       Physics        Dropped out,
                                                                                                 status unknown
----------------------------------------------------------------------------------------------------------------
E. Walker                                    A/F     2006      Alabama A&M U.     Materials   Vanderbilt (IGERT
                                                                                                        fellow)
----------------------------------------------------------------------------------------------------------------
J. Cooper                                    A/F     2007               Rust CollegeBiology                  U Chicago
----------------------------------------------------------------------------------------------------------------
D. Gunther                                   W/F     2007   Austin Peay State     Materials          Vanderbilt
----------------------------------------------------------------------------------------------------------------
L. Palladino                                 W/F     2007          Hofstra U.     Astronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
C. Mack                                      A/M     2007                  UNC ChaAstronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
A. Parker                                    A/M     2007   Austin Peay State     Materials          Vanderbilt
----------------------------------------------------------------------------------------------------------------
E. Morgan                                    A/F     2007   Tennessee State U.    Astronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
F. Bastien                                   A/F     2008         U. Maryland     Astronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
L. Jean                                      H/F     2008    U. New Hampshire       Biology          Vanderbilt
----------------------------------------------------------------------------------------------------------------
M. Richardson                                A/M     2008     Fisk University     Astronomy          Vanderbilt
----------------------------------------------------------------------------------------------------------------
S. Haynes                                    A/F     2007   Tennessee State U.    Astronomy   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
F. Colazo                                    H/M     2008     Fisk University     Astronomy   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
B. Kamai                                     N/F     2008           U. Hawaii     Astronomy   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
J. Harris                                    A/F     2008   Grambling State U.    Astronomy   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
S. Lawrence                                  A/F     2008                    Clark UBiology   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
S. Satchell                                  A/F     2008     Saint Paul's U.       Biology   Fisk (MS expected
                                                                                                          2010)
----------------------------------------------------------------------------------------------------------------
B. Cogswell                                  A/F     2009    Florida State U.       Physics   Fisk (MS expected
                                                                                                          2011)
----------------------------------------------------------------------------------------------------------------
M. Williams                                  A/M     2009     Morehouse Univ.     Astronomy   Fisk (MS expected
                                                                                                         2011)
----------------------------------------------------------------------------------------------------------------
* Ethnicity/Gender: H=Hispanic, A=African American, N=Native Hawaiian, W=White, F=Female, M=Male.



                    Table 2.--Funding Received to Date Supporting Bridge Students and Faculty
----------------------------------------------------------------------------------------------------------------
              Agency                    Program         Years       Lead Faculty (PI in boldface)       Amount
----------------------------------------------------------------------------------------------------------------
NSF                                               CAREE2004-09              K. Stassun (Vanderbilt)         $1M
----------------------------------------------------------------------------------------------------------------
NASA                                            MUCERPI2004-07         A. Burger (Fisk), K. Stassun       $800K
                                                                                  (Vanderbilt), E. Collins (Fisk), D.
                                                                      Ernst (Vanderbilt), S. Morgan
                                                                                             (Fisk)
----------------------------------------------------------------------------------------------------------------
NSF                                               CREST2004-14als                               E. Collins$9.4Mk), A. Burger
                                              Sci.                  (Fisk), W. Lu (Fisk), S. Morgan
                                                                               (Fisk), R. Mu (Fisk)
----------------------------------------------------------------------------------------------------------------
DOE, DHS, DOD, NASA                      Materials     2004-09                     A. Burger (Fisk)       $3.5M
                                           Science
----------------------------------------------------------------------------------------------------------------
NSF                                            REU     2004-10                                  E. Collins$600Kk), A. Burger
                                                                           (Fisk), S. Morgan (Fisk)
----------------------------------------------------------------------------------------------------------------
NSF                                            REU     2007-10    D. Ernst (Vanderbilt), K. Stassun       $300K
                                                                                       (Vanderbilt)
----------------------------------------------------------------------------------------------------------------
NSF                                    PAARE (AST)     2008-13   K. Stassun (Vanderbilt), A. Burger       $2.2M
                                                                       (Fisk), K. Holley Bockelmann
                                                                     (Vanderbilt), M. Watson (Fisk)
----------------------------------------------------------------------------------------------------------------
NSF                                               CAREE2009-14   K. Holley-Bockelznann (Vanderbilt)       $1.1M
----------------------------------------------------------------------------------------------------------------
NSF                                             I-Cubed2009-14                   K. Stassun & R. McCarty $1.25M
                                                                         (Vanderbilt), S. Rosenthal
                                                                                  (Vanderbilt), E. Collins (Fisk)
----------------------------------------------------------------------------------------------------------------
DOEd                                         GAANN     2009-12   K. Stassun, D. Ernst (Vanderbilt),       $900K
                                                                                                E. Collins (Fisk)
----------------------------------------------------------------------------------------------------------------
Vanderbilt Provost                       VIDA \18\     2007-12              K. Stassun (Vanderbilt)         $2M
----------------------------------------------------------------------------------------------------------------
Vanderbilt A&S Dean                     Biological     2008-11         D. Webb (Vanderbilt), J. Ike       $150K
                                     Sciences \19\                  (Fisk), K. Stassun (Vanderbilt)
----------------------------------------------------------------------------------------------------------------
Fisk Provost                        Physics/Biology    2004-14                                  E. Collins$937Kk), S. Morgan
                                              \20\                            (Fisk), J. Ike (Fisk)
----------------------------------------------------------------------------------------------------------------
\18\ Vanderbilt Office of the Provost provides support for stipend/tuition for 4 Bridge students per year and a
  full-time program coordinator.
\19\ The Dean of Vanderbilt Arts & Science provides seed support for 1 Bridge student per year in Biological
  Sciences (stipends + tuition).
\20\ Fisk provides full tuition waivers for approximately 6 Bridge students per year in these Master's degree
  programs.


Appendix B: Additional comments and supporting material for Challenges 
                    to Broadening Participation in STEM

    The very low number of underrepresented minorities (URMs) earning 
doctoral degrees in STEM disciplines is a problem in need of focused 
attention and rapid improvement. Individuals who exit the higher 
education STEM pipeline with baccalaureate degrees are in an excellent 
position to join the national STEM workforce with fulfilling and 
gainful employment. However, it remains a critical national interest to 
sustain a vital pipeline of individuals earning doctoral degrees in 
STEM. These are the best and brightest of our national brain trust: the 
future leaders of our world-class laboratories, the future principal 
investigators of federally funded R&D initiatives, the future teachers, 
mentors, and role models for subsequent generations of America's 
explorers. It matters, therefore, that these future STEM leaders 
reflect the ``face of America.''
    Graduate STEM programs in the U.S. have become increasingly 
effective in the training of STEM leaders for the rest of the world. 
Indeed, in many STEM disciplines, the proportion of all Ph.D.s awarded 
to non-US citizens or permanent residents now exceeds 50 percent. As 
one example relevant to one Federal agency (NASA), in 2008 there were 
265 Ph.D.s awarded by U.S. institutions in aerospace, aeronautic, and 
astronautical engineering, of which 121 were awarded to U.S. citizens 
and permanent residents; that is, less than half of all Ph.D.s awarded 
in these NASA-related disciplines are now being awarded within the 
domestic U.S. STEM workforce. More generally, 44 percent of all STEM 
Ph.D.s are awarded by U.S. institutions to U.S. citizens and permanent 
residents \21\.
---------------------------------------------------------------------------
    \21\ Data source: Survey of Earned Doctorates (NSF/NIH/USED/NEH/
USDA/NASA).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To be sure, graduate students from other countries contribute 
greatly to the intellectual community at an institution like 
Vanderbilt, and bring much to the institution in terms of diversity. At 
the same time, however, large segments of the U.S. population remain 
grossly underutilized. Over the period 1999-2006, U.S. citizen URMs 
represented on average just four percent of all STEM Ph.D.s awarded by 
U.S. institutions (see chart above), whereas these groups comprise more 
than 30 percent of the Ph.D.-age population of the U.S. Foreign 
students earned almost five times as many Ph.D.s in 2006 than did URM 
citizens of the U.S. As noted by the Woodrow Wilson Foundation report, 
Diversity and the Ph.D.: ``educating the world's students while 
neglecting significant groups of the national population is a vast 
inequality at the highest academic level''.
    Low as is the overall representation of URMs in STEM fields, some 
disciplines prove particularly challenged. In general the physical 
sciences show the most severe underrepresentation of URMs. For example, 
in physics and astronomy the proportion of Ph.D.s awarded to URMs in 
1999-2006 averaged just barely over two percent, again compared to the 
more than 30 percent that URMs represent in the Ph.D.-age population of 
the U.S. In 2008, U.S. institutions awarded to Black U.S. citizens just 
15 Ph.D.s in physics (out of 905 U.S. citizen Ph.D.s; 1.7%) [NSF Web-
CASPAR]. Of course, Ph.D.s are earned one individual at a time, each 
within a department at one institution. It is at this level of 
granularity that the challenge of broadening participation must be met. 
For example, in physics the statistics translate into an average of 1 
URM Ph.D. per Ph.D.-granting institution every five years. In materials 
science, it is 1 URM Ph.D. per institution on average every nine years. 
In astronomy, it is 1 URM Ph.D. per institution on average every 13 
years.
    One consequence of this very low URM Ph.D. production rate is that 
there continues to be a very small number of URM STEM faculty at major 
research universities to serve as mentors and role models for the next 
generation of URM STEM Ph.D.s. Taking astronomy as an example, a recent 
survey of all 51 astronomy and astrophysics Ph.D.-granting programs in 
the U.S. counted a total of just 17 individuals who identify as URMs 
among the full-time faculty (2 percent of all astronomy and 
astrophysics faculty) \22\. These Ph.D.-granting programs today 
collectively award approximately 4<plus-minus>1 URM Ph.D.s per year 
(data from American Institute of Physics), an average per Ph.D.-
granting institution of 1 URM Ph.D. every 13 years \23\. Over the past 
20 years this represents a slight increase in absolute number from 
3<plus-minus>1 URM Ph.D.s in 1988. The corresponding fraction of URM 
Ph.D.s has been roughly flat at 2-4 percent of the total \24\, while 
the proportion of URMs in the U.S. population grew by 33 percent during 
this same time period (from 20.9 percent in 1988 to 27.0 percent in 
2008; data from U.S. Census). Over the past decade, the proportion of 
URM Ph.D.s in physics and astronomy has been a factor of 2 smaller than 
in all other science and engineering (STEM) fields, and a factor of 4 
smaller than in all fields. On average about three percent of the STEM 
workforce turns over each year. To achieve parity in the number of URMs 
entering the stream of permanent astronomy and astrophysics positions, 
and assuming similar attrition rates among URM Ph.D.s as for astronomy 
and astrophysics Ph.D.s as a whole, the number of URM Ph.D.s would need 
to increase from 5 per year to approximately 40 per year, an eight-fold 
increase. At this pace, the field overall could achieve parity in 30 to 
35 years.
---------------------------------------------------------------------------
    \22\ Nelson, D., & Lopez, L. 2004, ``The Diversity of Tenure Track 
Astronomy Faculty,'' American Astronomical Committee on the Status of 
Minorities in Astronomy, Spectrum Newsletter, June 2004.
    \23\ Stassun, K.G. 2005, ``Building Bridges to Diversity'', 
Mercury, 34 (3), 20
    \24\ These fractions are relative to U.S. citizen and permanent 
resident Ph.D.s only. Since foreign students account for approximately 
50% of all physics and astronomy Ph.D.s awarded in the U.S. (Ref: 
Survey of Earned Doctorates), the true fraction of Ph.D.s earned by 
URMs is a factor of 2 smaller.
---------------------------------------------------------------------------
    Inside Higher Ed (3/11/2010, Jaschik) \25\ reports that a study 
from Cornell University's Higher Education Research Institute ``finds a 
statistically significant relationship between [URM] students who plan 
to be a science major having at least one [URM] science instructor as 
freshmen and then sticking to their plans. The finding could be 
significant because many students (in particular members of URM groups) 
who start off as science majors fail to continue on that path--so a 
change in retention of science majors could have a major impact.'' 
Joshua Price, who authored the report on the study, said, ``These 
results suggest that policies to increase the [URM] representation 
among faculty members might be an effective means of increasing the 
representation of [URMs] who persist and ultimately graduate in STEM 
fields.''
---------------------------------------------------------------------------
    \25\ http://www.insidehighered.com/news/2010/03/11/race
---------------------------------------------------------------------------
    The mentoring and training of URM STEM Ph.D.s is not shared equally 
among Ph.D.-granting institutions. Indeed, fully one-third of all URM 
STEM Ph.D.s in the U.S. are produced by just 27 institutions. As shown 
in the table below, these 27 institutions represent two distinct groups 
of institutions: (1) The few MSIs that award Ph.D.s (such as Howard 
University, University of Puerto Rico, Carlos Albizu University), and 
(2) the very top-ranked Ph.D.-granting institutions (such as University 
of Michigan, University of California Berkeley, Harvard University). In 
comparison, the overwhelming majority of Ph.D.-granting programs in the 
U.S. on average produce single-digit numbers of URM STEM Ph.D.s, or 
none at all. These Ph.D.-granting programs, representing broadly the 
second-tier of research universities, are currently underutilized for 
broadening participation of URMs in attaining STEM Ph.D.s.
    Engaging URM individuals from a broader base of ``applied'' STEM 
backgrounds could substantially, and quickly, expand the pool of 
qualified individuals in areas of the ``pure'' disciplines that are 
likely to experience growth in the coming decade. For example, the 
development of new instruments for high-energy physics experiments, for 
space-based astrophysics missions, for climate-change research, etc., 
will require technical expertise from a variety of engineering 
disciplines, including systems engineering and design, and innovations 
in detector technologies stemming from materials science. Similarly, 
the increasing importance of high-performance computing and 
informatics-based approaches--for large scale simulations, for data-
intensive surveys, for data-mining infrastructures across all STEM 
disciplines--will require expertise that may be tapped from the ranks 
of computer science graduates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2006, for example, URMs earned a total of 17,813 baccalaureate 
degrees in physics, computer science, and engineering [data from NSF 
WebCASPAR]. In comparison, 3,598 (20.2 percent) of these earned a 
master's degree, and 292 (1.6 percent) went on to earn a Ph.D. Thus the 
pool of URMs with relevant STEM training is substantial, but an 
overwhelming majority of these individuals currently exit the higher 
education pipeline with a bachelor's degree. The opportunity to 
pipeline URM STEM baccalaureates into advanced degrees in STEM 
disciplines is large.

                    Biography for Keivan G. Stassun
    After earning B.A. degrees in physics and in astronomy from the 
University of California at Berkeley in 1994, Stassun earned the Ph.D. 
in astronomy from the University of Wisconsin-Madison in 2000. Stassun 
then served as assistant director of the NSF-funded GK-12 program at 
UW-Madison, connecting STEM graduate students with public K-12 schools 
both to enhance K-12 science teaching and to provide leadership 
development for STEM graduate students. He then served for two years as 
a NASA Hubble Space Telescope postdoctoral research fellow before 
joining the Vanderbilt faculty in 2003.
    A recipient of a CAREER award from NSF and a Cottrell Scholar Award 
from the Research Corporation, Stassun's research on the birth of stars 
and planetary systems has appeared in the prestigious research journal 
Nature, has been featured on NPR's Earth & Sky, and has been published 
in more than 40 peer-reviewed scholarly journal articles. In 2006, the 
Vanderbilt Initiative in Data-intensive Astrophysics (VIDA) was 
launched as a $2M pilot program in astro-informatics, with Stassun as 
its first director.
    The Stassun research group includes four postdoctoral associates, 
seven doctoral students, seven master's students, and numerous 
undergraduate interns. Now an associate professor of astronomy at 
Vanderbilt, Stassun is also adjunct professor of physics at Fisk 
University, and serves as co-director of the Fisk-Vanderbilt Masters-
to-Ph.D. Bridge Program.
    Since 2004, the Fisk-Vanderbilt Bridge Program has attracted 34 
students, 31 of them underrepresented minorities (60% female), with a 
retention rate of 92%. The first Ph.D. to a Fisk-Vanderbilt Bridge 
student was awarded in 2009, just five years after the program's 
inception. In 2011, Vanderbilt will achieve the distinction of becoming 
the top research university to award the Ph.D. to underrepresented 
minorities in physics, astronomy, and materials science. Already, Fisk 
has become the top producer of Black U.S. recipients of the master's 
degree in physics, and one of the top ten producers of physics M.A. 
degrees overall. The Fisk-Vanderbilt Bridge Program is supported by 
institutional funds from Vanderbilt and Fisk as well as extramural 
grants from NSF and NASA.
    From 2003 to 2008, Stassun served as chair of the American 
Astronomical Society's Committee on the Status of Minorities, as a 
member of the Congressional FACA Astronomy & Astrophysics Advisory 
Committee, and presently serves on the advisory board for the NSF-
funded Institute for Broadening Participation and on the Workforce and 
Diversity Committee of the Associated Universities for Research in 
Astronomy.

    Chairman Lipinski. Thank you, Dr. Stassun.
    The Chair will now recognize Dr. Yarlott.

 STATEMENT OF DR. DAVID YARLOTT, PRESIDENT OF LITTLE BIG HORN 
 COLLEGE, AND CHAIR OF THE BOARD OF DIRECTORS FOR THE AMERICAN 
               INDIAN HIGHER EDUCATION CONSORTIUM

    Dr. Yarlott. Mr. Chairman, distinguished members of the 
Committee, my name is Baluxx Xiassash--Outstanding Singer. I am 
a member of the Uuwuutasshe Clan and also a child of the 
Uuwuutasshe Clan of the Apsaalooke, or Crow, Indians. The Crow 
Reservation is located in south central Montana and contains 
about 3,000 square miles, a territory larger than the State of 
Rhode Island.
    In the early 1980s, my tribe established Little Big Horn 
College with the goal of creating a lasting tradition of higher 
education for a good path into the future for the Crow people. 
I am proud to say that I am a product of my tribe's commitment 
to higher education. As a student, I graduated from Little Big 
Horn College. As a faculty member, I taught at the college. 
Later after earning advanced degrees, I became an 
administrator, and now, as President of Little Big Horn 
College, it is my responsibility to keep building the path into 
the future for my people, a path that includes new technologies 
needed for environmental science and partnerships in emerging 
STEM fields.
    On behalf of Little Big Horn College and the 35 other 
tribal colleges and universities that comprise the American 
Indian Higher Education Consortium, thank you for inviting me 
here to testify on cultural and institutional barriers to 
broadening student participation in STEM programs. I am pleased 
to comment on efforts to overcome these barriers at tribal 
colleges and provide a few recommendations on strategies for 
improving Federal agency support to ensure that all Americans, 
including the first Americans, can succeed in high-quality STEM 
education programs and successfully enter a national STEM 
workforce.
    This morning I will speak briefly on three topics: the 
tribal college movement, the role of tribal colleges in the 
NSF's TCU [Tribal Colleges and Universities] program and 
broadening participation of American Indian students in STEM 
fields and the challenges and barriers we face, and possible 
strategies for improving STEM broadening participation 
programs.
    Mr. Chairman, because I do not know how well acquainted you 
or the members of the Committee are with tribal colleges, I 
will try to give you a brief sketch of our institution. Simply 
put, American Indian tribal colleges and universities are 
young, geographically isolated, poor, and almost unknown to 
mainstream America. Our institutions are also extraordinarily 
effective catalysts for revitalization and change, so much so 
that we have been called ``higher education's best-kept 
secret''. Tribal colleges are planting seeds of hope for the 
future, sustaining native languages, cultures and traditions 
and helping to build stronger tribal economies and governments. 
Yet the oldest tribal college is actually quite young. My 
institution, Little Big Horn College, celebrated its 30th 
anniversary this year. Our oldest institution, Dine College, 
turned 40 last year.
    The tribal college philosophy is simple: to succeed, 
American Indian higher education must be locally and culturally 
based, holistic and supportive. That education system must 
address the whole person: mind, body, sprit and family. In only 
a few short decades, tribal colleges have grown from very 
humble beginnings to thriving academic centers. Little Big Horn 
College began in the early 1980s in two trailers and a garage 
that was serving as a barn. In the early years, our college had 
about 30 students. Today, the college averages more than 400 
students each semester.
    Although tribal colleges and universities have made 
unprecedented strides in addressing the higher education needs 
of American Indians, much work and many challenges remain. Of 
all groups in the United States, American Indian students have 
the highest school dropout rates in the country. Less than half 
of all American Indian high school students actually graduate. 
If these students eventually do pursue higher education, it is 
most often through tribal colleges, which like other community 
colleges are open-admission institutions.
    In addition to offering daily preparation and testing, 
tribal colleges face challenges with remediation developmental 
education. On average, more than 75 percent of all TCU students 
must take at least one developmental course, most often pre-
college mathematics. It goes without saying that a tremendous 
amount of TCU resources are spent addressing the failings of 
the K-12 education system. For this reason, TCUs have developed 
strong partnerships with their K-12 feeder schools. We are 
working often through our NSF-TCU [Tribal Colleges and 
Universities Program] programs to engage young students early 
on and consistently in community and culturally relevant 
science and math programs. However, most of our STEM programs 
operate on soft competitive funding, and prior to NSF-TCUP, 
most tribal colleges were unable to secure the resources needed 
to build high-quality STEM programs. We simply were not able to 
compete successfully in STEM programs sponsored by NSF and 
other Federal agencies.
    Beginning in fiscal year 2001, NSF-TCUP changed this by 
making available a central capacity building assistance and 
resource to tribal colleges. In less than ten years, NSF-TCUP 
has become the primary Federal program for building STEM 
capacity at tribal colleges. The program can be credited with 
many success stories. More American Indians are entering STEM 
education and STEM professions. Little Big Horn College went 
from three to four science students in the late 1990s to more 
than 50 science majors today. STEM faculty are becoming more 
effective and engaged. At my college, we have gone from a STEM 
faculty that was completely non-Native to seven Crow STEM 
faculty, five of whom are alumni of the college. Students are 
becoming involved in cutting-edge and community-relevant 
research in significantly greater numbers. For the past few 
years, we have had an exciting summer robotics program at 
Little Big Horn College.
    Partnerships between TCUs and major research institutions 
are emerging as our capacity grows in the areas of research and 
education, including pre-engineering. We believe that NSF-TCUP 
could serve as a model for our Federal agencies working with 
our institutions to overcome barriers to broadening 
participation.
    However, outside of the TCU program, NSF is broadening 
participation effort has not been entirely successful. 
Throughout our history, states and mainstream institutions have 
taken advantage of tribal colleges and their students, adding 
us to their grant proposals and including our students in their 
statistical reports without ever speaking to us or even 
notifying us that we are being used to help them secure 
funding. As NSF's broadening participation requirement has 
grown in importance, the number of proposals from mainstream 
institutions seeking to include tribal colleges has increased 
dramatically. TCU faculty simply are not competitive in NSF-
sponsored grant competitions because our institutions lack the 
funding needed to hire experienced researchers and adequate 
support staff including grant writers and assessment 
professionals.
    Another problem facing TCUs is the size and remoteness of 
our rural institutions. `How many students are we going to be 
able to impact' is a common question for our small 
institutions. How many Native students are in mainstream 
university science programs? The answer is typically one to 
three students based on self-reporting.
    My testimony includes several recommendations, but this 
morning I will only mention a few. First, we urge you to 
sustain the NSF TCU program as a separate program designed to 
meet the unique needs of our students. Given the limited pool 
of TCU applicants, 33 accredited TCUs, and the need to build 
STEM programs from the ground up, awards made under NSF-TCUP 
must be for a period of ten years, or alternatively, five years 
with ongoing support for an additional five years, provided the 
programs meet appropriate NSF criteria for satisfactory 
progress. This is consistent with other successful NSF 
capacity-building programs. NSF program staff should not cut 
the pie into even smaller and smaller pieces by prioritizing 
purpose within NSF-TCU program new areas. TCUs should be 
allowed to design projects that meet our community's needs as 
long as they are consistent with the overall goals of the NSF 
program. We request assistance in enforcing and measuring 
compliance with a requirement that any collaborative proposal 
involving TCUs must include letters of support and commitment 
from the TCUs or AIHEC. This will stop ongoing abuses by 
mainstream institutions to game the broadening participation 
requirement. In the 1990s, through NSF's Tribal College Rural 
Systemic Initiatives, 20 TCUs partnered with the local school 
districts to lead whole system change involving parents, tribal 
governments, schools and private sector. We urge you to look 
into the outcomes of the program and consider reestablishing 
it.
    Over the past few years and as a result of changing law and 
policy, EPSCoR programs are finally beginning to include TCUs 
and state-based programs. While we would offer a specific TCU 
EPSCoR, if that is not possible, we ask that all EPSCoR 
programs at TCU states clearly articulate, with funding 
commitments, their outreach to TCUs. EPSCoR programs should be 
held accountable to work with tribal colleges as they work with 
state-supported public institutions.
    My written testimony includes several other recommendations 
which we will be pleased to discuss with you at your 
convenience. I will conclude this morning by saying that we are 
grateful, Mr. Chairman, for this opportunity to share our 
story, our successes and our needs with you today. We look 
forward to working with you to achieve broader participation in 
STEM degree programs to achieve our Nation's post-secondary 
education and STEM workforce goals. Thank you.
    [The prepared statement of Dr. Yarlott follows:]
                  Prepared Statement of David Yarlott
    Mr. Chairman and distinguished members of the Committee, on behalf 
of my institution, Little Big Horn College in Crow Agency, Montana and 
the 35 other tribally-chartered colleges and universities that 
collectively are the American Indian Higher Education Consortium, thank 
you for inviting me to testify on the institutional and cultural 
barriers to broadening student participation in science, technology, 
engineering, and mathematic degree programs. I am pleased to comment on 
efforts to overcome these barriers at Tribal Colleges and Universities 
and to provide a few recommendations on strategies for increasing and 
improving Federal agency support for efforts to ensure that all 
Americans, including the First Americans, can succeed in high quality 
STEM education programs and successfully enter the national STEM 
workforce.
    My name is Baluxx Xiassash--Outstanding Singer. I am a member of 
the Uuwuutasshe Clan and also a child of the Uuwuutasshe Clan of the 
Apsaalooke or Crow Indians. The Crow reservation is located in what is 
now south-central Montana and contains about 3000 square miles--a 
territory larger than the state of Rhode Island--of rolling hills, high 
plains, grasslands, badlands water and wetlands. In the early 1980s, my 
tribe established Little Big Horn College, forging a new tradition in 
education to nurture Crow Indian professionals whose life work would 
build the Crow community. The goal was to establish a lasting tradition 
of advanced training and higher education, for a good path into the 
future for the Crow People. I am proud to say that I truly am a product 
of my tribe's commitment to higher education: as a student, I graduated 
from Little Big Horn College; as a faculty member, I taught at the 
college. Later, after earning advanced degrees, I became an 
administrator, and now, as president of Little Big Horn College, it is 
my responsibility to keep building the path into the future for my 
people, a path that includes new technologies, Native and environmental 
science, and partnerships in emerging STEM fields.
    This morning, I will speak briefly on three topics: The Tribal 
College Movement in general; the role of Tribal Colleges in broadening 
participation of American Indian students in STEM fields and the 
challenges and barriers facing our institutions as we carry out this 
work; and finally, the role of the National Science Foundation's TCU 
program in helping our institutions to develop STEM degree programs and 
possible strategies for improving the program. I ask that my written 
statement, along with attachments, be included in the Hearing Record.

BACKGROUND: THE TRIBAL COLLEGE MOVEMENT

    Mr. Chairman, I do not know how well acquainted you or the members 
of this Committee are with Tribal Colleges and Universities, as I do 
not believe we have ever testified before you, or interacted with you 
or your staff prior to last month. Perhaps you do not know of our near 
daily struggles to survive as the most poorly funded institutions of 
higher education in the country, or of our tremendous successes, from 
our work to build self esteem and change the life and future of a 
student through a nurturing educational environment that is culturally-
based and relevant to that student, to our efforts to build stronger 
and more prosperous Tribal nations through the restoration of our 
languages, applied research on issues relevant to our land and our 
people, workforce training in fields critical to our reservation 
communities, and community-centered economic development and 
entrepreneurial programs.
    American Indian tribally chartered colleges and universities are 
young, geographically isolated, poor, and almost unknown to mainstream 
America. Our institutions are also extraordinarily effective catalysts 
for revitalization and change--so much so that we have been called 
``higher education's best kept secret.''
    Located in some of the most rural and impoverished regions of this 
country, Tribal Colleges are planting resilient seeds of hope for the 
future; nurturing and sustaining languages, cultures, and traditions; 
and helping to build stronger tribal economies and governments. Yet, 
the oldest Tribal College is younger than many of the people in this 
room. My institution, Little Big Horn College, celebrated its 30th 
anniversary this year. Our oldest institution, Dine College on the 
Navajo Nation, turned 40 last year.
    The Tribal College philosophy is simple: to succeed, American 
Indian higher education must be locally and culturally based, holistic, 
and supportive. The education system must address the whole person: 
mind, body, spirit, and family. Today, the nation's 36 tribal colleges 
are located throughout Indian Country: all seven tribes in Montana and 
all five in North Dakota have colleges. Tribal Colleges are also 
located in the Southwest, the Great Lakes, and the upper Northwest. We 
are expanding in all regions, including Alaska and Oklahoma, and 
through distance education programs, our colleges are reaching all of 
Indian Country.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In only a few short decades, Tribal Colleges have grown from very 
humble beginnings to thriving academic centers. Little Big Horn 
College, for example, began in the early 1980s in two trailers and a 
garage that was serving as a barn. In the early years, the college had 
about 30 students. Today, the college averages more than 400 students 
each semester and focuses on 10 degree programs in areas critical to 
our tribe's economic and community development.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Little Big Horn College, like all Tribal Colleges, is first and 
foremost an academic institution, but because of the number of 
challenges facing Indian Country--high unemployment, poorly developed 
economies, significant health issues, and lack of stable community 
infrastructures--Tribal Colleges are called upon to do much more than 
provide higher education services. Tribal Colleges, such as Little Big 
Horn College, often run entrepreneurial and business development 
centers. Many TCUs are the primary GED and Adult Basic Education 
provider on their reservations, and all TCUs provide a variety of 
evening, weekend training and para-professional programs for tribal 
employees, BIA and IHS staff; K-12 schools, tribal courts and justice 
system staff, and many others. TCUs operate day care centers, health 
promotion and nutrition programs, community gardens, and often, the 
community library and tribal museum or archives. Tribal Colleges have 
strong partnerships and linkages with the local K-12 education system, 
offering Saturday and summer ``bridge'' programs for high school 
students, running summer camps for youth, and providing after-hours 
gymnasiums and computer labs for young people.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In terms of agriculture and land-based programs, Tribal Colleges 
are working diligently to sustain our lands and waters. With 75 percent 
or more of all tribal land being forested or agriculture based, 
sustaining our environment is of critical importance to our people. 
Several TCUs are involved in climate change research and education 
projects, funded by NSF and the National Aeronautics and Space 
Administration. This semester, 15 TCUs launched a distributed, online 
Introduction to Climate Change course, developed collaboratively from a 
Native perspective through funding awarded to AIHEC by NSF.
    Perhaps most important, Tribal Colleges are actively and 
aggressively working to preserve and sustain their own tribal languages 
and cultures. All TCUs offer Native language courses, and in fact, 
passing a language course is a condition of graduation from a TCU. In 
some cases, the tribal language would have been completely lost if not 
for the Tribal College. Turtle Mountain Community College in Belcourt, 
North Dakota, was established primarily for this purpose, and over the 
years, its success in preserving and revitalizing the Turtle
    Mountain Chippewa language has been unparalleled. Fort Belknap 
College in Montana runs a K-6 language immersion school, right on 
campus. At the White Clay Immersion School, children learn the White 
Clay language and culture in addition to subjects they would normally 
study at any other school.
    Many TCUs offer unique associate and bachelor degree programs, as 
well as in-service training, in elementary education. At the TCUs, 
teacher education programs follow cultural protocols and stress the use 
of Native language in everyday instruction. Well over 90 percent of 
teachers who graduate from a TCU teacher education program begin 
teaching on the reservation shortly after graduation, providing 
positive role models to Indian children.
    Finally, Tribal Colleges are accountable institutions, always 
striving to be more accountable to our fenders, our students, and our 
communities. Several years ago, AIHEC launched an ambitious and 
landmark effort called ``AIHEC AIMS,'' which is a comprehensive data 
collection system for TCUs, created by tribal college faculty and 
presidents, community members, funders, students, and accrediting 
agencies, aimed at improving our ability to measure and report our 
successes and challenges to our key stakeholders. Today, each Tribal 
College reports annually on a comprehensive set of 116 qualitative and 
quantitative indictors allowing us, for the first time, to share the 
true story of our success with funders, and most important, with our 
communities.
    Tribal Colleges have advanced American Indian higher education 
significantly since we first began four decades ago, but many 
challenges remain. Tribal Colleges are poor institutions. In fact, 
Tribal Colleges are the most poorly funded institutions of higher 
education in the country:

        (1)  First: Tribal Colleges are not state institutions, and 
        consequently, we receive little or no state funding. In fact, 
        very few states provide support for the non-Indian students 
        attending TCUs, which account for about 20 percent of all 
        Tribal College students. However, if these students attended a 
        state institution, the state would be required to provide the 
        institution with operational support for them. This is 
        something we are trying to rectify through education and public 
        policy change at the state and local level.

        (2)  Second: the tribal governments that have chartered Tribal 
        Colleges are not among the handful of wealthy gaming tribes 
        located near major urban areas. Rather, they are some of the 
        poorest governments in the nation. In fact, three of the ten 
        poorest counties in America are home to Tribal Colleges.

        (3)  Finally, the Federal Government, despite its trust 
        responsibility and treaty obligations, has never fully-funded 
        our primary institutional operations source, the Tribally 
        Controlled Colleges & Universities Act. Today, the Act is 
        appropriated at about $5,784 per full time Indian Student, 
        which is less than half the level that most states fund their 
        institutions.

    To continue to thrive and expand as community-based educational 
institutions, Tribal Colleges must stabilize, sustain, and increase our 
basic operational funding. Through tools such as AIHEC AIMS, we hope to 
better educate the public, lawmakers, and Federal officials about the 
cost-effective success of our institutions. Through opportunities such 
as this, we hope to share with the Congress and others how we are 
helping to meet the challenges facing our tribal nations.

TRIBAL COLLEGE STEM PROGRAMS: THE SIGNIFICANCE OF NSF-TCIIP

    Although Tribal Colleges and Universities have made unprecedented 
strides in addressing the higher education needs of American Indians, 
much work and many challenges remain.
    Of all groups in the U.S., American Indian students have the 
highest high school drop-out rates in the country. A 2010 report 
published by the Civil Rights Project/Proyecto Derechos Civiles at 
UCLA's Graduate School of Education and Information Studies revealed 
that less than 50 percent of all American Indian high school students 
actually graduate. If these students eventually pursue higher 
education, it is most often through the Tribal Colleges, which like 
other community colleges are open-admission institutions. In addition 
to offering a significant level of GED preparation and testing, Tribal 
Colleges face challenges with remediation and developmental education. 
On average, more than 75 percent of all TCU students must take at least 
one developmental course, most often pre-college mathematics. Of these 
students, our data indicates that many do not successfully complete the 
course in one year. Without question, a tremendous amount of TCU 
resources are spent addressing the failings of the K-12 education 
systems.
    For this reason, TCUs have developed strong partnerships with their 
K-12 feeder schools are actively working, often through their NSF-TCU 
programs, to engage young students--early on and consistently--in 
community and culturally relevant science and math programs.
    Because of the challenges TCUs face in engaging under-prepared 
students in STEM, improvement and innovation in science and mathematics 
education programs have been areas of great interest to most Tribal 
Colleges. However, the challenges to successful delivery of 
comprehensive STEM programs at the TCUs are also significant. Prior to 
NSF-TCUP, most Tribal Colleges were unable to secure the resources 
needed to build high quality STEM programs because we were not able to 
compete successfully in existing STEM programs sponsored by NSF and the 
U.S. Department of Education--most likely because we lacked the 
required Ph.D.-level principal investigators, could not demonstrate the 
``impact numbers'' because of our size and remote locations, or simply 
could not afford the professional grant writers available to the much 
larger and fully resourced mainstream institutions.
    Beginning in Fiscal Year 2001, NSF-TCUP changed this by making 
available essential capacity building assistance and resources to 
Tribal Colleges, either through direct funding or by leveraging funding 
from other sources. In fact, in less than ten years, NSF-TCUP has 
become the primary Federal program for building STEM capacity at the 
nation's Tribal Colleges and Universities. NSF-TCUP has served as a 
catalyst for capacity building and change at Tribal Colleges, and the 
program can be credited with many success stories, as detailed below. 
In fact, in terms of impacting enrolled members of federally recognized 
Indian tribes, the only data on the success of American Indians in 
higher education, and in STEM degree programs in particular, is 
collected by Tribal Colleges and Universities.
    In implementing NSF-TCU programs, Tribal College administrators 
have attempted to take a broad view and systemic approach to their STEM 
needs, maximizing the return on NSF's investment through leveraging 
support from foundations and other Federal programs. TCUs now have 
greater capacity to address the STEM education and research needs of 
the tribal communities they serve in holistic and culturally relevant 
ways, which have been shown to increase retention and completion. More 
American Indians are entering STEM education and more are entering STEM 
professions, as demonstrated by enrollment and completion increases of 
200 to 300 percent or more in some cases. STEM faculty are becoming 
more effective and engaged STEM instructors and researchers. Students 
are becoming more engaged, and with guidance from their faculty, they 
are becoming involved in cutting-edge and community-relevant research 
in significantly greater numbers. Classrooms and laboratories are 
better equipped. American Indians are more aware of the importance of 
STEM to their long-term survival, particularly in areas such as climate 
change. Partnerships between TCUs and major research institutions are 
emerging in areas of education and research, including pre-engineering.
    Examples of successful STEM programs at the Tribal Colleges, funded 
by the NSF-TCU program, include:

Sitting Bull College, Fort Yates, North Dakota

        <bullet>  Established BS programs in Environmental Science and 
        Secondary Science Education

        <bullet>  Enhanced student recruitment and retention efforts

        <bullet>  Created numerous student research opportunities

        <bullet>  Integrated traditional knowledge in STEM instruction

Outcomes

        <bullet>  20 student research projects presented at scientific 
        conferences; prior to NSF-TCUP funding, no presentations had 
        been given by students

        <bullet>  Dramatic increase in average STEM enrollment: tenfold 
        increase since 2004 (from 3 students to an average of 30 
        students)

Lac Courte Oreilles Ojibwa Community College, Hayward, Wisconsin

        <bullet>  Providing scholarships to STEM majors

        <bullet>  Improved access to STEM courses through alternative 
        teaching modalities (e.g. distance learning)

        <bullet>  Incorporated Ojibwa traditional ecological knowledge 
        into 41 courses to improve STEM literacy and establish cultural 
        connections with STEM disciplines

Outcomes

        <bullet>  Realized a significant improvement in student 
        retention (88% retention for scholarship recipients)

        <bullet>  380% increase in STEM courses offered online, 
        reflecting burgeoning demand on the part of students

Sisseton Wahpeton College, Agency Village (Sisseton), South Dakota

        <bullet>  Established a Computer Science and Technology degree 
        program

        <bullet>  A BS degree program in Information Technology is 
        being submitted for accreditation

        <bullet>  Partnering with area K-12s on a mathematics literacy 
        program

        <bullet>  Providing professional development opportunities for 
        STEM faculty and staff

Outcomes

        <bullet>  Establishing a local resource pool of trained 
        computing professionals where there had been none before

        <bullet>  Reducing number of high school graduates requiring 
        remedial math courses

        <bullet>  Providing a strong general science curriculum that is 
        preparing students to pursue STEM fields of study

Turtle Mountain Community College, Belcourt, North Dakota

        <bullet>  STEM enrichment programs offered at area K-12 schools

        <bullet>  Expanded STEM course offerings, supplemented with 
        computer aided instruction

        <bullet>  Developing an environmental science degree program

        <bullet>  Establishing research partnerships with four-year 
        institutions

Outcomes

        <bullet>  Traditional ecological knowledge-centered outreach 
        activities motivate area students to pursue STEM at TMCC

        <bullet>  300% increase in STEM graduates

        <bullet>  Significant increase in the percentage of STEM majors 
        at the college

College of the Menominee Nation, Keshena, Wisconsin

        <bullet>  Acquired/upgraded science and physics labs on main 
        and branch campuses

        <bullet>  Hired Ph.D. level SIEM faculty to develop and offer 
        new programs

        <bullet>  Established new Materials Science and Pre-Engineering 
        programs

        <bullet>  Established successful STEM Scholars and Leaders 
        student retention programs

Outcomes

        <bullet>  Menominee students have access to a variety of high 
        quality STEM programs with good career potential

        <bullet>  CMN is developing high quality research programs

        <bullet>  STEM programs are achieving high levels of student 
        retention and transfer

Fort Berthold Community College, New Town, North Dakota

        <bullet>  Establishing an Elementary Teacher Education Program 
        with an emphasis on Math and Science

        <bullet>  Working with area middle and high schools to improve 
        student enrollment in STEM courses

        <bullet>  Encouraging student transfer to Baccalaureate 
        programs in STEM

        <bullet>  Established student research program

Outcomes

        <bullet>  Improved preparation of incoming freshmen in SIEM

        <bullet>  Significantly increased number of students majoring 
        in STEM and continuing on to four-year institutions to pursue 
        BS and advanced degrees

Oglala Lakota College, Kyle, South Dakota

        <bullet>  Established high quality online STEM courses

        <bullet>  Acquired state of the art science labs

        <bullet>  Providing K-12 STEM teacher professional development

        <bullet>  Established research collaborations with South Dakota 
        universities

Outcomes

        <bullet>  Established a tribal STEM workforce in environmental 
        science with graduates working in tribal agencies responsible 
        for land and resource management, water quality, among others

        <bullet>  Improved quality of STEM instruction in area K-12 
        schools

        <bullet>  Conducted locally relevant environmental research

    Despite the success of the NSF-TCU program and its demonstrated 
impact on American Indian STEM participation, we believe that the 
program must have increased support from the Administration and the 
Congress. We need such a commitment as we work to address the growing 
technology, science, and math crises facing our communities. The need 
for increased funding for the NSF-TCU program is well documented. In 
fact, between 2001 and 2007, NSF-TCUP funding was essentially static, 
as it has been again since 2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Further, since 2004, the percentage of proposals funded has 
declined each year, reaching an all-time low in 2009.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2009, less than 30 percent of all proposals were funded, out of 
a pool that includes only 33 eligible Tribal Colleges and Universities.
    Clearly, the need for STEM-related funding at TCUs is not being 
fully addressed by available funding.

SYSTEMIC CHALLENGES TO BROADENING PARTICIPATION

    We believe that the National Science Foundation and NSF-TCUP, in 
particular, could serve as a model for how Federal agencies could 
support strategies to alleviate institutional and cultural barriers to 
broadening participation of students pursuing science, technology, 
engineering, and mathematics (STEM) degrees and professions. However, 
outside of the NSF-TCU program, significant barriers to participation 
still exist and NSF's ``broadening participation'' effort has not been 
entirely successful. In fact, in some cases, it has had the effect of 
doing harm to Tribal Colleges and adversely impacting American Indian 
STEM education, as mainstream institutions seek to improve their 
chances to be competitive in grant competitions.
    Throughout our history, states and mainstream institutions have 
taken advantage of Tribal Colleges and our students, adding us to their 
grant proposals and including our students in their statistical 
reports, without ever speaking to us or even notifying us that we are 
being used help them secure funding. Needless to say, we rarely receive 
any funding, technical assistance, or outreach when these proposals are 
successfully reviewed and awarded, and traditionally, we had no way of 
knowing how NSF or the awardee dealt with the lack of TCU inclusion 
after the award was made.
    Over the past several years, as NSF's broadening participation 
requirement has grown in importance, the number of proposals from 
mainstream institutions seeking to include Tribal Colleges--without our 
knowledge or only after the proposal is completely developed--has 
increased dramatically. In fact, the situation became so frustrating 
that in early 2008, the AIHEC Board of Directors, on which the 
presidents of all accredited TCUs sit, approved a motion urging Federal 
agencies to adopt a policy that that any proposal for Federal funds, 
which directly or indirectly names Tribal College(s) or AIHEC in the 
proposal, but is not submitted by a Tribal College or University or 
AIHEC, must include documentation confirming that Tribal College 
administration or AIHEC, as relevant, is fully informed of and supports 
the college's role in the proposed project. The goal of this motion is 
to ensure that fewer proposals are funded that include TCUs without our 
knowledge or agreement and therefore fail to address the TCU priorities 
in a manner that is likely to prove successful, or whose project budget 
fails to include the resources necessary for the TCU to accomplish 
stated goals.
    I am pleased to report that in the last year or two, we have 
noticed an increasing awareness among NSF program officers about the 
need for Tribal Colleges to be truly engaged as partners in proposal 
preparation and program implementation. We can cite specific examples, 
including one situation this year, in which a proposal was submitted by 
a researcher at a mainstream institution to provide STEM faculty and 
student development involving Tribal Colleges, but without any 
indication of input from the TCUs and certainly without any expressions 
of support. The researcher contacted AIHEC only after the NSF program 
officer specifically told the researcher to reach out to TCUs. Clearly, 
NSF's internalization of its broadening participation commitment has 
led to an increased awareness by program officers, and we believe this 
was a key factor in the program officer's directive to reach out to the 
TCUs.

Other Current Realities.
    According to faculty and administrators at the Tribal Colleges, TCU 
faculty simply are not competitive in NSF-sponsored grant competitions, 
when compared to research faculty at major universities. Heavy teaching 
loads, responsibilities to other institutional programs, and 
obligations to participate in community activities severely limit the 
time TCU faculty have to write proposals, conduct research, and develop 
manuscripts for publication. Further, the institutions themselves lack 
the funding needed to hire experienced researchers and adequate support 
staff, including grant writers and assessment professionals. (See 
``Background'' above on funding levels.) One TCU faculty member 
testifying before the NSF's Committee on Equal Opportunities in Science 
and Engineering stated that her institution had applied for an NSF 
grant outside of the NSF-TCU program on three occasions, at the 
recommendation of the NSF program officer. However, the project was not 
funded, despite high peer review scores and a demonstrated need, 
because the TCU lacked an adequate Ph.D.-level faculty member to serve 
as principal investigator in the Native science research.
    Another problem facing TCUs is the size and remoteness of our rural 
institutions. These factors are often viewed negatively when panelists 
review TCU grant proposals and when we begin potential partnership 
negotiations with faculty members from larger universities. ``How many 
students are they going to be able to affect?'' is a common question, 
one TCU faculty reports. His response to this question is, ``How many 
Native American students are in your science programs?'' The answer is 
typically 1-3 students, based on self-reporting. The faculty member's 
institution, Sitting Bull College in Fort Yates, North Dakota, enrolls 
nearly 30 American Indian students in the Environmental Science program 
alone. Without NSF-TCUP, these students would not have been reached.
    We are often told that TCU proposals are eliminated from 
competition by panelists and program officers who do not understand the 
unique situations of Tribal Colleges and our students. We are trying to 
build a community, not just a single program. Many of our efforts focus 
on developing basic math, science, and writing skills, along with 
showing students that opportunities they never dreamed of are possible, 
but only to the extent that we can be successful in securing funding.

RECOMMENDATIONS

RECOMMENDATION ONE: Maintain and increase targeted funding for Tribal 
                    College and University STEM Infrastructure, 
                    Education, and Research Programs.

    Given NSF's proposal in the Fiscal Year 2011 budget to eliminate 
the TCU program and instead offer one program for several different 
types of minority-serving institutions, our first recommendation is to 
maintain this vitally needed program, and to the extent possible, 
provide increased funds to ensure equitable participation by all TCUs. 
We believe it is important to note that NSF's decision was made without 
publically providing any research or analysis in support of the 
proposal and without discussion or, in the case of tribally-charted 
institutions of higher education, without consultation.
    We urge the Federal Government, led by the National Science 
Foundation, to show an authentic commitment to broadening participation 
in STEM by honoring this nation's commitment to build the 
infrastructure of all segments of the U.S. academic and research 
community. In our view, this is the only way to guarantee that ALL 
Americans, including the First Americans, can fully and actively 
participate in the effort to achieve our collective STEM education and 
research goals. Given the unique needs of Tribal Colleges and 
Universities, the government-to-government relationship between 
federally recognized Indian tribes and the Federal Government, the 
Federal Trust Responsibility, and the programs' demonstrated success 
and need, we believe that it is imperative to maintain and expand 
funding for the NSF-TCUP.
    Historical Justification. In the early 1980s, just as Little Big 
Horn College was establishing itself in two old trailers and a barn, 
the National Science Foundation established the national supercomputing 
centers program because ``American researchers were at a serious 
disadvantage for gaining access to leading-edge high performance 
computers when compared to colleagues from other countries or to 
[researchers in key Federal agencies.] NSF leadership recognized that 
the lack of a suitable infrastructure was hampering important basic 
research . . ..''
    Congress infused NSF with resources, which funded the national 
centers, along with roughly 80 institutions of higher education. The 
foundation for today's technology infrastructure was in place at key 
institutions of higher education, and academia was on its way to cyber-
enhanced research and education.
    But that world did not reach Crow Agency, Montana or Rosebud, South 
Dakota. Not one Tribal College was funded during those early days, nor 
for many subsequent years. No one from the tribal college community 
even participated in the discussions and debate in 1984, or later in 
1994 when the program was up for reconsideration. And so, where are the 
Tribal Colleges today, vis-a-vis mainstream institutions and many 
Historically Black Colleges and Universities and hundreds of Hispanic 
Serving Institutions (and even the state-supported Native Hawaiian and 
Alaska-Native serving institutions)? Today, our institutions are where 
these groups were in their early developmental days, before the 
infusions of Federal funding. How do our institutions get to where 
other institutions are today, so that we can begin to compete on an 
even playing field? The same way the other institutions did: through 
support and collaboration with Federal agencies, led by the National 
Science Foundation, and through collaborations with other institutions 
of higher education around this country and the world.
    Tribal Colleges, no less than any other institution, deserve the 
opportunity to grow. We should, and must, be part of the future of 
technology-mediated STEM education and research in this country and the 
world. And if inclusion means that funding must be dedicated to help 
the Tribal Colleges and other minority serving institutions build their 
infrastructures, then it must be done, just as it was in the past for 
others. They demanded no less. Why should we?
    If this is not done, TCUs will continue to be missing from the list 
of institutions participating broadly in NSF programs. ``Broader 
participation'' will apply to all but reservation-based American 
Indians and their tribally-chartered institutions of higher education. 
We know that this will be the case because today, most if not all, TCUs 
are unable to successfully compete in NSF programs beyond TCUP, 
primarily because of a lack of understanding and serious consideration 
by program officers and peer reviewers, as described above.

RECOMMENDATION TWO: Length and Focus of NSF-TCUP Awards

    Given the limited pool of TCU applicants (33 accredited TCUs) and 
the need to build--often from the ground up--and sustain S I EM 
programs for a length of time deemed sufficient to achieve improvement 
at all levels, NSF should be directed to:

        1.  Make grants under the NSF-TCU program for a period of ten 
        years, or alternatively, five years, with ongoing support for 
        an additional five years (without the need to re-enter a 
        program competition), provided the programs meet appropriate 
        NSF criteria for satisfactory progress; and

        2.  Refrain from expanding or prioritizing purposes within the 
        NSF-TCU program in new areas (e.g. K-12 teacher education, 
        which previously had been supported by NSF under the Urban and 
        Rural Systemic Initiatives) until sufficient funding exists to 
        meet the basic STEM needs of TCUs and reliable data 
        demonstrates a significant improvement in basic STEM education 
        participation and completion rates across TCUs.

    We recognize that a need exists to address STEM education at all 
levels. However, funding is severely limited under the NSF-TCU 
program--it has not grown significantly over the years. Therefore, 
should NSF personnel believe that additional areas need to be addressed 
or additional programs established, beyond those proposed by TCUs under 
the general NSF-TCU program, new funding should be requested or 
designated, rather than reprogramming funds appropriated for vital 
basic STEM education and research programs. This is particularly 
important when the new funding priorities established under programs 
such as NSF-TCUP would replace programs eliminated elsewhere within 
NSF.
    Under the existing NSF-TCUP, funding should be permitted to address 
critical areas of need, including:

        <bullet>  Research and development of culturally relevant STEM 
        curriculum, for all grade levels, including in Native 
        languages;

        <bullet>  STEM outreach and partnerships among TCUs and K-12 
        feeder schools and 13-16 programs/institutions to ensure 
        seamless pathways into STEM professions

        <bullet>  Best practices in addressing gateway and bottleneck 
        courses that are necessary for students pursuing STEM degrees 
        and professions

        <bullet>  Innovative and collaborative curriculum development

        <bullet>  Comprehensive student support services

        <bullet>  Faculty development and support

        <bullet>  Acquisition of laboratory equipment/instrumentation

        <bullet>  Acquisition and application of emerging technologies

        <bullet>  Expansion of undergraduate research capacity and 
        opportunities

        <bullet>  Partnerships with other institutions of higher 
        education, including mainstream and MSIs, for research and 
        technology assistance (possibly using the AN-MST model, which 
        was a project funded by NSF to EDUCAUSE, involving the three 
        primary MSI communities)

        <bullet>  Increased technical assistance and project management 
        assistance for awardees, as explained above.

RECOMMENDATION THREE: Take steps to ensure that proposals and programs 
                    impacting Tribal Colleges and their students 
                    include adequate consultation and partnerships

    We request assistance in enforcing and measuring compliance with a 
requirement that any collaborative proposal involving TCUs in which a 
non-TCU is the lead institution must include, among the supporting 
documents, letters of support and commitment from the TCU signed by an 
authorized representative of the institution or the American Indian 
Higher Education Consortium. (For more information, please see 
Attachment A).

RECOMMENDATION FOUR: Consider re-invigorating the NSF's ``Rural 
                    Systemic-Tribal College Initiative'' or 
                    establishing a new grant program to increase 
                    partnership opportunities between TCUs and 5-12 
                    schools and programs

    In the 1990s, through the National Science Foundation's Tribal 
College Rural Systemic Initiative (TCRSI), 20 TCUs partnered with their 
local school districts to achieve successful and sustainable 
improvement of STEM programs at the K-14 level. Founded on the 
assertion that all students can learn and should be given the 
opportunity to reach their full potential, Tribal Colleges led the 
effort to achieve ``whole system change.'' Parents, tribal governments, 
schools and the private sector are working with the colleges to:

        <bullet>  Implement math and science standards-based curriculum 
        for all students;

        <bullet>  Implement math and science standards-based assessment 
        for all schools;

        <bullet>  Implement math and science standards-based 
        professional development for teachers, administrators, and 
        community leaders; and

        <bullet>  Integrate local Native culture into math and science 
        standards-based curriculum.

    The close working relationship between the TCUs and K-12 schools 
was paying off, according to the National Science Foundation, which 
reported that successful systemic reform had resulted in:

        <bullet>  Clear evidence that the program is significantly 
        enhancing student achievement and participation in science and 
        math;

        <bullet>  Significant reductions in the achievement disparities 
        among students that can be attributed to socioeconomic status, 
        race, ethnicity, gender, or learning styles;

        <bullet>  Implementation of a comprehensive, standards-based 
        curriculum aligned with instruction and assessment, available 
        to every student served by the system and its partners.

        <bullet>  Convergence of all resources that are designed for or 
        that reasonably could be used to support science and math 
        education--fiscal, intellectual, and material--both in formal 
        and informal education settings--into a focused program that 
        upgrades and continually improves the math and science program 
        for all students.

        <bullet>  Broad-based support from parents, policy makers, 
        institutions of higher education, business and industry, 
        foundations, and other segments of the community for the goals 
        and collective value of the initiative.

    Despite its demonstrated success, the program was terminated some 
years ago. This is the type of program that should be reinvigorated and 
strongly supported by the Congress and NSF.

RECOMMENDATION FIVE: Expand EPSCoR inclusion and encourage NSF to use a 
                    centralized approach to learn about the capacity 
                    and needs of Tribal Colleges & Universities

    Over the past few years and as a result of changes in law and 
policy, senior level NSF administrators have begun developing 
strategies to better serve TCUs and American Indians. For example, in 
FY 2010, the NSF's Engineering Directorate committed funds to TCUP to 
support pre-engineering activities at TCUs. Following long-needed 
changes in program requirements, EPSCoR programs are finally beginning 
to include TCUs in state-based programs in more meaningful ways. 
Although several EPSCoR states are home to TCUs, North Dakota and New 
Mexico have taken notable steps to include TCUs. For the past few 
years, the North Dakota EPSCoR program has allocated funding to support 
a statewide Tribal College liaison, although the liaison is housed at 
the state university rather than a TCU, and it is providing relatively 
limited program funding to support EPSCoR activities at TCUs in the 
state. Recently, we have been told that NSF's Biology Directorate has 
been developing strategies to outreach to the TCUs. While we are 
encouraged by this effort, we respectfully suggest that the National 
Science Foundation could be more effective if it would work through our 
central organization, AIHEC, to discuss our needs and capacities and 
develop realistic outreach strategies. Approaching TCUs through a 
centralized source and capitalizing on the expertise of our Board's 
STEM Committee is a cost effective strategy for engaging our 
institutions.
    A centralized model could also be used to coordinate a program 
whereby NSF would take the lead in developing and implementing a cross-
cutting Federal initiative in which Federal agency officials and 
program officers spent a summer (or equivalent time period) in Indian 
Country and serve as mentors to STEM programs at TCUs and Indian-
serving K-12 schools.

RECOMMENDATION SIX: Encourage coordination and leveraging of various 
                    NSF programs to help build TCU capacity

    We believe that NSF should launch a coordinated effort to empower 
and encourage TCUs to link programs and opportunities to better meet 
the needs of American Indian students. For example, NSF-TCU programs 
could be more effectively linked with EPSCoR, as discussed above, as 
well as the Louis Stokes Alliance for Minority Participation and other 
existing NSF-supported programs across Directorates. Further, the 
National Science Foundation could establish faculty exchange programs, 
among Minority Serving Institutions, as well as with faculty at 
mainstream institutions and national research laboratories.

RECOMMENDATION SEVEN: Technical Assistance for and about TCUs and new 
                    research involving the challenges confronting 
                    efforts to broaden participation among American 
                    Indians

    Based on a motion of the AIHEC Board of Directors, which comprises 
the presidents of all the nation's accredited TCUs, we recommend that 
any grants or contracts for technical assistance under the NSF-TCU 
program should be awarded to an Indian organization, which the NSF 
Director finds is nationally based, represents a substantial American 
Indian constituency, and has demonstrated expertise in Tribal Colleges 
and Universities and American Indian higher education. This will help 
ensure that the unique needs of TCU students, faculties, and 
institutions are addressed effectively and efficiently in a context 
that optimizes TCU-focused capacity building. We urge that technical 
assistance be provided to the TCUs so that we are more competitive in 
grant competitions, and that technical assistance be provided to NSF 
and other Federal science agencies to ensure that they understand and 
are responsive to the unique needs and characteristics of Tribal 
Colleges and Universities and American Indian students.
    We also recommend that the National Science Foundation fund 
research examining the challenges to STEM engagement that American 
Indians face to STEM engagement, including a study to evaluate the 
capacity of the TCUs' physical infrastructure to support high quality 
STEM programs, research on underlying risk factors, and sociological 
studies designed to better understand the social dynamics impacting 
STEM education in Indian Country, and dissemination of best practices 
and model programs.

RECOMMENDATION EIGHT: Blue Ribbon Panel on MSIs and Cyberinfrastructure

    We believe it would be productive for the Congress to direct the 
National Academy of Sciences or the National Science Foundation to 
establish a ``Blue Ribbon Panel on Minority Serving Institutions and 
Cyberinfrastructure,'' with the goal of producing a report and action 
plan for ensuring the active inclusion of minority serving institutions 
(MSIs, including TCUs, Hispanic-serving Institutions, and Historically 
Black Colleges and Universities) in Cyberinfrastructure development, 
research, and education programs. In addition, we recommend that 
Congress encourage or mandate each Directorate within the National 
Science Foundation to study and report on its efforts to engage 
American Indians in its programs.
    We are grateful, Mr. Chairman, for this opportunity to share our 
story, our successes, and our needs with you today. We look forward to 
working with you to achieve broader participation in STEM degree 
programs and to achieve our nation's post-secondary education and STEM 
workforce goals. Thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for David Yarlott
    David E. Yarlott, Jr. is a member of the Crow Tribe of Indians. He 
is a member of the Greasy Mouth Clan and also a child of the Greasy 
Mouth Clan. He also is a member of the Nighthawk Society. Dr. Yarlott's 
education began in the local Crow Indian Reservation primary schools 
and high school in Hardin, MT. He attended Little Big Horn College for 
several years before transferring to Montana State University-Bozeman, 
where he obtained his bachelor's and master's degrees in business and 
an Ed.D. in Adult, Community, and Higher Education. He earned an A.A. 
in Business Administration from Little Big Horn College. He obtained a 
U.S. patent on an invention, a tool used in suppressing grass fires.
    Prior to becoming president, Dr. Yarlott served Little Big Horn 
College as Dean of Academic Affairs, Department Head of Business, 
Faculty Council President, Student/Faculty Representative to Board of 
Trustees, Faculty (business courses), advisor (American Indian Business 
Leaders, Student Bookstore, coordinator for the Johnson 
Entrepreneurship Grant, consultant (natural resources curriculum. For 
the Crow Tribe of Indians, he acted as liaison for Crow Tribal 
Forestry, director of Apsaalooke Nation Hotshot Crew (Developed), 
consultant for Economic Development and Planning, and president of the 
Montana Indian Fire Fighters Steering Committees. Dr. Yarlott work for 
the U.S. Forestry Service in the Gallatin National Forest for seven 
years and with the Bureau of Indian Affairs in forestry for 13 years. 
For ten years he worked the family farm.
    President Yarlott is a member of the American Indian College Fund 
Board (AICF) (past chair), National Business Education Association 
(NBEA), American Indian Higher Education Consortium (MEG) (current 
chair), National Indian Education Association (NIEA), Crow Economic 
Development Association, Hazardous Substance Research Centers, Montana 
State ``Shared Leadership Committee,' NASULGC, USDAIAIHEC Leadership 
Group, and Montana Correctional Enterprise (appointed by governor).
    He has received many honors, including TRiO Achiever Award 
(Regional)--ASPIRE; Award of Excellence--Montana State University-
Billings; ``Pathmakers''--one of five selected as outstanding Crow 
Members making a difference for the Crow People--LBHC; Achievement 
Award--Crow Nation; Accomplishment Award (Developing a Physical Fitness 
Program and establishing a Fire Engine Training Program)--USFS; Scott 
Hanson Memorial Award (For initiative, caring & leadership)--USFS; 
Business Scholarship (Graduate)--National Center (Mesa, AZ); 
Certificates of Appreciation for Outstanding Performances (three 
Years)--USFS; Phyllis Berger Memorial Scholarship--Montana State 
University; Outstanding Senior Native American Student--Montana State 
University; Grace Rosness Memorial Scholarship--Montana State 
University; and Harriet Cushman Memorial Scholarship (three Years)--
Montana State University.

    Chairman Lipinski. Thank you, Dr. Yarlott.
    Ms. Craft.

    STATEMENT OF MS. ELAINE L. CRAFT, DIRECTOR OF THE SOUTH 
  CAROLINA ADVANCED TECHNOLOGICAL EDUCATION NATIONAL RESOURCE 
         CENTER, FLORENCE DARLINGTON TECHNICAL COLLEGE

    Ms. Craft. Chairman Lipinski, Ranking Member Ehlers, 
distinguished members of the Subcommittee, good morning. I am 
pleased to be with you today to provide a community college 
perspective on broadening participation in STEM. I have seen 
firsthand that when we are successful, business thrives, lives 
are changed for the better and personal financial success 
impacts entire families and the national economy.
    Today I will share information about the two-year technical 
and community college environment in which I work, results from 
National Science Foundation funding that has broadened 
participation in STEM, changed lives for the better and 
supported economic development. I will also suggest a place in 
the academic pipeline that I believe is in need of major 
improvement if we are to hope to further broaden participation 
in STEM.
    Community and technical colleges enroll more than 11 
million students. We educate the most diverse students in 
higher education. We are the primary educators of highly 
skilled STEM technicians. These technicians are the Nation's 
first line STEM practitioners. They are critical to global 
competitiveness. Our country needs more technicians than it 
does scientists or engineers. The ratio generally ranges from 
three technicians to one scientist or engineer to sometimes as 
many as 12 to 15 technicians to one scientist or engineer. In 
this particular photo, you see Dr. Moira Gunn, host of the 
radio programs Tech Nation and Biotech Nation aired by National 
Public Radio with Willard Cooper. Willie is an engineering 
technology graduate of Florence Darlington Technical College 
[FDTC]. He now has a career as an engineering technician with 
ESAB Cutting and Welding in Florence, South Carolina. He was on 
the program with Dr. Gunn at an NSF Advanced Technological 
Education, or ATE, conference in Washington 18 months ago. 
Willie is married. He has four daughters. He is in the South 
Carolina National Guard. He was deployed to Iraq while he was 
in the engineering technology program. He returned to the 
program, graduated and now he has been tapped for officer 
candidate school in the National Guard and he has been deployed 
again, this time to Afghanistan.
    Grant funding from the National Science Foundation has 
enabled us to prepare faculty to teach more effective ways 
using industry-type problems and teamwork. In this picture, you 
see technology gateway class of students who had to learn to 
use math, physics, technology and communications effectively to 
solve a problem and to build this model of their solution for a 
class presentation.
    STEM programs at our institution support economic 
development. Graduates are ready for both the workplace and 
college transfer. Diversity in programs is improved with the 
NSF-funded initiatives. This photo is of Shelton Fort. He is a 
civil engineering technology student at Florence Darlington 
Tech. He has now graduated. He was working for an architect and 
he was designing the steeple on the church. You may able to see 
it on his computer monitor. He was justifiably proud of his 
work, but the big smile you see on his face is because he had 
just gotten engaged that day.
    In addition to increased diversity, graduation rates soared 
with our NSF initiatives. Gains were attributed to placing an 
emphasis on retaining STEM students at the beginning of 
programs, where most dropouts occur. The graduation rates 
improved from 15 percent to 40 percent after we changed the way 
we taught the first year of our engineering technology courses. 
In this picture, you see Nateesa Clester Oliver. She completed 
a civil engineering technology degree at Florence Darlington 
Technical College. Her bachelor of science degree is in 
engineering technology at Francis Marion University. She is 
currently enrolled in a graduate program in project management 
at Brenau in Georgia.
    African American success rates in engineering technology 
[ET] increased from 15 to 39 percent with our programs. The 
gains resulted from improving teaching methodologies that 
specifically addressed learning styles. Through teamwork and 
class and special activities for female ET students, 
underrepresented students experienced a sense of belonging. 
Meet Takeesha Boatwright. She completed a degree in computer 
science at Florence Darlington Tech and is currently completing 
her bachelor's degree in computer science at Coastal Carolina 
University.
    Industry-sponsored student internships have been a big part 
of our program. Full-time enrollment and on-time graduation can 
be rare for community and technical college students who must 
work while attending college, and both are major retention 
factors. Industry-paid internships encourage full-time 
enrollment. Internships also augment learning. Broad economic 
benefit results when students transition from minimum-wage to 
high-wage employment. These students were working 40 hours a 
week making minimum wage. When they started their industry 
internships, they could cut back to 20 hours a week with the 
new high wages they were making. In this picture you see Shawn 
Jackson and Brad Tindell working at Honda of South Carolina 
where they make all-terrain vehicles and personal watercraft.
    Scholarships promote on-time graduation, high grades and 
improved retention. We were able to reduce the time to 
graduation for our engineering technology students from 3.8 
years to 2.2 years through a combined change in the way we 
taught our program and the scholarship support that allowed the 
students to be full time. The National Science Foundation 
supports our Tech Star scholarships through the S-STEM program 
[Scholarships in Science Technology, Engineers and Math]. To 
date, this program has a 95 percent graduation rate.
    The story doesn't stop here. At FDTC, successful strategies 
and educational materials developed with NSF funding are now 
being used in 25 states and the District of Columbia. The ATE 
program, scholarships, and STEM programs at NSF have helped 
make this possible. In this particular slide, you will see some 
students at White County High School in Cleveland, Georgia. 
Through our partnership with the National Dropout Prevention 
Center at Clemson University, we are now looking at our 
teaching and learning strategies as dropout prevention 
strategies for high schools. The students you see in the 
picture were on the verge of dropping out of high school. They 
had already failed the science portion of the Georgia exit exam 
once and were not attending school regularly. We provided them 
with STEM-based hands-on projects that answer a question ``why 
am I learning this'' every day. They have had five cohorts in 
the program now. The success rate on the same exit exam in 
Georgia was 85 percent for the first cohort. They got 100 
percent in the fall of 2009 with the fifth cohort.
    Significant challenges remain in broadening participation. 
The two girls you see in this photograph attended our college's 
summer technology camp. What will happen to them? Will they be 
underprepared students? Will they struggle with success in STEM 
when they reach college? According to the ACT, in 2009 only 23 
percent of our students graduating from high school that were 
tested were college ready. If they are underprepared, will they 
be disappointed to find that in our remedial programs that they 
are required to participate in, that that there is no relevant 
STEM in those courses?
    Underrepresented students face non-academic and academic 
hurdles. First-generation students, when they attend college, 
may not understand that textbooks are no longer distributed by 
the district but have to be purchased and at high prices. They 
may not understand that there is no cafeteria that provides 
free or reduced-price lunches. They are on their own now, also, 
for transportation. And they haven't learned the habits of 
success. They didn't take rigorous high school science and math 
and they haven't been prepped to do well on placement tests 
when they come to the college as more advantaged students have 
been. The bottom line is, is that we are losing many potential 
STEM students after they enter college but before they actually 
begin their degree programs. Lengthy remediation that is not 
related to their major discourages program completion. This 
particular photo is a Hispanic engineering technology student 
named Dennis Olivares. His brother John is now a student in our 
program and is one of our Tech Star scholars.
    The STE of STEM, science, technology and engineering, is 
needed much earlier in the college experience. Current practice 
in remediation omits these three important subjects.
    Engineering technology students Patrick Cannon and Blake 
Wallace are working on a robot in class. Students not yet ready 
to enter the curriculum could benefit from similar experiences. 
The major challenge in broadening participation in STEM may be 
that underrepresented populations in STEM are most likely to 
also be underprepared for success in STEM. Community and 
technology colleges lack the needed resources and incentive to 
reform and ramp up these STEM programs. Science, technology and 
engineering faculty need to be involved and they are already a 
scarce resource in our institutions. Research-based teaching 
methodologies work. We have plenty of research that shows that. 
But faculty struggle to use teaching methodologies that were 
not the way they were taught. Faculty development is needed.
    As outcomes from our NSF funding show, changes can be 
stimulated with targeted funding initiatives. The NSF ATE 
program has been a phenomenal catalyst for improvement in 
technician education nationally and should be used as a model 
for improving and infusing the science, technology and 
engineering into courses that address the needs of 
underprepared students. Done well, this could significantly 
broaden participation in STEM, perhaps more than any other 
single improvement in higher education.
    Chairman Lipinski. Ms. Craft, if you can wrap up?
    Ms. Craft. STEM success stories include the ones like the 
gal in the middle of this picture, Pamela Sansbury. Pamela was 
saved early. She came to the college, wanted to do cosmetology, 
said she wanted to do hair. We discovered she had math ability 
and directed her to engineering technology instead. Today, she 
is a national trainer for robotics manufacturer ABB, very 
successful, looking after her three daughters.
    Thank you.
    [The prepared statement of Ms. Craft follows:]
                 Prepared Statement of Elaine L. Craft

Introduction

    Chairman Lipinski, Ranking Member Ehlers, and distinguished members 
of the Subcommittee, I appreciate having this opportunity to testify 
about broadening participation in STEM--science, technology, 
engineering and mathematics. My name is Elaine Craft, and I am an 
employee of Florence-Darlington Technical College located in Florence, 
South Carolina. I am a chemical engineer, and I have worked in industry 
and. for many years in STEM education in technical and community 
colleges, first as a teacher and administrator and more recently as 
Principal Investigator and Director of a National Science Foundation-
funded Advanced Technological Education (ATE) Center dedicated to 
increasing the quantity, quality, and diversity of highly skilled 
engineering technicians to support our nation's economy.
    The term ``technician'' is not always understood. The technicians 
that I will be referring to are the same ones that are the focus of the 
National Science Foundation Advanced Technological Education program, 
known as the A-T-E program. These technicians require rigorous college-
level academic preparation in STEM that is far more than a high school 
education but generally less than a four-year degree. Technician 
education programs are often associate degree granting programs. 
Industry-recognized certifications may be included. It is not uncommon 
for a scientist to design an experiment, and then for one or more 
technicians to perform the laboratory work to conduct the experiment; 
similarly, an engineer's design is likely to be installed, tested, 
maintained, and repaired by an engineering technician. Most employers 
require more technicians than scientists or engineers. The most 
successful companies recognize that the quality of this component of 
their workforce gives them a competitive edge in the global economy. 
Early in my career, I worked in a research facility for the Monsanto 
Chemical Company. I had a team of six engineering technicians assigned 
to me who implemented my designs and kept my pilot plant and testing 
operations functional. I experienced first-hand the absolutely critical 
role of technicians in research, manufacturing, and all engineering 
endeavors.
    Technicians are hands-on, STEM practitioners that shoulder the 
responsibility for making most of our science, technology, mathematics, 
and engineering applications work. The preparation of these highly 
skilled technicians is an important part of the academic mission of the 
nation's two-year technical and community colleges. The demand for 
technologically sophisticated technicians is growing steadily in 
response to ``baby boomer'' retirements and advances in science and 
technology. Even in the current difficult economic environment, 
graduates of up-to-date technician education programs at two-year 
technical and community colleges are in high demand, and the jobs pay 
well. Students completing these programs have the option of entering 
the workforce immediately, or they may transfer to senior institutions 
to complete baccalaureate or higher degrees in STEM disciplines.
    Today you are addressing the topic of broadening participation in 
STEM. A powerful way to do this is to attract and retain diverse 
students in STEM-focused programs at the community college level. 
Technical and community colleges enroll more than 11.6 M students and 
provide accessible higher education in every congressional district, 
whether rural, suburban, or urban. Since community colleges also enroll 
a higher percentage of minority students than any other sector of 
higher education, maximizing student recruitment and the effectiveness 
of STEM-based programs in these institutions provides a great 
opportunity and a very fertile environment for broadening participation 
in STEM.
    My remarks today will demonstrate how National Science Foundation 
grant funding to Florence-Darlington Technical College is already 
contributing to the goal of broadening participation in Sl'IM, but 
there is still more work to be done. First, let me tell you about the 
college.

Florence-Darlington Technical College (description and demographics)

    Florence-Darlington Technical College is one of 16 two-year 
colleges making up the South Carolina Technical College System. The 
South Carolina Technical College System functions as the state's 
community college system, but it was founded with an economic 
development mission. Florence-Darlington Technical College is located 
near the intersection of Interstate Highways 95 and 20, half-way 
between Maine and Miami, in the northeastern quadrant of the state. 
This year, the college has an enrollment of more than 5,200 students in 
its academic programs and thousands more in non-credit continuing 
education courses. According to the American Association of Community 
Colleges, approximately two-thirds of the nation's community colleges 
are the size of Florence-Darlington Technical College or smaller.
    Florence-Darlington Technical College offers the following non-
medical, Associate Degree STEM programs of study:

        <bullet>  Associate of Science

        <bullet>  Associate Degree, Engineering Technology

                  Civil Engineering Technology

                        `  Civil Engineering Technology Concentration

                        `  Graphics Technology Concentration

                  Electronics Engineering Technology

                  Electro-mechanical Engineering Technology

        <bullet>  Associate Degree, Automotive Technology

        <bullet>  Associate Degree, Machine Tool Technology

        <bullet>  Associate Degree, Heating, Ventilation, and Air 
        Conditioning; and,

        <bullet>  Associate Degree, Telecommunications Systems 
        Management (computer science)

    The college also offers an extensive selection of Allied Health 
programs, such as nursing and dental hygiene.
    The Florence-Darlington Technical College service area population 
is approximately 45% minority, and the college student population is 
approximately 50% minority. In comparison, the college faculty 
population is 23% minority. Demographics of the students enrolled in 
medical STEM programs are predominantly female (92%) but racially 
diverse (32% minority). Enrollments in non-medical STEM programs 
demonstrate the progress that is being made at the college in 
addressing the challenge being addressed by this Congressional 
Subcommittee, with enrollment in these programs that is now 27% female 
and 40% minority.

Effective Institutional Policies, Programs, and Activities

    Florence-Darlington Technical College has policies, programs, and 
activities designed to increase diversity and broaden participation in 
all aspects of the college. Dr. Charles W. Gould, president, has led by 
example and created a culture of inclusiveness at every level of 
college operations. In recent years, the college has increased its 
internal research capacity and now has the necessary data to identify 
and address specific challenges students face from the time they enter 
the college through graduation. For example, a recent study pointed out 
an alarming achievement gap between African American and other students 
in entry-level science courses. Additional research is being conducted 
to understand why these students are struggling and guide faculty and 
administrators in designing interventions to address the underlying 
causes for the difference in success rates. Already, it is clear that 
differences in prerequisite STEM skills and knowledge are a major 
factor. My recommendation is for this subcommittee to address this 
issue in strengthening the STEM educational pipeline.
    Much of the progress made in broadening participation in S1 EM at 
Florence-Darlington Technical College has resulted from targeted STEM 
initiatives that have been made possible by the National Science 
Foundation A1E program. With NSF funding, research-based innovations 
have been implemented with excellent results. In mid-1990, state-wide 
data for South Carolina's technical colleges indicated that only 12% of 
students entering engineering technology programs graduated, and 85% of 
those who graduated were white males. Additional research showed that 
the drop-out rate for engineering technology students is highest in the 
first year of study, which is made up primarily of core STEM subjects 
such as mathematics and physics. To increase student success rates in 
engineering technology programs and to broaden participation, a new, 
first-year curriculum was developed to better address the way students 
learn and to incorporate workplace readiness skills such as problem-
solving and teamwork. Florence-Darlington Technical College was one of 
seven colleges that implemented the new Engineering Technology first-
year curriculum developed by the South Carolina ATE Center.
    NSF ATE initiatives at Florence-Darlington Technical College have 
achieved the following results: enrollment in engineering technology 
programs has doubled and the time it takes a student to graduate with 
an associate degree in engineering technology has been reduced from 3.8 
years to 2.2 years. Using 1998 statewide baseline data, graduation 
rates at Florence-Darlington have increased from 12% to more than 40% 
and African-American enrollment has increased from 15% to 39%. The 
gains were attributed to faculty preparation that improved teaching 
methodologies and use of the new curriculum that supported better 
teaching methods; introduced problem-based learning; integrated content 
across mathematics, physics, technology, and communications; and 
encouraged teamwork among students and instructors.
    Because so many two-year technical and community college students 
must work while attending college, time-to-graduation is rarely the two 
years that the phrase ``two-year college'' implies. Research data show 
that the longer the educational pursuit extends beyond two years for 
associate degree programs, the higher the dropout rate. Reducing time-
to-graduation was addressed as a critical retention strategy, and the 
challenge was addressed in two ways. First, the credit hours required 
for engineering technology associate degrees were reduced to align with 
recommendations of the Technology Accreditation Commission of the 
Accreditation Board for Engineering and Technology (TACIABET). Next, 
the challenge of converting part-time students to full-time students 
was addressed with the addition of an industry-sponsored paid 
internship program that included scholarship support for interns. For 
the first time, students were provided with the opportunity to replace 
a 40-hour/week, minimum-wage job with a 20-hour/week internship that 
paid twice as much and enhanced their classroom instruction. These 
program improvements were implemented as part of a National Science 
Foundation ATE project that shortened time-to-graduation for 
engineering technology students from 3.8 years (range 2.0-7.0) to 2.2 
years (range 2.0-2.4) while simultaneously providing industry with job-
ready, experienced candidates upon graduation.
    Florence-Darlington Technical College serves an economically 
disadvantaged student population. Approximately 68% of the student body 
received financial aid in the form of Pell grants for the fall 2009 
semester. A National Science Foundation Scholarships in STEM (S-STEM) 
grant award has made full-time enrollment possible for academically 
capable but financially challenged students. The S-STEM ``Tech Stars'' 
scholarships at Florence-Darlington Technical College have been awarded 
to 140 students enrolled in non-medical STEMdisciplines. To date, 95 
(80%) of the scholarship recipients have graduated with 82 Tech Stars 
graduating on time and with grade point averages of 3.0 or higher. 
Twenty-eight scholarship recipients are currently enrolled.
    The success that has been achieved by Florence-Darlington Technical 
College has been supported and made possible by grant funding from the 
National Science Foundation, but the story does not stop there. It is 
perhaps even more important to note that over the past five years, the 
SC ATE Center has spread these innovations to educators across the 
country. Community colleges in more than 25 states from California to 
Maine and Wyoming to Texas are using one or more of the strategies that 
were tested and proven successful at Florence-Darlington Technical 
College. For example, the SC ATE faculty development model was used 
last year in Connecticut, Massachusetts, and North Carolina and the 
internship model in Colorado. As a result of our partnership with the 
National Dropout Prevention Center at Clemson University, the SC ATE 
Center's curriculum model is now being tested as a dropout prevention 
strategy in Georgia and South Carolina high schools with very promising 
results. Interest is growing as more high schools seek effective 
solutions to the dropout problem. Peer mentoring has become an 
important part of the work of the South Carolina ATE Center, and 
strategies for broadening participation are among those more often 
shared.

Challenges in Broadening Participation in STEM

    While we have found some effective ways to broaden participation 
and increase student success, impact has been primarily on those 
students who are qualified to enter rigorous STEM-based programs like 
engineering technology. Unfortunately, too many students enter 
community and technical colleges without the pre-requisite knowledge 
and skills to be successful. I believe that one of the greatest 
challenges to broadening participation in STEM resides in the part of 
the academic pipeline where underprepared students entering college are 
served. According to a recent study from Jobs for the Future (http://
www.jff.org/), nearly 60 percent of students enrolling in U.S. 
community colleges must take remedial classes to build their basic 
academic skills. For low-income students and students of color, the 
figure topped 90 percent at some colleges.
    We are losing far too many potential STEM students at the point 
when they are required to complete additional academic preparation 
prior to becoming eligible to enroll in their chosen curriculum. 
Students deemed underprepared to enter their chosen program may be 
returning after years of being out of school, possibly facing 
challenges with English as a second language, and/or may be among the 
many who have not traditionally done well in school and/or did not take 
the necessary courses in high school to successfully pursue STEM 
programs in college. These students are ``at risk'' when they enter our 
institutions, and many are often first-generation college students. 
They face both academic and non-academic barriers to success.
    A recent project at Florence-Darlington Technical College funded by 
the South Carolina Education and Economic Development Act uncovered 
many of the non-academic barriers to student success. It was discovered 
that first-generation college students often do not understand what 
differences they will encounter when attending college. For example, 
they may not know that lunch is no longer provided. They may not know 
that textbooks are not distributed by the institution but rather must 
be purchased by the student. A $175 price tag on a college physics book 
is shocking to most of us, but it is even more shocking and out-of-
reach to them. They have parents who do not understand their role in 
providing information for the Federal financial aid application. While 
facing and adapting to these and many other non-academic barriers, they 
face academic challenges as well.
    Consider the typical steps required for the underprepared student:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The way we provide pre-curricular preparation can actually create 
an academic barrier, especially for aspiring STEM students. Placement 
testing targets only mathematics, reading, and English. There is little 
consideration of critical science and technology pre-requisite 
knowledge required for most STEM majors. Typically, none of the 
English, reading, and mathematics content in remedial, developmental or 
transitional studies contains the language of science and engineering, 
and there is no obvious correlation between what they are being asked 
to learn and the interest they may have in S I EM. Often these pre-
curriculum courses are taught in a way that is a vivid reminder of the 
school environment where they did not excel before. Because this pre-
curricular coursework bridges between what has been learned by the 
student prior to college and the baseline competencies expected for 
entry-level STEM coursework in college, it is overlooked in funding 
legislation and, by extension, does not get included in funding 
opportunities that could stimulate improvement. As data reported by 
Jobs for the Future illustrate, in every case, students from 
underrepresented populations in STEM are dominant among those needing 
additional preparation to be successful. While we wish this additional 
preparation were not necessary, I encourage you to consider this a 
point in the educational process that is ripe for improvement, and 
where improvement could produce considerable impact and broaden 
participation in STEM. New work and innovative thinking is needed about 
how to invite and initiate the underprepared student into a STEM-
focused world with interesting activities and effective ways for 
diverse learners to succeed. Reading and English instruction should 
include the language and knowledge of science. Community and technical 
colleges are skillful in nurturing diverse and underprepared students 
but do not have the resources to completely re-build the way we offer 
instruction for these students. What is needed is legislation and 
funding that will stimulate the development of activities that are rich 
in technology applications directed towards learning STEM and 
introducing STEM programs and careers. Mathematics should be taught 
from application to theory using problem-solving and real-world 
applications that answer the question ``why am I learning this?''
    While the National Science Foundation ATE program effectively 
connects high school programs and teachers to community college 
technician education and includes related STEM faculty development, 
more attention and funding opportunities are needed to specifically and 
effectively close the often overlooked but gaping ``hole'' in the 
academic STEM pipeline where we lose far too many capable but 
underprepared students, especially those from populations 
underrepresented in STEM. The NSF ATE program has funded a number of 
successful bridge programs, but these programs have typically been 
discipline specific. The outcomes from successful bridge programs can 
be used to guide the work that will be necessary to generalize pre-
curriculum preparation at community colleges for all STEM disciplines. 
One challenge to infusing STEM in pre-curriculum studies is that this 
work will require the involvement of faculty from all STEM disciplines 
where currently only mathematics faculty are involved. Thus, pre-
curriculum study will need to be enriched and expanded both in terms of 
what is taught, how it is taught, and by whom. Rigorous evaluation will 
be needed to determine what works and what does not work so that 
successful strategies can be broadly disseminated and replicated.
    In summary, the one-size-fits-all strategy currently used in 
remedial, developmental, or transitional studies in our country is 
simply not meeting the needs of underprepared students who wish to 
enter STEM or STEM-based programs. If broadening participation in STEM 
careers is a priority for our nation, then that priority should be 
demonstrated much sooner in the college experience of more students. 
Funding specifically to replace traditional pre-curricular English, 
reading, and mathematics with STEM-rich and relevant content delivered 
in part by STEM-knowledgeable faculty using the language and laboratory 
equipment of science, active learning, and inquiry-based teaching 
methods will broaden participation in STEM by improving student success 
from that point forward in the academic pipeline, especially for 
underrepresented minorities.
    Although there is a substantial body of research demonstrating that 
better teaching methodologies produce better student outcomes, there 
are still far too many educators wed to traditional academic practice. 
My experience in working with faculty to change teaching is that it 
takes more time to accomplish the transformation than is provided 
through typical funded projects of three or four years. Funding 
opportunities that encourage continued use of better teaching 
methodologies for longer periods of time are needed to help develop 
stronger communities of practice that are more likely to be sustained. 
Like wearing a retainer once braces are removed from your teeth by the 
orthodontist, support for improved teaching methods needs to be 
provided for a longer period of time after the initial faculty 
development to prevent teachers from lapsing back into more 
comfortable, but less effective teaching practices. Faculty development 
should be an integral component of all initiatives to broaden 
participation in STEM.

Conclusion

    Chairman Lipinski, Ranking Member Ehlers, Members of the committee, 
thank you for the opportunity to share this information about the work 
being done at Florence-Darlington Technical College and the South 
Carolina Advanced Technological Education Center of Excellence. Funding 
from the ATE Program at the National Science Foundation has been 
transformative for our institution and for technician education in this 
country. Your support for this program is having a significant impact 
on broadening participation in STEM. Because of the NSF ATE Program, it 
has been possible for us to explore and discover successful ways to 
broaden participation in STEM and support our nation's economy in 
fields of emerging as well as traditional technologies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for Elaine L. Craft
    Elaine L. Craft has served as Director of the South Carolina 
Advanced Technological (SC ATE) Center of Excellence since 1994. The SC 
ATE Center is dedicated to increasing the quantity, quality and 
diversity of highly skilled technicians to support the American 
economy. Currently, she serves as Co-Principal Investigator for the SC 
ATE National Resource Center for Expanding Excellence in Technician 
Education. As SC ATE Director, she has served as principal 
investigator, project manager, and project developer/grant writer for 
multiple National Science Foundation grants for the South Carolina 
Technical College System and Florence-Darlington Technical College. The 
SC ATE Center is widely known for developing and broadly sharing 
successful educational models and practices in technician education, 
with a particular emphasis on the first year of study. An independent 
study conducted by Western Michigan University in 2003 ranked the SC 
ATE Engineering Technology Core, cross-disciplinary, project-based 
curriculum, 4.0 on a 0-4 scale for ``its effectiveness in helping 
students learn the knowledge and skills and/or practices needed to be 
successful in the technical workplace.''
    In 2005, Elaine Craft founded SCATE, Inc., a 501(c)(3), not-for-
profit corporation affiliated with Florence-Darlington Technical 
College, Florence, South Carolina. SCATE Inc. promotes systemic change 
in Advanced Technological Education and helps sustain and expand the 
work and impact of the SC ATE Center. Through SCATE, Inc., successful 
practices in STEM and technician education, with a focus on rigorous 
evaluation, are being provided nationally to broaden participation and 
enhance advanced technological education and workforce development.
    Ms. Craft received a baccalaureate degree in chemical engineering 
from the University of Mississippi and MBA from the University of South 
Carolina. In addition, she has completed additional graduate studies in 
mathematics. Early in her career, Ms. Craft worked as a chemical 
engineer for Union Carbide and the Monsanto Chemical Company. More 
recently, she has held both faculty and administrative positions within 
the South Carolina Technical College System. She served as vice chair 
of the SC Governor's Math and Science Advisory Board and has been 
honored with numerous awards including the South Carolina Governor's 
Award for Excellence in Science. Mrs. Craft received the Innovator in 
Education Award at the Eastern Regional Competency Based Education 
Conference in 2009 and was named Administrator of the Year for 
Florence-Darlington Technical College in 2007. Her other awards include 
the National Institute for Leadership and Institutional Effectiveness 
David Pierce Leadership Award, National Leadership Forum Achievement 
Award for Outstanding Partnership (Jobs for the Future), and Educator 
of the Year and Medallion of Excellence from Northeastern Technical 
College. Ms. Craft served on the National Science Foundation Advisory 
Committee for GPRA 2006-08 and has been an advisor to the National 
Science Board.

    Chairman Lipinski. Thank you.
    Before we begin our questioning, I want to apologize to our 
witnesses for my absence at the beginning. Right now, health 
care reform is trumping everything, and when you are called to 
a health care reform meeting, you go, so I apologize, but 
fortunately we did have Ms. Fudge, who is the Vice Chair of the 
Subcommittee, who has worked very hard on this issue. I thank 
Ms. Fudge for filling in at the beginning, and with that, I 
will recognize Ms. Fudge for five minutes for the first round 
of questions.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank all 
of you.
    Before I get to my first question, I would like to say to 
Dr. Stassun that I think that the collaboration you have with 
Fisk is fabulous. If we are talking about engaging young 
people, especially minorities, to collaborate with a school 
that is full of minorities who already understand the rigors of 
what an education really is about I think is phenomenal, so I 
just want to congratulate you for your work, and I would love 
to see more people do the same kinds of things.
    Dr. Stassun. Thank you.
    Ms. Fudge. My first question is to Dr. Dowd. Dr. Dowd, you 
referenced a report that found many faculty and senior 
leadership don't buy into increasing access to and success in 
STEM education for minority and low-income students. 
Additionally, you cited research that emphasizes that African 
American students participate in mathematics education with an 
acute awareness of the dynamics of race and racism in their 
lives. In short, you have seen that racial stigma and 
discrimination are barriers to the participation of 
underrepresented racial ethnic groups in STEM courses. Among 
many other concerns, this information clearly demonstrates the 
need for more diverse STEM faculty.
    I firmly believe in the power of role models. After all, 
you can't be what you don't see. So students don't see 
scientists that look like them. They have a hard time 
envisioning themselves as scientists. However, Dr. Malcom 
stated that despite the observed increase in the number of 
Ph.D.s awarded to minorities, there is not a corresponding 
increase in the number of minority faculty members. My question 
is, as we work to increase the number of racial and ethnic 
minorities receiving Ph.D.s, how can we simultaneously 
encourage them to teach, and what are the barriers to 
minorities becoming faculty members? Either of you, Dr. Dowd, 
and then Dr. Malcom, if you would like to respond as well.
    Dr. Dowd. Well, thank you, Congresswoman. First I would 
like to offer a definition of racism in the sense that racism 
can be understood as social processes where we create 
hierarchies, and in the case of racism we use race as the 
categories by which to assign those social hierarchies. In 
consideration of entry to the faculty, we see in the numbers 
very low participation on the part of Latinos and African 
Americans, as you stated. Mentoring is extremely important, and 
mentors and role modeling--mentors can play very important 
roles as role models but in addition they can be active in 
understanding how to direct their students, doctoral students 
included, to resources that they need to gain entry to social 
networks and to doctoral study at prestigious institutions. So 
when we look, for example, at Hispanic students who enrolled in 
community colleges, the pathways to highly selective and 
prestigious doctoral programs at research universities are 
fairly narrow. Understanding how to navigate those pathways is 
difficult, and without the assistance of a role model and 
mentor to engage actively in problem solving and to direct 
students towards those resources, is very difficult. So I will 
turn it over to Dr. Malcom.
    Dr. Malcom. As Dr. Dowd said, there is a real issue with 
regard to the fact that institutions tend to recruit from peer 
institutions and therefore if you are not receiving your degree 
from one of the institutions that happen to be within the peer 
group, it is very difficult to break in. Now, there are ways to 
overcome that. For example, by taking a post-doc in a 
prestigious institution, it is possible to overcome some of 
that. But part of it relates to the fact--and I think that the 
ADVANCE program really found this out--is that there are really 
processes within institutions around hiring of faculty that 
don't necessarily work to expose the most diverse group of 
people to put into the pool to begin with. African Americans, 
for example, are more likely to say that they want to teach and 
go on to the faculty. The question is whether or not we 
actually have the pathways that can help them to move from the 
identification to the recruitment to the actual hire, and that 
is a complex process that involves, in many cases, the 
judgments of the existing faculty, as well as efforts that 
might be made in order to really reach out beyond the usual 
suspects to identify people who may be available and highly 
qualified to go into that applicant pool.
    Ms. Fudge. Thank you. And just a last question quickly if 
you could, I remember reading in someone's testimony that there 
is a belief that debt is a deterrent for minorities wishing to 
pursue graduate degrees in STEM, and I just want to know, is 
there a lack of financial support, and is it the most 
significant barrier to students' ability to pursue advanced 
degrees? Anyone?
    Dr. Dowd. In collaboration with Dr. Lindsey Malcom of the 
University of California at Riverside at the Center for Urban 
Education, we studied the effects of debt on graduate school 
enrollment among bachelor's degree holders in STEM fields, and 
we see that debt is negative, particularly for Hispanic 
students, in pursuing graduate enrollment. So the use of 
scholarships and fellowships is probably one of the most 
important, or the funding of scholarships and fellowships is 
the most important thing that NSF can do in addition to what I 
focused on in my remarks, which is engaging in scholarship on 
active learning.
    Ms. Fudge. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Lipinski. Thank you, Ms. Fudge.
    The Chair will now recognize Ms. Johnson, who has also done 
a wonderful job as always. She has been very interested in 
every piece of legislation and is looking out for this issue. 
Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    My first question will be to all the members of the panel. 
In 2007, I offered an amendment which was incorporated in the 
original America COMPETES law, which, I quote, ``directs the 
National Academies of Sciences to compile a report to be 
transmitted to the Congress no later than one year after the 
date of enactment of this Act about barriers to increasing the 
number of underrepresented minorities in science, technology, 
engineering and mathematic fields and to identify strategies 
for bringing more underrepresented minorities into the science, 
technology, engineering and mathematics workforce.'' We don't 
have this report yet, and yet we are now looking at the 
reauthorization of the America COMPETES Act. I would like to 
get from you specific policy directives that you would give to 
help eliminate these current barriers for minorities.
    Dr. Malcom. I will begin by a couple--I want to underscore 
Dr. Stassun's comments with regard to the need to have broader 
impacts criteria and actually applied more across the board. I 
do think that this has made a difference within the NSF. I was 
on the Science Board and actually a member of the criterion 
committee at that time, and I do think that it tends to reset 
the culture in the institutions. I do think that we have issues 
with regard to not only debt at the undergraduate level, but we 
have issues with regard to graduate school debt, and that debt 
tends to be highest among those groups that really can actually 
least afford it. But I would say that it isn't just about 
fellowships and traineeships. The kind of money one gets 
actually does matter. When money is actually associated with 
the training process, that is, that you have research 
assistantships and the like, it gets you entry into the lab, a 
key to the door and relationship with a mentor that is likely 
to be deeper and yet we basically are less likely to see 
African Americans reporting that they are getting, for example, 
research assistantships. In many cases, the faculty will choose 
to use those resources to support their international students 
because they do not carry the same requirements as the 
traineeships and fellowships do with regard to U.S. 
citizenship.
    Now, I think that there are all kinds of issues around the 
notion of debt, and it is raising a real problem. I do think 
that there are also issues that relate to the lack of diversity 
among faculty. We are seeing research that says that it 
matters, at least for--recent research that came out last week 
about African American faculty and the effect of African 
American faculty on African American students' encouragement, 
support and retention into STEM. So I think that there is a 
whole panoply of things, some that cost new resources, some 
that don't. They just require different behavior and, really, 
the will to actually do things in a different way.
    Ms. Stassun. I will echo Dr. Malcom's echo of my 
recommendation to authorize other Federal funding agencies to 
adopt something like NSF's broader impacts language. I see 
myself as a front lines researcher, somebody who runs a lab and 
works one-on-one with students, and I, for personal reasons, 
bring a strong commitment to diversity in STEM, but what I see 
among my colleagues is that many of them who may not be able to 
initially relate to the broadening participation charge for 
personal reasons nonetheless are very entrepreneurial people 
and they see the broader impacts mandate from NSF. They want 
the prize of an NSF Career Award. They want to bring in the 
resources that are needed to build and sustain a world-class 
laboratory. And so they learn pretty quick how to effectively 
respond to broader impact and to broadening participation.
    Dr. Dowd. In my written testimony, I elaborate on the 
notion of not only requiring performance benchmarking to show 
the impact of programs on producing additional students with 
degrees, but also diagnostic benchmarking in order to use best 
practices in ways that can be applied then to understand the 
organizational and structural changes needed within 
institutions, and in that respect we can also require what is 
called `process benchmarking' whereby institutions look to 
peers and change their practices in order to achieve the 
performance benchmarks that are desired.
    Dr. Yarlott. For tribal colleges and for American Indians, 
I think for us, the lack of capacity to pursue these types of 
grants has been a detriment to us, but we also lack role models 
historically. But that is changing through this process, and 
the more American Indians that go into these STEM fields 
provides for opportunities seeing that, you know, others like 
us have gone on to be successful in those areas. So with us, 
originally it was because of the lack of resources to go after 
these types of grants and making people aware of them, but now 
those things are changing for us. Thank you.
    Ms. Johnson. My time has expired, Mr. Chairman. Thank you.
    Chairman Lipinski. Thank you.
    The Chair will now recognize Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and I apologize for 
dashing out but I had to give a talk to a group of students 
downstairs who are holding a session, and it is really 
heartening. One of them happened to be from my district, but it 
was kind of amusing because he has done some astrophysical work 
looking at galaxy clusters and so forth, and flying in on a 
plane yesterday, I read a paper from a former colleague at 
Berkeley who is doing the same and using it to verify 
Einstein's theory of general relativity and also the very 
likely existence of dark matter in the universe, and I find 
that really interesting that a high school student, I guess he 
was a beginning college student, could do research of that 
magnitude because the data is all there on the Internet and he 
was--you know, it is not exactly Nobel prize winning but it is 
very serious work and it is really heartening to see young 
people tackling those problems.
    I appreciate the testimony I heard, and it is really 
striking, and I just--this is frustrating to me because I have 
trouble relating to some of the problems that people have. I 
had my own set of problems when I went off to college because I 
had been home schooled due to illness and I was completely 
maladjusted, which you still see occasionally. Otherwise I 
probably wouldn't be in Congress. But in any event, it is a 
tough go for minorities to come out from their situation where 
they are and getting into a totally different world--I observed 
that with students I have helped. At the same time, I think one 
of the problems is, and it is not just for minorities, it is 
for many, someone mentioned the problem, I think it was you, 
Shirley, something about males underrepresented in certain 
areas, and if you don't have the right role models and you 
don't have the right experiences as a child, sometimes it is 
very difficult, and we don't place enough emphasis on that. I 
would love to give a set of Tinker Toys and Lincoln Logs to 
every child born in the country, male or female, and have them 
have that experience of assembling things, making things, and 
especially making things run.
    Dr. Dowd, you used a term that I wanted to have you amplify 
on. You talked about the need for a new pedagogy, and could you 
explain in a little more depth what you mean by that and how it 
applies to this issue?
    Dr. Dowd. Yes. Thank you. When I use the expression ``new 
pedagogy,'' I am thinking of the use of formative assessments 
within classroom settings and other learning environments 
whereby professors gain a sense of their students' development 
as learners and ask the question of themselves and other 
students each day, what have you learned here today, so that 
the emphasis is not on some evaluation with testing only but 
also on what students learn. To do this, professors need a set 
of skills that is not only content knowledge and pedagogical 
knowledge but also race knowledge. In this way, instruction can 
take account of the fact that learners are always in the 
process of developing new identities, new identities as college 
students, new identities affiliated with racial ethnic 
identification and new identifies as scientists, which is so 
important in terms of the passion for learning.
    Mr. Ehlers. OK. That is helpful.
    Something that was absent from the discussion when you were 
talking about minorities, no mention of Asian or Oriental 
students. Why not? What is different about them? Dr. Malcom?
    Dr. Malcom. They overparticipate in STEM compared to their 
total numbers within the college population. Now, that does not 
mean that there aren't issues with regard to Asian Americans 
who are participating in these fields. We are not, for example, 
necessarily finding them in leadership roles, even then we find 
them among the faculty and we find them getting the degrees, 
and they are not necessarily--Asian Americans are not 
necessarily a monolithic group. You have Hmong Filipino, for 
example, where those numbers and Pacific Islanders may look a 
lot more like underrepresented minorities while Korean, 
Japanese and Chinese may look different. So I think that this 
notion of disaggregation and unpacking the numbers, I think it 
applies in that particular case as well as in some of the other 
examples that we have seen.
    Mr. Ehlers. Now, why is that? Why the difference? Are these 
cultural differences?
    Dr. Malcom. Some are cultural, some are socioeconomic, and 
I think that the real issue is that this is such a complex 
picture. It almost has to be looked at department by 
department, community by community in order to really 
understand how to actually meet individual students' needs, and 
that is, I think, the plea that Dr. Dowd is making, that we 
have got to get underneath a lot of this. But in cases where 
there is a strong sense of family push and support for certain 
fields, we see students oftentimes moving into those fields. At 
the same time, you will see that the Asian American student 
populations are not necessarily in the social and behavioral 
sciences fields at the same level that they might be in areas 
such as engineering or computer science.
    Mr. Ehlers. When I was teaching at Berkeley, we had an 
arrangement with the Turkish university that we would exchange, 
or we would take some of their students, at least at the 
master's level and perhaps Ph.D., and work with them in the lab 
directly. I was really struck by how lack of certain things in 
the background makes it difficult, things that you might not 
think of, but for example, they had never worked on a car. Now, 
I don't regard working on a car being a mechanic as crucial to 
becoming a physicist, but they had no idea how to deal with 
equipment, how to handle it, and I just realized we really had 
to go back to step one and talk about what the equipment does, 
how you control it, how you use it and so forth. It never 
occurred to me before that that could be a major roadblock to a 
particular group of people, and I suspect you are having some 
of that in the minority issue here.
    Dr. Dowd, you had another comment?
    Dr. Dowd. I just wanted to speak to the question in regard 
to Asian students. Asian students also face racism and face 
limitation to their access of certain fields of study and 
certain professions. In the sciences, they are not necessarily 
underrepresented in the aggregate, but as Dr. Malcom pointed 
out, that is not true among different ethnic groups, so Asian 
students are also important in this discussion in understanding 
the differences and using the data available to us to look in a 
disaggregated sense is important, so better data that enables 
us to see the smaller units of analysis in terms of different 
ethnic groups is necessary. And I would just return to this 
notion of racism operating in the system of creating 
hierarchies within our society, and testing does that, so when 
we overemphasize Asians as a model minority, that is also, I 
would say, damaging towards the participation of Asian students 
in higher education as a whole.
    Mr. Ehlers. Thank you. I yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    I will now recognize Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Craft, you, in your testimony, attributed gains in STEM 
graduation rates to faculty development, including improved 
teaching methodologies and the use of new curricula. Can you 
elaborate for the panel how these changes were implemented?
    Ms. Craft. Dr. Dowd described part of what we are doing, 
which includes a lot of the formative assessment strategies. 
Often we teach from application to theory rather than the 
traditional theory to application. This helps the student 
understand why they are learning something, and creates a `need 
to know', and we find that if you create a need to know, then 
they become very inquisitive and they want to learn more and 
you can actually teach them how to learn, how to, you know--
there is a lot of lip service given to self-directed learners 
and that sort of thing, but how do you make that happen? And 
this is one of the ways in which you do that, giving them real-
world problems to solve, teaching them how to work in teams, 
teaching a problem-solving process so that--I mean, essentially 
we are having to prepare students today to work in technologies 
that haven't yet been invented, to solve problems that we don't 
we have yet.
    Mr. Tonko. And you said that they are also implementing 
these across the country with many other institutions?
    Ms. Craft. Yes, it started with a collaboration among the 
technical colleges in South Carolina and then, you know, piece 
by piece we have spread it across the country.
    Mr. Tonko. And they are seeing, I would think, the same 
sort of improvements?
    Ms. Craft. Where you can get the teachers to actually 
change their teaching methodologies, you do get these 
improvements, yes.
    Mr. Tonko. And Dr. Dowd, in your testimony, you state that 
there are certain pathways to STEM bachelor's degrees that just 
aren't necessarily part of that process from the community 
college, that there should be, what I read into it, greater 
access into the matriculation route toward a bachelor's degree. 
Why is this? Is there anything that can be done to improve that 
access? It seems to me, if the community colleges are the 
campus of choice, shouldn't we have those bridges to STEM 
degrees that would advantage the student?
    Dr. Dowd. Yes, improving transfer and improving 
articulation I think are a really important part of this 
equation for increasing the numbers of Hispanic students 
earning bachelor's as well as graduate degrees in STEM. I 
believe that faculty collaboration between two-year college 
faculty and university faculty in developing curricula and 
aligned programs and degrees is very important, and also 
providing encouragement to states to allow community colleges 
to offer degrees in STEM fields in community colleges is also 
important. While bachelor's degree numbers have improved for 
Hispanic students in STEM, associate's degree numbers are 
fairly flat, so we have, I would say, a supply problem in 
providing enough spaces within community colleges and STEM 
fields, and part of this is hiring a new generation of faculty 
who can engage students in this area.
    Mr. Tonko. Well, I noted that we did a lot to move the 
President's push to provide more community college assistance 
might just respond to that dilemma in a way that allows us to 
offer the space and cultivate the two-year degrees than bridges 
to the four-year.
    All of you as a panel, or most of you, if not all, made 
mention of some 60 to 90 percent of students enrolled in 
community college as requiring or participating in remedial 
programming. Is there something that should be done in the 
remedial layer in that exercise that encourages STEM 
connection? Is there something that we should be doing beyond 
what is being done now that would really advance that? Ms. 
Craft.
    Ms. Craft. As I pointed out, what I have found is that the 
total--remedial studies are typically reading, English and 
math. There is no science, engineering or technology there. And 
those other three topics are never taught in the context of 
STEM and STEM careers, and I think that can make a huge 
difference for these students.
    Mr. Tonko. Does anyone else on the panel have a comment? 
Yes, Dr. Dowd.
    Dr. Dowd. Yes. The mathematics curriculum in remedial or 
developmental education is highly segmented into skill-based 
study so that, for example, in a California community college, 
a student would need to take three to four classes in 
mathematics before they earn any credits that will count 
towards transfer for a bachelor's degree. This can take years. 
So dismantling this process of a long segmented skill-base 
study into curricula that are connected to careers, occupations 
and actual problem-solving would be beneficial to shorten the 
length of time needed to earn degrees and to engage students.
    Mr. Tonko. So where should the push come, then, to make 
those improvements, to make those reforms happen? Should it be 
left to the individual states or should there be some sort of 
incentive program from the feds? What would make that come 
around in a way that really feeds the STEM----
    Dr. Dowd. I think that NSF's focus on transformative 
initiatives focused on pedagogy and curriculum reform will 
provide the incentives for colleges to work together to reshape 
their curriculum, and I do believe that that is important.
    Mr. Tonko. Dr. Malcom?
    Dr. Malcom. Let me underscore that in a perfect world, 
there would be no need for remediation, but the world is----
    Mr. Tonko. Good point.
    Dr. Malcom. --not perfect. I do think that we do have to 
continue to look at K-12 and what is actually happening at the 
high school level. I think that the points that have been made 
about the fact that the mathematics instruction needs to be 
grounded and connected to something that is real, so that 
students really get it about why you have to do this, as well 
as having pedagogical strategies that actually support their 
learning, but I think that we haven't really explored the 
limits of technology in terms of being able to develop things 
that really are online where students can support their own 
learning a lot more and have a way of beginning to kind of, 
first of all, figure out our where their deficiencies might be, 
and then being able to work together in order to address them. 
So I think that this is something that, once identified as a 
problem, there is an opportunity to really do some 
experimentation and some sharing in order to try to get over 
it.
    Mr. Tonko. Mr. Chair, I know I am over my time, but if I 
could just close with one related question. Is there enough 
dialog between community colleges and the pre-K-12 setting, are 
they feeding back what they are seeing and then hopefully 
inspiring some sort of reforms in that pre-K? I think the 
elementary setting is one that really needs to advance science 
and tech and especially with, you know, so many of the students 
not really realizing that technical side of the elementary 
setting.
    Dr. Malcom. I am concerned that we really have not had the 
kind of mathematics instruction, period, that we need. It has 
been heavily focused on getting past the next test as opposed 
to being able to actually use it in real-world settings. I am 
hopeful that with the kind of standards conversations that are 
going on now that states that--that people who have 
responsibility from K through postgraduate will have 
conversations about what the expectations are, about what 
students will need to go from one level to the next. Some of 
the states are setting up these councils so that there is this 
kind of conversation that goes beyond, but I agree with you 
that it needs to start early. But it needs to be different, and 
that is the part where we really haven't been engaged to date.
    Mr. Tonko. Thank you.
    Dr. Dowd.
    Dr. Dowd. NSF's funding can be used to encourage faculty at 
all levels, K-12, community colleges and universities, to come 
together and to think about how is math best taught, what is a 
mathematics pedagogy that is appropriate to new technologies 
including online mediated learning, and currently those 
boundaries are pretty hard in terms of little collaboration 
across sector and I think that incentives to collaborate are 
needed.
    Mr. Tonko. Thank you. Was Dr. Stassun going to say 
something or----
    Dr. Stassun. I would be happy to add a remark but I want to 
respect your time.
    Mr. Tonko. Go ahead.
    Dr. Stassun. I think, Congressman, that you put your finger 
on something terribly important with respect to this idea of 
understanding the pathways that students take as they move 
through the various stages and steps in the higher education 
system. When we created the Fisk-Vanderbilt Master's-to-Ph.D. 
Bridge Program, it was specifically data driven. It was 
incredibly enlightening for me to learn not only the very, very 
important role that historically black colleges and 
universities and other minority-serving institutions continue 
to play in educating our talented minority students in STEM, 
but specifically to learn that if you look at the different 
pathways that minorities in STEM and their non-minority 
counterparts take en route to a Ph.D. in STEM, they are very 
different. A non-minority student will traditionally take the 
path where you earn a baccalaureate degree at Institution A and 
then a master's degree or perhaps forego the master's degree 
altogether and a Ph.D. at Institution B, one transition. 
Underrepresented minorities in STEM, on the other hand, are 50 
percent more likely to take a path that is baccalaureate degree 
at Institution A, a terminal master's degree at Institution B 
and then a Ph.D. at Institution C. And so in creating our 
program we did it specifically to tap into that pathway that 
the students are already taking and have been blazing on their 
own for decades. We have, in essence, tapped into that, 
surrounded it with deliberate mentorship and preparation, but 
most importantly, engaged the students in a spirit of handoff 
so that we don't just say, you know, here is piece A, here is 
piece B, here is piece C, we hope that you traverse those steps 
successfully. Rather, we do a deliberate mentoring handoff from 
one stage to the next, and I think that idea of understanding 
the pathways and of preparing deliberate handoffs from one step 
to the next through collaboration between institutions is very, 
very important.
    Mr. Tonko. Thank you.
    Thank you, Mr. Chair. It just reminds me of the some of the 
campuses that I have been familiar with where when they have 
built or extended those campuses, they wouldn't lay the 
sidewalks down that were all planned. They would allow the 
paths to be developed and they would put the sidewalk there. I 
think we should be doing the same thing here with curriculum.
    Chairman Lipinski. Thank you, Mr. Tonko.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    You know, I wonder what it is that causes people like me to 
be intimidated by science so by the time I had gotten to maybe 
8th or 9th grade, I decided that it wasn't for me. But I think 
that in part maybe it is hard to teach. I don't know. I wonder 
if it is hard to teach science. When I got to law school, what 
I found is, law is very easy to teach because it is all about 
stories and cases that are really stories about human endeavor 
and you can get into the stories. But the challenge, it seems 
to me, with science, at least the way it was taught to me, was 
that it seemed somewhat rote to start with and it didn't seem 
to connect up. In law, you know, Your Honor, it will connect 
up. If you are asking a series of questions that don't really 
seem to make sense, you say to the judge, Your Honor, it will 
connect up, and sometimes he or she will let you keep going. So 
in the case of science, I wonder if the challenge is getting it 
to connect up early enough that people start seeing the 
connections and get excited about it. The people that I know 
that have gotten excited about science, like my kids, for 
example--I have got five kids--they are very excited about 
science, but somehow along the way they saw the connection 
sooner than I did.
    Am I just idiosyncratic here in my experience or is that 
the case? Do we have to have some inspiration early on to make 
the connections, perhaps hands on? What is it that makes it so 
that people get these connections and get fired up?
    Dr. Stassun. If I may, my personal experience is that I was 
told as a young boy and all the way through elementary school, 
middle school, high school and even going into college, I heard 
from teachers constantly, Keivan, you are going to be a great 
scientist or mathematician, you are very good at science. I 
heard that phrase over and over again all my life. And it 
wasn't until I was an advanced undergraduate in college and got 
involved in a real astronomical research project with a mentor 
that I realized I had been told my whole life I was excellent 
in science and up until that point I had never done science. I 
had learned about science. I had learned the facts and the 
algorithms of science and I was quirky enough and idiosyncratic 
enough to be satisfied with that. But I think you are putting 
your finger on a very, very important point, and that is, 
whether it is hands-on or discovery-based learning or other 
methods, some way of giving students who have the talent and 
the ability very, very early on to experience what science is 
all about, which is actually not about knowing the answers but 
about asking the right questions and having some skill and idea 
about how to pursue answering those questions.
    Mr. Inglis. Yes, sir.
    Dr. Yarlott. By no means I am really an expert in science, 
but my experience is that with our students, with American 
Indians, we don't have those positive role models to begin 
with. Then those that are teaching in our K-12 programs don't 
have a strong background in those areas, so I think they feel 
uncomfortable in teaching the STEM areas, most specifically, 
math.
    A number of years ago through a NSF-TCUP program called the 
Rural Systemic Initiative Program, we were able to work with 
the K-12 programs and just when we got to the point where we 
thought we got everything squared away, where we were doing our 
jobs really well, that program went away, so we are faced with 
that same problem again, and through those processes at our 
tribal colleges, for instance, in our situation, we went from 
three to four science majors to over 50 now and it is through 
those types of developments that we were able to reach down 
into the K-12 programs and then advancing that to our community 
colleges.
    Mr. Inglis. Is the future going to be that we have these 
super-inspirational teachers that appear to students on the Web 
individually so that, in other words, a student then can access 
the best teacher in the world who is so excited about making 
the connections in geometry such that that student can get 
online with that professor or watch a lecture? Is that the 
future, or is the future trying to get the proficiency of these 
classroom teachers who sometimes don't get the connections 
themselves? It's like David McCullough says, we should only let 
historians teach history because if you have got somebody that 
got a degree in education and they are trying to teach history 
and they are not excited about history, they are going to bore 
all the students. So if you have somebody at M.I.T. who is 
really great at teaching science, and I think M.I.T. is doing 
this online, right? You can go and get the best professors ever 
telling you about something of their area of expertise. You get 
excited about it, right? So which is the future? Ms. Craft, do 
you think it is trying to get the proficiencies up in Florence 
and Greenville and Spartanburg or do you think it is connecting 
Florence and Greenville and Spartanburg to M.I.T.?
    Ms. Craft. I think it is going to be a combination simply 
because of student learning styles, and I think that the 
interdisciplinary approach, and several of my colleagues have 
mentioned that in their talks as well. For instance, if you do 
a science project, it is never just a science project. You 
can't do a science project if you are not also doing math. You 
can't do a project if you are not doing communications. So it 
is a matter of connecting, as you said, connecting the dots, 
and when we teach in silos and our faculty don't have 
opportunities to see what is going on in the related subjects 
and how they fit together, I think we have got a big faculty 
development challenge as well.
    Mr. Inglis. You know, when I was in law school, UCC, 
Uniform Commercial Code, is pretty dry but Bob Scott was the 
dean of the University of Virginia Law School and he loves the 
UCC. He is absolutely passionate about the UCC. And it made him 
the most incredible professor for teaching what probably most 
lawyers in the room would think was the most horrible course 
they ever had in law school. Bob Scott made it fascinating 
because every lecture, he would come in there excited, ``You 
can't believe what we are going to learn today about this 
connection between article 2 and article 3.'' So that is what I 
hope for our students is people like Bob Scott teaching them 
things that--you know, UCC is pretty exciting if you get it, 
but I am not saying that I still remember all of it, I tell 
you, it has been a while ago.
    But anyway, Dr. Malcom, you look like you want to add 
something to that.
    Dr. Malcom. Yes. I just wanted to say that every person who 
comes into the world is a scientist. They discover the world 
that is around them. They discover their own versions of the 
physical laws. They discover their own version of, is that 
thing alive or is it not alive. They are an open door. I think 
that we basically kill off a large part of that curiosity and 
enthusiasm with uninspired teaching. No one really wants to go 
into a classroom and be a terrible teacher. So the question 
then becomes, well, how do we help people to become inspiring 
teachers? One of the first things is that the way that teachers 
are actually educated is a real issue, and that is, are they 
taught their own science and mathematics in ways that are 
exciting and engaging. This is a complex system. We are not 
going to address the issues that relate to teachers until we 
address the issues that relate to the people who taught them 
and the ways in which they become inspired and excited and that 
they gain a command of the subject area.
    We have a program here in the District of Columbia where we 
work with veteran teachers, and in this particular case, this 
is a partnership with George Washington University in a 
master's of practice program, and while we give them the 
pedagogy and information about learning, the learning sciences, 
what we now know about how people learn and engage, we go back 
and we make sure we give them content and give it to them in a 
way that they can give to someone else, that they get excited 
and enthusiastic about it and they are able to pass it on and 
also engage their students.
    I hope that we don't look to any one spot to try to find 
the answer because this is a systems problem, and we have to 
think about how we engage every part of it in order to really 
give kids the opportunity to retain their birthright as 
scientists.
    Mr. Inglis. That is very interesting.
    Thank you, Mr. Chairman. I am way over time. Thank you.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Inglis. I would be happy to.
    Mr. Ehlers. Thank you.
    I appreciate your comments, Dr. Malcom, and when I began 
teaching, I asked myself what could I do as one person to deal 
with some of the problems that we are talking about, and I 
started a special course for future elementary school teachers 
teaching them physical science, which was a required course, 
but I also expanded that to talk about how to teach science, 
which created some problems for the department of education, 
which was very concerned about me getting into their turf. But 
one thing I did which turned out to be very fascinating, I told 
the students at the beginning, the very first class, what I was 
up to and said, in my experience, virtually every teacher I 
knew taught as they had been taught, and I said I want you to 
try to break that chain, so they each to have to have a little 
notebook, they had to carry it with them all the time, and 
every Friday they had to turn in examples that they had seen in 
classes that they were taking of a good teacher doing something 
exceptionally good or a bad teacher doing something 
exceptionally bad or anything in between, and they had to 
analyze it and write just 100 words at most, and then I would 
once a month share those with the students and we would talk 
about it. It was really fascinating, and the students initially 
of course begrudged it but then they really began to enjoy it. 
I insisted they were not allowed to write down the names of the 
professors involved and we were just going to talk about 
pedagogy. It is something I would recommend for anyone teaching 
future teachers because it makes them, for the first time in 
their lives, think about how they are being taught and 
analyzing whether it is good, bad or indifferent. But it gave 
me a lot of insight too into what the students really need and 
want, because that came out of there too. So it was a 
fascinating exercise and, you know, if I had the time and 
didn't get diverted into politics, I would have enjoyed doing 
summer institutes on that with teachers and just try to analyze 
it.
    Yes, Dr. Dowd.
    Dr. Dowd. Your comments give me greater appreciation of 
your question before in regard to new pedagogies, because 
apparently you did the new pedagogy when you started with your 
interest in this area. But the process you described, of data 
collection and careful data analysis about instructional 
practices, is in fact at the heart of my recommendations in 
regard to what--I call the process `benchmarking' but which is 
also known as inquiry. Inquiry is a reflective process, about, 
how is what I am doing contributing to the success of my 
students, and so that type of data collection is really 
necessary to reframe this problem from problems with students 
to problems of practice. And at the Center for Urban Education, 
with funding from the NSF, we are currently in a dissemination 
phase of our grant and we are designing what we call our STEM 
toolkit, and the toolkit includes protocols and materials that 
instructors can use to engage in this type of data collection 
and reflection about their own practices as teachers.
    Mr. Ehlers. I should have met you 40 years ago. But I did 
have one firm rule. I announced at the first class of the year 
that every day I was going to tell a joke, and my jokes were 
terrible and so they weren't going to enjoy them and the only 
way they could stop me is to come with their own jokes, and it 
just set a totally different frame in the classroom right from 
day one. The joke became the joke, in other words, and we had a 
lot of fun with that.
    Yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers. I almost hate to 
keep going on or change the subject because I think this one 
certainly is really critically important. It gets down to the 
heart of what we are talking here, but I will start by 
recognizing myself for five minutes. I just wanted to add on, I 
am not going to make any comments about Mr. Inglis and not 
being interested in science. He just slipped out of the room.
    I always--it is like Dr. Malcom said, I have always thought 
of it as we all come into the world as scientists. I thought 
maybe it was just me. I wound up going on and getting a couple 
degrees in engineering, Ph.D. in political science, but I 
always think that naturally we look--try to figure out the 
world, and it is a scientific process. In science, talking 
about pedagogy and analyzing how we are teaching, if we are 
teachers, as I was doing before I was elected here, I think the 
science of analyzing how am I teaching, what am I doing. But it 
is very difficult and it takes time and effort to be able to do 
that, but it certainly is critical.
    I remember going back earlier in my life, I didn't--when I 
was in grade school, I don't think it was a particularly 
advanced school that I was in by any means, but when I was in 
7th or 8th grade, they asked if any students wanted to go and 
teach sort of science to 2nd and 3rd grade, something like 
that, and so I did that, and I still remember some of the 
things that I did at that time trying to teach the younger kids 
about rain and where rain comes from and what that does in 
terms of growing and trees and things like that, and another 
one on magnetism, which I remember didn't work out very well. I 
still remember that. But again, it is a good way. We have to 
keep working on better teaching at all levels.
    Now, this is going to be--it is sort of more fun talking 
more generally, sort of at the lower levels, but I want to ask 
a question, you know, relating to what Dr. Malcom had suggested 
in her testimony, that major research universities need to be 
more accountable and take responsibility for students' success 
or lack of success in STEM. So I am interested in sort of two 
things, one general, one more particular to what we are 
addressing today. First, how can the Federal Government 
incentivize this type of self-assessment and improvement? And 
second, since a lot of money goes to these institutions in 
support of NSF broader impacts requirement, how can broader 
impacts proposals be better applied and leveraged to yield 
better results in broadening participation? We want to make 
sure as we are reauthorizing the NSF and America COMPETES that 
we are spending the money in the best way possible and 
providing the incentives that are necessary at our major 
research universities. So how can this be done better? I will 
start with Dr. Malcom.
    Dr. Malcom. I think that Dr. Stassun probably said it best, 
that faculty are very entrepreneurial and that they will 
basically figure it out if they are required to do something 
about it, and the broader impacts criteria actually holds a 
real opening for being able to do more and to do better. But I 
think that there has to be an accounting with regard to those 
issues as well. Let me explain what I mean. If I submit a 
proposal to the National Science Foundation, one of the things 
that they are going to ask me is, how did I do on the last 
money I gave you. So I have to report on the accomplishments 
from the previous funding. Now, I report on the technical side, 
but I don't necessarily have to report on the broader impacts 
side. And I think just that particular piece, having to 
actually report on both aspects, the technical as well as the 
broader impacts, and beginning to do some kind of an audit or 
reflection on the part of committees of visitors and other 
kinds of processes within the Foundation could have a real 
major impact. But rather than just to have it seem like it is a 
carrot issue, why not begin to actually reward, with 
recognition, those places that come up with exemplary broader 
impacts? We recognize teachers, outstanding teachers. We 
recognize outstanding researchers. We recognize young 
investigators. We recognize all kinds of things. Why not begin 
to recognize when someone has done a particularly solid piece 
of work with regard to these issues and that they can actually 
make a case and present the evidence that in fact that they 
have done this?
    Chairman Lipinski. Thank you.
    Dr. Dowd.
    Dr. Dowd. I would second that the evaluation process for 
NSF grantees can create incentives for the organizational 
learning and faculty learning that is needed to make a 
difference, and so moving beyond just measuring effectiveness 
of particular programs and asking, in what ways has an 
institution learned as a result of the incubator of best 
practices that is going on at a program level, is part of the 
expectation that should be set. So evaluations should move 
towards broader impacts at the institutional level, not just at 
the level of programs, and we can, for example, develop surveys 
of faculty beliefs about their own effectiveness or efficacy in 
increasing diversity in STEM fields. That is just an example. 
For example, at the Center for Urban Education, we are 
developing indicators of faculty effectiveness in engaging 
around issues of diversity. And so we can use these types of 
surveys, not just to ask about students, are you engaged or are 
you motivated, are you expending effort, but then to ask that 
question on the faculty side of the equation and on the 
institutional side as well.
    Chairman Lipinski. Dr. Stassun?
    Dr. Stassun. Mr. Chairman, I would emphasize again that 
unfortunately, currently NSF is on its own as a Federal funding 
agency with explicitly requiring this kind of language in the 
evaluation of funding proposals that are submitted to it. I am 
referring specifically to the broader impacts language. It 
would help tremendously, I think, if that kind of priority and 
explicitness were present in the other Federal funding carrots 
that are available to entrepreneurial researchers.
    The second thing that I would add, however, is that perhaps 
ironically, it is often the case through NSF funding programs, 
specifically those that are focused on broadening 
participation, that one of the reasons there is not currently a 
higher level of accountability for progress that was made, 
lessons that were learned in previous grants that were awarded 
is because very often a grantee, a recipient of an NSF funding 
award focused on broadening participation, will very often be 
excluded from going back for a second round of funding in order 
to have the opportunity to demonstrate, here is what we 
accomplished with the first round, here is what we learned, 
here is the metrics, here is the data, here is how we can show 
that we are performing and that we deserve to at least be 
considered for another round of funding.
    On the research side, on the technical side, what we do as 
researchers is--and we are very incentivized and motivated to 
do this--is we keep careful track of the products of our 
research, of what comes out of the previous round of funding 
because we know in three, four or five years we are going to 
have to write another proposal to NSF and say we are ready for 
the next stage of our program and here are the specific 
concrete products of the last investment that you made in us. 
Not having the opportunity to do that in multiple rounds or 
multiple stages of innovation and development on the broadening 
participation side I think is currently a limitation for 
tapping into the entrepreneurial spirit of these researchers.
    Chairman Lipinski. Dr. Yarlott?
    Dr. Yarlott. I don't disagree with any of the other panel 
speakers. I agree with the evaluation in a broader sense. When 
we start talking about evaluations at tribal colleges, they 
tend to take a look at numbers, and at tribal colleges, when we 
are dealing with small numbers of students and how it impacts 
just the numbers themselves, then the question would be, are we 
being successful. But on the other side, what it impacts is 
that it is just not the students or the faculty members that 
are being impacted but the families and the communities, how 
the word of mouth and how it goes out and how it impacts a 
whole community, how we are able to change policies within 
school systems and so forth. So the broader impacts is what is 
really key to us at tribal colleges, because we do lack the 
resources to continue to move forward as far as competing for 
these kinds of grants, when you have faculty and staff that 
carry on multiple tasks within the system, because we are 
understaffed to begin with. For example, some of our faculty 
members, aside from teaching 15 to 16 credit loads, they are 
also managing other Federal grants, so it is those kinds of 
things that it really does impact in a broader sense for us at 
tribal colleges. Thank you.
    Chairman Lipinski. Thank you.
    With that, I think we are going to complete the testimony 
for today. I want to thank our witnesses for all their 
testimony and answers to the questions here. The record will 
remain open for two weeks for additional statements from 
Members and for answers to any follow-up questions the 
Committee may ask of the witnesses.
    Thank you again. The witnesses are excused and the hearing 
is now adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Alicia C. Dowd, Associate Professor of Higher Education, 
        University of Southern California, and C-Director of the Center 
        for Urban Education

Questions submitted by Vice Chair Marcia L. Fudge

Q1.  I liked your idea of convening a panel of experts in culturally 
responsive pedagogy alongside scientists and social scientists to 
develop the language for a program solicitation. Could you please 
elaborate on your vision for this Program Solicitation? How else can 
the Federal Government assist in encouraging faculty to introduce 
culturally responsive pedagogies in classrooms?

A1. In regard to your first question, I envision that NSF would convene 
a Culturally Responsive Teaching in STEM Review Panel, which would be a 
standing panel of seven educational experts appointed to a three-year 
term. Panel members would be charged with providing ongoing guidance to 
NSF about how to incorporate culturally responsive teaching and 
pedagogy into STEM through NSF supported research and programs.
    NSF's director should appoint the panel based on nominations from 
presidents of the major academic professional associations.\1\ Selected 
nominees should be those whose scholarship demonstrates a significant 
contribution to the development and application of culturally 
responsive pedagogy in and outside of STEM fields. (I include other 
fields because the bulk of this work has been conducted outside of STEM 
fields.)
---------------------------------------------------------------------------
    \1\ In education and the social sciences, these associations 
include the American Educational Research Association, American 
Sociological Association, American Psychological Association, and 
American Anthropological Association. In STEM disciplines it includes 
the American Association for the Advancement of Science, American 
Mathematical Society, the American Mathematical Association for Two-
Year Colleges, American Physical Society, American Society for 
Engineering Education, and numerous field-specific associations in 
biology, chemistry, geology, engineering, technology, and other 
sciences.
---------------------------------------------------------------------------
    Based on the work of Dr. Gloria Ladson Billings of the University 
of Wisconsin Madison, Dr. Geneva Gay of the University of Washington, 
and others, culturally responsive pedagogy (also known as culturally 
responsive or culturally relevant teaching) has the following 
characteristics:

        1.  A focus on student learning and achievement, based on


                a.  Teacher recognition of students' ability to learn;

                b.  Teacher recognition of students' prior knowledge 
                and cultural assets;

                c.  A curriculum that invites students to question and 
                assume an active role in shaping social structures, 
                including those that create forms of institutional 
                racism and perpetuate racial bias through educational 
                practices;

        2.  Teachers and students have cultural competence, which means

                a.  Students don't experience a conflict between their 
                racial or ethnic identity and succeeding in school or 
                college;

                b.  Teachers can apply knowledge of their students' 
                cultural backgrounds in their teaching and curriculum 
                development.

                c.  Historical and contemporary forms of racism and 
                racial bias are acknowledged in the curriculum.

        3.  Sociopolitical awareness, because

                a.  For both teachers and students, education is 
                understood to be for the public good and includes the 
                aim of creating a better society.

    To judge the quality of the scholarship of panel nominees and their 
suitability for service on the Culturally Responsive Teaching in STEM 
Review Panel, NSF's director should ask noted scholars such as Dr. 
Ladson Billings, Dr. Gay, Dr. Estela Mara Bensimon (University of 
Southern California), Dr. Brian Brayboy (University of Utah), Dr. Kris 
Gutierrez (UCLA), Dr. Sylvia Hurtado (UCLA), and Dr. Danny Martin 
(University of Illinois Chicago) to form a selection advisory 
committee. Subsequently, committee members will nominate their 
successors for appointment by NSF's director and they may institute 
staggered terms of appointment.
    The first charge of the Culturally Responsive Teaching in STEM 
Review Panel should be to review and recommend revisions to the 
language of current Program Solicitations in NSF's Broadening 
Participation portfolio (including in the categories of Broadening 
Participation Focused and Broadening Participation Emphasis). The 
revised Program Solicitation language should communicate to Principal 
Investigators the standards for review of proposals, such that priority 
will be given to funding STEM educational programs and research that 
incorporate or develop culturally responsive educational practices.
    The second charge to the Culturally Responsive Teaching in STEM 
Review Panel should be to articulate research and evaluation standards 
for improving our knowledge of the educational practices that are 
culturally inclusive and that reduce racial bias in STEM classrooms.
    NSF's Broadening Participation at the National Science Foundation: 
A Framework for Action (August, 2008) planning document lists several 
strategic action items that can also be guided by the Culturally 
Responsive Pedagogy in STEM panel. These include:

        <bullet>  Provide training to NSF program officers;

        <bullet>  Diversify the pool of Program Solicitation reviewers;

        <bullet>  Orient proposal reviewers to NSF's broadening 
        participation goals;

        <bullet>  Provide learning opportunities for Principal 
        Investigators;

        <bullet>  Provide guidance concerning promising practices and 
        models;

        <bullet>  Evaluate broader impacts.

    The Culturally Responsive Teaching in STEM Review Panel should 
advise on the development of training and orientation materials and 
strategies. The members should also articulate research priorities.
    In regard to your second question, I first note that the 
application of culturally responsive pedagogy has been fairly limited 
in STEM college classrooms and learning environments. STEM faculty who 
undertake this work will be innovators. They will require support 
through peer networks to communicate what they learn for broader change 
in the culture of STEM classrooms. In this context, the Federal 
Government can best assist in encouraging faculty to introduce 
culturally responsive teaching in their classrooms by creating a 
prestigious fellowship that would provide funding for sabbatical leaves 
for well regarded STEM faculty to immerse themselves in the development 
of a STEM-focused culturally responsive pedagogy.
    Criteria for awarding sabbatical funding should include:

        <bullet>  The quality of the design of a sabbatical project to 
        expand the applicant's knowledge of culturally responsive 
        teaching;

        <bullet>  The applicants' demonstrated capacity to collect and 
        analyze data on his or her own teaching relative to the 
        characteristics of culturally responsive teaching;

        <bullet>  Willingness to engage in reflective practice about 
        what is required of STEM faculty to engage in culturally 
        responsive teaching (e.g. the challenges and rewards);

        <bullet>  A dissemination plan for communicating what is 
        learned with peers (e.g. through conference presentations, 
        workshops, and journal articles);

        <bullet>  A plan for broader impacts on institutional and 
        disciplinary practices;

        <bullet>  Responsiveness on feedback from reviewers in revising 
        resubmitted applications.

    Ideally, the sabbatical funding will enable a year of immersion in 
the study of culturally responsive pedagogy, the development of 
innovative STEM curricula, and experimentation with new teaching 
practices. Implementation of the dissemination plan may occur towards 
the end of the sabbatical leave or in the following years. Applications 
from small groups of STEM faculty from institutions of different types 
(e.g. community colleges and research universities) who jointly design 
and implement coordinated projects should be given priority.
    To promote alliances across different types of institutions, awards 
should be distributed among faculty from two-year colleges, liberal 
arts colleges, research universities, Historically Black Colleges and 
Universities, Hispanic Serving Institutions, and Tribal Colleges. 
Fellowship recipients should be asked to convene together once in the 
fall and once in the spring during their sabbatical leaves to share 
ideas. Previous fellowship recipients should be asked to serve as peer 
mentors and to review applications in subsequent years.
    If instituted, the Culturally Responsive Teaching in STEM Review 
Panel should be asked to play a role in determining the elements of the 
sabbatical fellowship Program Solicitation, eligibility and review 
criteria, and objectives by which to evaluate the effectiveness of this 
approach to faculty development and STEM curricular change. The program 
evaluation should include an assessment of the participants' subsequent 
leadership roles in their disciplines and at their institutions in 
transforming STEM curricula; teaching and self assessment practices; 
student recruitment, selection and assessment criteria; and faculty 
professional development.
    I appreciate this opportunity to expand on my recommendations and 
will be happy to clarify these ideas as needed.
                   Answers to Post-Hearing Questions
Responses by Elaine L. Craft, Director of the South Carolina Advanced 
        Technological Education National Resource Center, Florence 
        Darlington Technical College

Questions submitted by Vice Chair Marcia L. Fudge

Q1.  The industry-sponsored paid internship program you described in 
your testimony sounds like a great way to not only address the 
financial difficulties that students face, but also to give them real-
world technical experience. Could you provide some detail on how this 
program was established, and how can Members of Congress help to 
incentivize partnerships such these?

A1. Industry-sponsored, paid student internships are integral to an 
organized employer collaboration with Florence-Darlington Technical 
College. The Advanced Technological Education Industry Consortium was 
founded almost eleven years ago to address the shared challenge among 
local employers of a shortage of highly skilled engineering technicians 
that are required for their businesses to be globally competitive. At 
the time of the organizational meeting, the college was not producing 
enough engineering technology graduates to meet employer needs. As a 
result, employers often found themselves in a no-win cycle of hiring 
talent away from other local employers. A major local industry hosted 
the meeting that started the initiative. Meeting participants agreed 
that the goal should be to increase the overall pool of qualified 
technicians to support local employment needs, and that an internship 
program augmented by scholarship support would be implemented in 
collaboration with the college. The internship program was designed to 
effectively employers to ``grow their own'' talent and future 
workforce. Employers agree to hire student interns at the same starting 
salary and not to employ the students full-time until they graduate. As 
part of the agreement, financial need (tuition, fees, books/supplies) 
for a participating students that remains unmet after other Federal 
financial aid and college scholarships have been awarded is paid by the 
employer who hires the intern.
    Tax credits for providing paid internships would stimulate broader 
business/industry participation, especially among smaller businesses.

Q2.  In your testimony, you mentioned that between 60 and 90 percent of 
students enrolled in community colleges must take remedial classes 
before they can earn credits toward their STEM degrees. However, it was 
also noted during the hearing, that many of the first year STEM degree 
courses are designed as ``weed out'' courses, creating an initial 
barrier for students to overcome in the pursuit of a STEM degree. How 
can we improve these gateway courses and overall learning experiences 
so that students are encouraged, rather than discouraged, to pursue 
degrees and careers in STEM?

A2. Students who are underprepared to be successful in STEM courses are 
currently placed in developmental reading, English, and/or mathematics 
courses that have no science, technology, or engineering content and 
thus have no relevance to STEM careers and provide no encouragement or 
information that would stimulate a student to pursue a STEM career. 
Mathematics is the only part of STEM that is taught at the 
developmental level, and it is taught out of context and is seen as a 
barrier to a student's advancement rather than as a critical basic 
skill that is used in science, technology, and engineering. 
Developmental education has changed very little over the years and is 
rarely, if ever, a funding priority for colleges although the numbers 
of students requiring this service continues to grow.
    Grant-funded projects supported by the National Science Foundation 
have demonstrated that when underprepared students are provided with 
hands-on, relevant learning opportunities, these students can master 
important STEM content/skills and be encouraged to pursue STEM careers 
in biotechnology, engineering technology, nursing/health sciences and 
other STEM careers that are in high-demand. The most significant action 
Members of Congress can take to improve the current system is to 
provide financial incentives to enable and encourage educators to 
reform developmental studies specifically to increase the number of 
diverse students who pursue STEM careers. Grant funding to two-year 
technical and community colleges should specifically encourage these 
educational organizations to improve the developmental, pre-curriculum 
learning experiences for all students by adding science, technology, 
and engineering courses and/or imbedding STEM content, applications, 
and hands-on inquiry-based learning within developmental studies. 
Financial support for the recruitment and preparation of sufficient 
numbers of STEM faculty to make this transformation possible will be 
critical to success and should also receive targeted funding support.

                                   

</pre></body></html>
